<html>
<title> - U.S. INTERESTS AT THE JUNE U.S.-CHINA SUMMIT</title>
<body><pre>[Senate Hearing 105-568]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-568

 
              U.S. INTERESTS AT THE JUNE U.S.-CHINA SUMMIT

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 14, 1998

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                           __________________

                    U.S. GOVERNMENT PRINTING OFFICE
48-628 cc                   WASHINGTON : 1998





                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Jendrzejczyk, Mike, Washington Director, Human Rights Watch/Asia 
  Division.......................................................    33
Kagan, Robert, Senior Associate Carnegie Endowment for 
  International Peace............................................    46
Kapp, Robert A., President, U.S.-China Business Council..........    51
Roth, Stanley O., Assistant Secretary, East Asian and Pacific 
  Affairs, Department of State...................................     8
Waldron, Arthur, Ph.D., Lauder Professor of International 
  Relations, University of Pennsylvania; Director of Asian 
  Studies, American Enterprise Institute.........................    28

                                Appedix

Responses of Secretary Roth to Questions Asked by Chairman Helms.    67
Responses of Secretary Roth to Questions Asked by Senator Grams..    68
Responses of Secretary Roth to Questions Asked by Senator 
  Ashcroft.......................................................    68
Responses of Secretary Roth to Questions Asked by Senator Thomas.    74


              U.S. INTERESTS AT THE JUNE U.S.-CHINA SUMMIT

                              ----------                              


                         THURSDAY, MAY 14, 1998

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jesse Helms 
(chairman of the committee), presiding.
    Present: Senators Helms, Thomas, Ashcroft, Feinstein, 
Wellstone, and Feingold.
    The Chairman. The committee will come to order.
    We have another one of those difficult mornings. I would 
say to our guests that every Senator belongs to at least two 
major committees, and some of us belong to three. Often there 
is a conflict.
    Senator Biden is being delayed. He is in transit--Senator 
Biden, who is the Ranking Member--will be here shortly.
    I am going to inquire of the minority side if there is any 
objection if we proceed. [No response.]
    The Chairman. First off, over the past few days, repression 
against democracy demonstrators by Indonesia's military has 
mounted. All of you know that. A few days ago, the 
administration, in my judgment, belatedly and indirectly 
acknowledged the need for political reform in Indonesia.
    Now, in light of the developments there, including the 
reports in various media, including the New York Times this 
morning, that the administration is sending a top-level 
military delegation to Jakarta to urge restraint upon 
Indonesia's armed forces, I have invited Assistant Secretary 
Roth to tell the committee about the military delegation and 
its mission, and to elaborate on the very brief statement 
issued by the State Department a few days ago, stating that all 
parties in Indonesia recognize the need for political reform.
    Mr. Roth, I appreciate the circumstances you are in, and I 
appreciate your being here this morning. To get you cranked up, 
I am going to ask you a question. Is the U.S. making political 
reform--specifically a transition toward democratic--the top 
priority in its Indonesia policy? I bounce that ball to you, 
and you take it from there.
    Mr. Roth. Well, thank you very much, Mr. Chairman. Let me 
begin with a double apology, first, on behalf of Secretary 
Albright, the fact that she was not able to come today due to 
her overloaded schedule with travel, and she very, very much 
appreciates the graciousness of you personally and your staff 
in accommodating her.
    The Chairman. I am going to ask you to pull the microphone 
a little closer to you so that the folks in the back can hear 
you.
    Mr. Roth. The Secretary is personally appreciative of the 
fact that you were willing to allow me to come up as a poor 
substitute for her today, to deal with the China issue. So I 
extend her regrets that she was unable to do it.
    Second, because of the situation in Indonesia, as I 
explained to you just before we started the hearing, which kept 
us up most of the night, we were late in getting the testimony 
up to you. We pride ourselves on getting you the testimony in 
time. I want to give you an assurance we will try not to do 
that again. But, again, we appreciate the indulgence of you and 
your staff on this.
    The Chairman. You certainly did the best you could. That I 
understand and I appreciate.
    Mr. Roth. Now, let me turn to your serious question about 
Indonesia.
    First, I should give you a piece of news: That the military 
delegation is not going. The concept, first of all, was never a 
delegation. The concept was to have CINCPAC Admiral Prueher, 
who, as you know, travels almost constantly throughout the 
region, make yet another trip to Indonesia, to talk to his 
military counterparts, to continue to send a message of 
restraint, and to up the ante and the urgency in light of the 
terrible developments that took place this week.
    We started talking about this trip before anybody had been 
killed anywhere in Indonesia. As we were planning for it, the 
situation obviously got worse.
    This is not a new message. This is a message that I have 
made publicly in Indonesia, in a press conference weeks ago, 
again, before anybody was killed, urging restraint. We have 
made it privately. We have made it publicly. We regret that it 
has not been listened to. We will continue to urge this.
    We thought that it was important to send this message 
through every possible channel, civilian and military. That was 
the reason why we had asked the CINC to go out there.
    However, given the deterioration today and the situation in 
Jakarta, including the fact that the road to the airport is 
closed, there was a literal question of getting into the 
country, and then the question of whom do you meet with when 
you get there. So we have temporarily postponed this mission 
until such time as he can carry it out. But the message of 
restraint, you know, will go forward. I think that you asking 
this question at the very beginning of a hearing that is 
otherwise slated to be on China will certainly get the 
attention of the Indonesian authorities. I think that is 
positive.
    Let me answer your next question. Which is, what is our 
number one priority?
    I think you will agree with me that my absolute, number one 
priority, and what has to be the number one priority for the 
U.S. Government, is the lives of our own citizens. We have 
2,000 to 3,000 Americans in Jakarta, 11,000 to 12,000 Americans 
in Indonesia--which, as you know, is a collection of more than 
13,000 islands, slung across more than 3,000 miles. Given the 
situation in Jakarta, which has become very dicey, with a lot 
of rioting, a lot of looting and little order at this point, we 
cannot guarantee the security of our American citizens, and 
neither can the Indonesian authorities.
    So, we are spending most of today working to make 
arrangements to see what we can do to better protect our 
citizens and, if necessary, get some out. I do not want to 
overstate this. This is not a total evacuation. We are not 
closing our embassy. This is not panic. But we all take very 
seriously our obligations to protect American lives.
    Going right behind that, of course, is the question of the 
situation in Indonesia itself. There I think Secretary Albright 
made a very direct statement. I was a little surprised by your 
characterization of it as indirect. Secretary Albright released 
a statement making four key points. First, she just 
categorically deplored the violence, and attributed it to the 
security forces. No beating around the bush; that is the 
Secretary Albright you expect to get.
    Second, she made the plea at a much higher level than me, 
obviously, for restraint.
    Third, she made a public statement, saying that there was a 
need for political reform. We wanted to make it very clear that 
this is not purely a technical/economic issue, in terms of 
implementation of an IMF agreement; that events have progressed 
so far that there has to be some political reform if there is 
going to be a peaceful resolution to this crisis.
    What the statement meant, when it said that all parties 
have called for this, is the fact that in one way or another, 
there has been a plethora of calls for political reform in a 
way that did not exist had I been briefing you 10 days ago. 
President Suharto, before he went to Africa, made a statement, 
saying that he was prepared for political reform before 2003, 
which was the end of his term. More importantly, yesterday he 
made another statement, saying if people want reform now, 
political reform now, he is prepared to let that happen.
    But I am not saying that means he and you and I have the 
same definition of political reform or that we are at the verge 
of resolution. He has called for it. The Speaker of their 
Parliament has called for reform. A key general has called for 
political reform. Needless to say, many opposition figures have 
called for political reform, as of course has the students. So, 
you have a totally new environment in Indonesia compared to 
only a few weeks ago, in terms of the public debate about 
political reform.
    So, we feel this is an Indonesian issue. It is Indonesians, 
including the government, calling for it. They need to work 
this out. It is not for us to give an American plan. But we 
have made it absolutely unambiguous that we see the need for 
political reform. We think the way to get this is through 
something they have been talking about, but have not yet done 
in Indonesia, which is through dialog between the government 
and its citizens.
    There are many different ways they could do this, ranging 
from the informal meetings to the formal, like convening some 
of their national organizations or assemblies. That is up to 
them. We do not think there should be an American plan. But we 
do think that the government has to be talking to its citizens, 
not shooting students in the street. We have made that 
absolutely clear.
    So, we are looking for a process of political reform. 
Obviously we would hope that political reform will lead to a 
greater degree of democracy and pluralism.
    The Chairman. I see the distinguished chairman of the 
relevant subcommittee, Mr. Thomas, is here. I invite you to 
make any comment and ask any questions you may have in mind, 
sir.
    Senator Thomas. All right, sir. Thank you, Mr. Chairman. I 
am pleased that you brought up the Indonesia thing. Obviously 
that is the issue. But I do want to make a short statement, 
please.
    As we approach the second summit meeting between President 
Clinton and Jiang Zemin, as chairman of the subcommittee, I am 
encouraged at the present state of U.S.-China relations. From a 
low point in 1994-1995, I think relations have strengthened in 
the last 3 years. A number of promising developments have 
occurred even in the last year.
    For example, the Mainland's threats and the displays of 
force with respect to Taiwan have receded, the transition of 
Hong Kong to Chinese governance has come off better than even 
the severest critics believed. China's violations of her 
bilateral IPR agreements appear to have diminished. China has 
selected an economist as their new Premier, and he has already 
announced plans to shrink the bureaucracy, make market reforms 
and dismantle the system of state-owned enterprises. We hope 
that happens. During the recent financial crisis, the Chinese 
have been helpful in stemming the growing panic in the market, 
and that is good.
    So, I feel that China is doing better. Keep in mind I am 
speaking in a context, of course. China has still a long ways 
to go in some of the areas, we believe.
    While I applaud the release of selected prisoners of 
conscience, we must remember they leave behind them thousands 
of prisoners that need to be dealt with. We must remember that 
the release of two or three, or even hundreds, of prisoners 
does not change the underlying system which still exists.
    We continue to be disturbed by reports about nuclear 
proliferation in Pakistan, which becomes even more important 
now. Tibet remains an object of repression. Of course religious 
persecution from the government towards Buddhists, Catholics, 
Muslims, and Protestants continues, and we think for no other 
reason than religious beliefs.
    But, on balance, I do believe that China is improving. Not 
as fast or broad, of course, as we would like. That is always 
the case. But there has been, I think, some evidence that the 
idea of engagement has been helpful, rather than containing or 
castigating or cutting off from the rest of the world.
    So, I support the President's decision to go to this 
summit. However, I just want to make a couple of caveats. It is 
only 5 weeks away, and the administration has yet to make any 
step toward consulting with Congress about the agenda, as far 
as I know.
    Last year, before Jiang Zemin's visit, the National 
Security Council and the State Department came to the Hill on 
several occasions, and we talked about our concerns. Where is 
that effort this year?
    A lack of consultation has left the Congress kind of 
nervous. The situation is kind of like the President going to a 
wedding. We know he is going to take a present, but he has 
already wrapped it and we have no idea what is inside. So, I 
think we ought to do something about that.
    So, I strongly urge that the administration, if it wants to 
sort of sooth the apprehension in the Congress and assist those 
of us who believe in constructive engagement, we ought to have 
a little more input into it, and not have an unwelcome surprise 
package when the President goes there.
    Secretary Roth, I am delighted to have you here.
    Thank you, Mr. Chairman.
    The Chairman. I thank you, Senator.
    Now, Senator Wellstone, I have preempted the subject 
temporarily, the subject matter for which this meeting was 
called. I wonder if you would like to ask a question or if you 
have a statement, or both.
    Senator Wellstone. Well, thank you, Mr. Chairman.
    Let me just go with something that just kind of builds on 
what I have heard. I should be brief.
    First of all, I would thank you for the focus on Indonesia. 
I have had a chance to speak twice from the Senate floor. The 
first time I talked about the students that are serving 12-14 
year sentences for the crime of just trying to speak out and 
organize people. I worried, as President Suharto had left 
Indonesia for the conference, he made it crystal clear that 
heads could be cracked. Indeed, that is what has happened, and 
six students have lost their lives.
    I really do hope that--Secretary Roth, I appreciate the 
statements that have been made, but I think that the words will 
not be taken seriously unless they are backed by concrete 
action. I think IMF support should be conditional upon respect 
for human rights. I do not believe we should be a party to 
providing the financial assistance to a country that 
systematically rounds up people, tortures people and, in the 
case of very courageous students, murders its citizens.
    And so I want to be clear that I do not believe that our 
Government has--I do not believe that we are--I think our words 
are fine, but they are not matched by our actions. I think that 
we should be crystal clear that there will not be, from our 
point of view, the IMF support unless this government ends this 
repression.
    Now is the time for the U.S. Government to be on the side 
of these students and to be on the side of these citizens in 
Indonesia. I guess that is more of a statement. But that is my 
very, very strong belief.
    I guess we will have a chance to go into the debate about 
China. Let me just simply say, following on the comments of my 
colleague from Wyoming, that I appreciate the leadership of the 
chair. We were serious about what we were doing here. We had a 
resolution that had about 96 votes, I think, which said, Look, 
at the very minimum, bring up human rights at the U.N. 
Commission on Human Rights in Geneva. I am bitterly 
disappointed that our Government did not do that.
    Now, we were told that the Chinese were going to sign onto 
this International Covenant on Civil and Political Rights. They 
have not done it. They have yet to sign it.
    We have had people like Wei Jingsheng and others tell us 
that people in China, people have the courage to speak out, the 
courage to stand alone and speak out. Look to that conference 
in Geneva. Look to what we would do as to whether or not there 
would be support for people who showed this courage. We were 
silent.
    And I believe our silence--I mean, I think the 
administration completely turned its thumbs down on a 
resolution passed with 96 votes--or was it more? Was it 96 
votes?
    The Chairman. Ninety-five votes.
    Senator Wellstone. Ninety-five votes. I exaggerate by one.
    So, I would just say that I think the record is weak. I 
think our country ought to be doing much more. That is going to 
be the subject of our hearing today. In particular, as long 
as--let me make my final point, Mr. Chairman. You gave me this 
opportunity. I hope you are not regretting it. There are 158--
according to Wang, there are 158 Chinese men and women that 
remain in prison for their role in the Tiananmen Square 
protest. As long as they remain in prison, I do not think the 
President of the United States of America ought to be visiting 
there. I do not believe he should go there.
    I think, symbolically, that sends the wrong message. It is 
a message of betrayal to those students and to other courageous 
citizens in China. I do not believe he should go there.
    And we can talk more about other issues, as well, but I 
want to make that point.
    The Chairman. Very well.
    Before we begin, among the guests here this morning, there 
is one delegation that is very important to me, from my home 
State, the Chamber of Commerce of Asheville, North Carolina. 
Now, if you do not know anything about Asheville, North 
Carolina, you need to learn, and go see the beauty thereof and 
the warm hospitality.
    Now, I would say to everyone here and those watching on 
television that the purpose of this hearing--we scheduled it to 
enable this committee to consider important issues related to 
the President's upcoming visit to China. I want to say to the 
Senator from Minnesota that I appreciate the comments that he 
has made.
    I came to the Senate 26 years ago. Throughout that time I 
have been working with Chinese young people in this country--
mainly students. I am sure other Senators have done as much, 
and this same sort of thing. But I think we better be careful 
where we put our priorities. Because I think the world is 
looking at us.
    And let me say at the outset that Secretary Albright was 
willing to come here this morning, to include this meeting in 
her incredibly busy schedule. But I am the one who told her 
that she was overloading the circuit with her travels and self-
defeating physical condition. So, I suggested that she not 
come, because she has been instantly available any time the 
chairman of this committee has called upon her. I wish her 
well. As I told her the other night, I think she ought to stay 
home and rest a little bit before she hits the road again. So, 
I gave her a rain check for a later date.
    And with respect to the People's Republic of China--I call 
it Communist China--the President's trip to China will be the 
first by a U.S. President since the 1989 Tiananmen Square 
massacre of democracy protestors. I will never forget that 
young man standing in front of that tank. I feel fairly certain 
that I speak for a lot of other Americans, too. That event was 
a major event in the relations between the United States and 
China.
    And largely in response to the will of Congress, the Bush 
administration imposed a number of sanctions. Then the present 
administration arrived a few years later with fire-breathing 
rhetoric about coddling dictators, and emphasizing its resolve 
to use the administration's economic clout to pressure China to 
improve its record of respect for personal and political 
liberties.
    Now, I think that what has happened, gentlemen and ladies, 
is a matter of record. The administration has stepped back from 
its promises to bring about improvements in China's human 
rights record, settling instead for token releases of major 
dissidents, often releasing them into exile into the United 
States. Which would be bad enough, but the administration has 
used these token actions by the Beijing Government to justify 
serious concessions and concerns by the United States.
    In fact, the President recently concluded a lengthy ritual 
of multilateral diplomacy on human rights while at the very 
same time he was secretly negotiating an end to U.S. efforts to 
enact a resolution on China at the annual meeting of the U.N. 
Human Rights Commission to which Senator Wellstone just 
referred.
    Worse still, weeks after signing on to a civilian nuclear 
power agreement with China, and telling Congress that China was 
no longer proliferating nuclear material to Iran, China was 
discovered--what else--discovered preparing to sell Iran tons 
and tons of a chemical used in making weapons-grade uranium. 
Nevertheless, the President insisted that China's commitments 
on proliferation were credible.
    I do not believe that. I, frankly, disbelieve it. The New 
York Times reports that the administration is allowing U.S. 
companies to transfer satellite technology used in missile 
guidance systems. The Washington Times has published a 
memorandum, outlining an administration plan to offer China 
access to missile technology if Beijing renews promises not to 
export such material.
    That will not wash, ladies and gentlemen--certainly not 
with me.
    Having given up so much, one might assume that there was 
not much left to give up. You would be wrong in that 
assumption. Because there is a lot remaining that we better be 
careful about.
    Let me try to be clear in my own judgment about what the 
United States interest must be. Those interests do not include 
going along to get along with China. U.S. interests are 
democracy and freedom in China, and in Tibet and in Taiwan and 
in Hong Kong. U.S. interests are synonymous, I think, with a 
democratic China that keeps its promises on proliferation, and 
on trade, and on human rights, and suffers the consequences 
when it does not do that.
    So, let me again--we are now where we would have begun 
about 32 minutes ago if this meeting had not been overtaken by 
other events. So, we welcome you, Mr. Roth, for your discussion 
of U.S.-China relations and the summit agenda. You may proceed, 
sir.

 STATEMENT OF STANLEY O. ROTH, ASSISTANT SECRETARY, EAST ASIAN 
            AND PACIFIC AFFAIRS, DEPARTMENT OF STATE

    Mr. Roth. Thank you once again, Mr. Chairman. I will 
certainly relay your kind words about the Secretary to her upon 
my return.
    The Chairman. Please do.
    Mr. Roth. In my testimony, what I have tried to do is to 
pick up where we left off. Meaning, since this is not the first 
time that I have testified on China, I have tried not to waste 
your time by going through the entire rationale of our 
engagement policy. You have heard it before. I am very happy to 
go through it again in response to questions if you want. But I 
really try to pick up from where we left off, which was the 
last summit. So, let me start from there.
    In some sense, I might say that I think Senator Thomas 
perhaps has encapsulated my testimony better than I did it in 
my own statement, in talking about the dynamic of progress 
versus the need for more progress. I think he really summarized 
what it is we are trying to do, and I think how we think we are 
going to get there. But let me proceed.
    I believe we have made encouraging progress in many--not 
all, but many--aspects of our relationship with China since the 
summit meeting. Given the priority that you have attached, Mr. 
Chairman, to a number of human rights issues, let me turn to 
this set of issues first.
    Progress on human rights has been a vital component of our 
engagement with China. Just 6 months ago, members of this 
committee, as well as the international community at large, had 
grave concerns regarding the health and status of two of 
China's most prominent political dissidents, Wei Jingsheng and 
Wang Dan. Against the backdrop of intense dialog with the 
United States and continued public U.S. criticism of China's 
human rights record, the Chinese authorities have released both 
Mr. Wei and Mr. Wang on medical parole, and have permitted some 
other dissidents to depart China.
    Let me say, Mr. Chairman, that it was one of the most 
poignant meetings that I have ever had, when I met with Mr. 
Wei's sister before his release, and she expressed her very 
grave concerns that he might not survive if he did not get out. 
So we, understandably, attached very high priority, on 
humanitarian grounds, to getting him out. I believe you share 
that priority.
    None of us have tried to overstate the significance of his 
release or the release of several other dissidents. Our belief 
is we recognize progress when it occurs, and that we are very 
glad that Mr. Wei is out, has gotten medical treatment, is 
healthy, and is now functioning and expressing his views 
freely; the same with Wang Dan, the same with some of the other 
dissidents.
    We are not saying this is enough. That is not our message 
to you. It is not our message to China. But it is progress.
    Similarly, China has signed the U.N. Covenant on Economic, 
Social and Cultural Rights, and has pledged to sign the U.N. 
Covenant on Civil and Political Rights. We hope that they will 
do so before the summit.
    President Jiang Zemin personally hosted a delegation of 
U.S. religious leaders, which was an unusual step. The Chinese 
Government has agreed to followup on this visit with further 
dialog and exchanges. These exchanges can and do produce 
results. Again, not at the pace you and I would like, but, 
nevertheless, some results, we believe, are better than none.
    We note, for example, the fact that Bishop Zeng Jingmu was 
released from prison this week, even though we are still trying 
to clarify the circumstances of whether he is under house 
arrest or a free man at home. But at least this elderly, 
distinguished bishop is not in jail. So, there is some 
progress.
    In the meantime, we have not hesitated to call it as we see 
it. When we do not like what is going on, we say it. But the 
steps the Chinese have taken within the space of just a few 
months are nonetheless significant. We are going to continue to 
push forward in our dialog, in the expectation of greater 
progress on human rights issues in the future.
    I think the same case can be made with respect to 
nonproliferation. China has taken concrete steps toward 
strengthening their export control regimes. In so doing, have 
contributed to regional and global stability. The Chinese have 
committed to phaseout nuclear cooperation with Iran, and to 
refrain from assisting unsafeguarded nuclear facilities 
anywhere. They have implemented strict nationwide nuclear 
export controls. They have issued a State Council directive, 
controlling the export of dual-use items with potential nuclear 
use. They have joined the Zangger Nonproliferation Treaty 
Exporters Committee. They have signed and ratified the Chemical 
Weapons Convention. They have adopted chemical export controls.
    These steps build upon the progress that this and previous 
administrations have made in integrating China into 
international control regimes.
    Let me now turn to the economic sphere. China's emergence 
on the world economic stage is of major significance to the 
United States. As our widening trade deficit with the PRC 
demonstrates, we have a major interest in working toward an 
open Chinese economy that is integrated into a rules-based 
trade regime. WTO accession, which we are working very hard on 
in the run-up to the summit, is intended to do just that--
ensuring meaningful access for U.S. companies in the growing 
China market.
    But WTO accession is a complex and lengthy process. Chinese 
accession can only come on a fully commercial basis. We believe 
that the reforms and openings that China must undertake to gain 
membership are fundamentally in China's interest, as well as in 
our interest. We are thus committed to working with China to 
advance this goal.
    In this context, we are encouraged by one of the results 
from Secretary Albright's recent trip to China, when she met 
with Premier Zhu Rangii. He made it clear that China is 
committed to working toward a WTO agreement. We seem to have 
some momentum, that was established by Ambassador Barshefsky's 
latest round of negotiations a few weeks back.
    Let me also say, on the economic side, that we welcome the 
responsible measures China has taken in the wake of the Asian 
financial crisis, particularly its commitment not to devalue in 
the face of regional depreciation.
    We know, Mr. Chairman, how much importance you attach to 
Hong Kong and its continued well-being. We of course share 
that. One of the most important things China has done in order 
to ensure Hong Kong's continued prosperity is not to devalue 
its currency. I think that is a very favorable development for 
Hong Kong and the entire region.
    As I just mentioned with human rights and with 
nonproliferation, this does not mean that everything is perfect 
on the economic side. We still have a long road ahead in 
addressing all of our bilateral economic concerns. The key, of 
course, to dealing with the trade deficit is to get China to 
take steps to address the growing imbalance. The key is 
increasing U.S. exports to China.
    We are encouraged by some steps, such as the $3 billion 
Boeing sale that was signed at the last summit. We hope we will 
make further progress on the commercial side in the months 
ahead.
    Let me turn, before I address the immediate issues you 
raised in your most recent letter to the Secretary on China--
and I want to address each of those--but before I do, let me 
offer a little broader framework for where I think we are 
heading with China. That is the broadening and deepening 
strategic dialog between the United States and the PRC. Over 
the course of the past year, we have expanded the breadth and 
scope of our strategic dialog with China.
    Let me give you one example where I think this is paying 
important results: North Korea. I am the head negotiator for 
the United States team at the four-party talks in Geneva. I can 
tell you it is truly remarkable to sit there and listen to the 
Chinese negotiator read points that I could have written. He 
has made points about how crucial it is, for example, for the 
North to talk to the South, and that peace has to be made 
between the parties on the Peninsula. It is not a question of 
peace between the U.S. and North Korea nearly as much as it is 
a question of peace between North Korea and South Korea.
    That is a very welcome position, and a demonstration of 
shared interests that would not have happened several years 
ago. So, I use this as an example of how we are trying to find 
areas where we can work and cooperate productively with China. 
Again, none of this rationalizes bad behavior in other areas. 
It does not excuse it, apologize for it or mean we accept it. 
But what I am trying to do is suggest that we are seeking 
aggressively to maximize the number of issues where we can work 
together to promote American interests, even as we continue to 
push on the problem areas.
    And a lot of the negotiations now are turning into 
nontraditional areas, the things that I guess you would call 
postcold war issues--the so-called global issues. So we are 
spending a lot of time, particularly since the last summit, in 
working on some promising areas.
    Energy and the environment, we need China to stop polluting 
with the coal-powered energy plants that are contributing 
enormously to global warming. We are working on the rule of 
law, a program I hope you will endorse, to train lawyers, to 
train judges, to try to see that they enforce laws which read 
well but are useless of they are not enforced. But this is an 
area where we think we can make considerable progress in 
reforming their prison system, which I know has been a 
longstanding personal concern of yours.
    So, there is a whole host of issues--we call them the nine 
baskets--that we are working on with China, to try to get some 
accomplishments before the next visit.
    Finally, let me now turn to the specific issues you raised 
in your letter to Secretary Albright. First, on the 
nonproliferation side. The Secretary does not want me to tell 
you that everything is perfect. That is not our message. What 
we are emphasizing is very significant progress and what might 
work to get more progress. That is the message.
    We are equally troubled, as are you, by troubling reports 
that China--you know, there are suspicions that China has 
violated its promise not to proliferate nuclear material, by 
arranging to ship chemicals necessary for the conversion of 
uranium to Iran. As you know, China is a major producer of 
nuclear, chemical and missile-related equipment and technology. 
Of course we must be vigilant in our monitoring to ensure 
China's adherence to its commitments.
    Although I am limited to what I can say on this in open 
testimony, let me explain to you and the committee in broad 
terms how the specific case that I believe you were referring 
to was resolved. After receiving reports of the alleged 
transaction, we immediately approached the authorities in 
Beijing. The Chinese responded by conducting an investigation 
into the allegations, after which they assured us that although 
contacts have been made, no transfer of such chemicals had 
taken place, nor would they be permitted to take place.
    Should you wish to discuss this issue in greater detail, 
Mr. Chairman, I would happy to arrange a time for you to do so 
in closed session.
    I would like to point out, however, that this case is 
illustrative of how we think engagement with China enables us 
to deal with new challenges, and to make progress to resolve 
issues when problems comes up. We would have preferred if the 
problem had not come up, but we certainly prefer resolving it 
without a shipment of the materials to the reverse--the 
materials going forward.
    Let me now turn to Taiwan, another priority issue for you 
and for us. Let me take this opportunity to categorically deny 
that progress at the summit will be achieved at Taiwan's 
expense. Despite widespread rumors to the contrary, there will 
be no fourth ``communique'' regarding Taiwan arms sales. I say 
that to you categorically.
    The reason for this is quite simple, Mr. Chairman. Our 
position regarding Taiwan is clear and unchanged. We remain 
committed to our unofficial relationship with Taiwan, in 
accordance with the three U.S.-PRC joint communiques, and the 
Taiwan Relations Act, which of course is U.S. law. We continue 
to support--indeed, to insist--on the peaceful resolution of 
the Taiwan issue. Our efforts to improve relations with the PRC 
are intended to strengthen peace and stability in East Asia 
and, in that sense, will benefit the region as a whole, 
including Taiwan.
    Furthermore, I believe that the record shows that tensions 
across the Taiwan Strait are lowest when U.S.-China relations 
are strong. In that regard, we are encouraged by signs of a 
renewed willingness on both sides of the Strait--meaning the 
PRC and Taiwan--to resume their very important cross-Strait 
dialog.
    Last month, representatives from the two unofficial--PRC 
and Taiwan--organizations in charge of this issue met for the 
first time since 1995. They met in Beijing for 2 days of talks. 
We welcome this new development, and firmly believe that 
improvements in cross-Strait relations is in both parties' best 
interests, as well as that of the entire region.
    The third issue you raised in your letter, Mr. Chairman, is 
Hong Kong. As the administration noted in its April 1 update of 
the Hong Kong Policy Act report, many aspects of the transfer 
of autonomy to the people of Hong Kong have gone well. Still, 
while the overall transition from a colony to a special 
autonomous region under Chinese sovereignty has been smooth, we 
recognize, as you have in your letter, Mr. Chairman, that 
serious issues of contention remain.
    A new election law has been passed that will lead to a 
legislature that is less representative than the 1995-1997 
Legislative Council. Other colonial era laws have been adapted 
to grant immunities to certain Chinese Government agencies.
    We are troubled by these developments, and have not 
hesitated to share our concerns with officials at the highest 
levels in Hong Kong and in China. President Clinton himself 
candidly conveyed to Tung Chee Hwa his disappointment with 
changes in the election laws last year. Secretary Albright and 
other senior U.S. officials have repeatedly advocated free, 
fair and fully representative elections, as well as the 
maintenance of Hong Kong's judicial and legal autonomy.
    The last issue you raised in your letter, Mr. Chairman, is 
the lack of tangible progress toward resolution of the Tibet 
issue. Tibet continues to be a priority for Secretary Albright. 
She discussed a number of Tibet-related issues in Beijing last 
month, and pushed hard for the resumption of dialog with His 
Holiness the Dalai Lama.
    I think you know, Mr. Chairman, that there is enormous 
difference between a talking point and a major effort to try to 
resolve issues. I can assure you, having accompanied Secretary 
Albright, that Tibet figured prominently in each of her 
meetings, including with President Jiang Zemin. She further 
indicated that President Clinton is going to raise the issue of 
Tibet once again, just as he did with President Jiang Zemin 
last year.
    And of course we are pushing for the resumption of a dialog 
between the Dalai Lama, or his representative, and the Chinese 
authorities, as the best means of trying to make progress on 
this issue.
    The Chairman. I hope you will not consider me rude, for 
lack of a better word, but tell me what goes on when you are, 
quote, negotiating with China, Beijing, about Tibet. Give me a 
sample of the dialog. What do you say to them? Do you say, We 
hope you will stop? Or do you get stronger than that? What do 
you say and what does Madam Secretary say?
    She and I have discussed this thing 100 times, I suppose, 
and it is getting worse and worse. If it keeps on, there will 
be no people of Tibet left to worry about. I hope that is not 
the resolution of the problem that the administration has in 
mind. What do you say to them and what do they say to you in 
response?
    Mr. Roth. I will answer it in general terms now, but I 
would be happy to be brief you completely, you know, in terms 
of the confidentiality of diplomatic conversations, but let me 
start generally and respond, and then I can----
    The Chairman. Mr. Roth, that is not going to cut it.
    Mr. Roth. Well, let me give you an answer. First of all, I 
think the beginning of our position always is to make sure the 
Chinese understand just how important this issue is to the 
United States and to the Clinton administration. As you know, 
when you meet with another country like China and you have 5 or 
6 hours of meetings, there tend to be a lot of issues on the 
agenda. So it is very important to differentiate with the other 
officials, so that they know what your priority issues are.
    And let me tell you categorically, unequivocally, they know 
how important this issue is to President Clinton.
    The Chairman. But they keep on killing the Tibetans, 
though. They are slaughtering people over there. Standing by 
and wringing our hands is not going to do it, Mr. Roth. I hope 
you will not mind my candor about this thing.
    Let me tell you something. I have known the Dalai Lama for 
years and years and years. Probably you have, too. He, like the 
majority of the Tibetan people, is one of the kindest, dearest 
men that I have ever known. We do not agree on spiritual 
matters and that sort of thing. But I took him to North 
Carolina one time. You may know about this. I took him to a 
university campus. I did not know how many people would show 
up. But I thought the students there ought to be able to hear 
this man and see him.
    Well, you have heard of standing room only in auditoriums. 
There was standing room only on the campus of that university. 
I never saw that many people who drove 100 miles just to see 
him.
    So it does matter. It does matter to the people of North 
Carolina, and I think to all of the American people, what 
happens to, one, the Dalai Lama, and two, the Tibetan people. 
That is the reason I was sort of bearing in on you, to say, 
what kind of negotiating are we doing and what is the reaction 
of the Chinese people with whom you are negotiating?
    If you do not want to discuss it in public, I will arrange 
for their to be an executive session so that you can discuss it 
with those members of the committee who are interested in it.
    Mr. Roth. I would welcome that.
    The Chairman. All right. You may proceed.
    Mr. Roth. I think I have said enough, as we can, on Tibet 
in this session, but let me turn to an issue you did not raise.
    The Chairman. I apologize, but this is just heavy on my 
heart.
    Mr. Roth. No apology necessary, Mr. Chairman. Let me say 
that we completely share your concern. What I was trying to say 
before is that this is not a boiler plate issue. This is not a 
talking point issue. It is not as if we say, OK, we have raised 
Tibet, now we can move on to something else. That the kind of 
conversation we have is sufficiently long, detailed, serious, 
high-level, going all the way up to the President of the United 
States, that they know this is an area where we need to have 
progress, and that they are not going to have the completely 
normal relationship with the U.S. they want if there is not 
progress.
    The Chairman. Good.
    Mr. Roth. President Clinton has said this personally to the 
President of China, and I expect he will say again in the 
upcoming visit. I would look forward to giving you a fuller 
brief in executive session.
    I wanted to address one more issue which, even though you 
did not raise it in your letter, is of personal interest I know 
to you and to me. That is the question of organ trafficking. 
Rather than wait for you to ask a question, let me address it 
in my testimony itself.
    We have a shared personal interest on this issue. I have 
stated in my recent correspondence with you, as well as in my 
letter at the time of my confirmation hearing, that we are 
working to try to get the Chinese Government to ensure, one, 
that we believe that this is one of the most crucial human 
rights issues that has to be pursued. It is not sufficient for 
them simply to say it is not happening--which is what they say. 
They tell us it is not a matter--it is against the law and it 
is not a problem and we do not have to talk about it.
    We do not accept that. Secretary Albright, on this most 
recent trip, once again told them that that is not a 
satisfactory answer. We are delighted that they tell us their 
laws do not provide for this. But what are they doing to 
implement the laws? What are the controls? What about this 
court case in New York? What steps are they taking to make sure 
the laws are enforced?
    We do not, I am sorry to tell you today, have satisfactory 
answers to these questions. I wish we did. It is not, I can 
assure you, for lack of trying on our part. We will continue to 
raise the same questions, and we will continue to try to get 
the answers. We will continue to do it at a high level.
    This is not one of the issues where I would say we have 
made any progress yet with China since the summit, regrettably. 
But this is an issue where I personally push and every senior 
administration official does, as well. So we will keep trying. 
That is the best I can tell you at this point.
    In the meantime, I want to recall that I was pleased to 
have an opportunity to meet with Harry Wu, as you had asked me 
to, and as of course I was delighted to an American official, 
to receive information he has on this subject. I made a 
standing offer to him, which I reiterate today, that any time 
he has new information he wants to bring to the U.S. 
Government, just call. He will get an instant appointment. That 
is a genuine offer, and I would be delighted--I admire the work 
he has done. I believe that some of the progress that has been 
made on the judicial side, our court cases, is because of his 
activism. So this--you know, he is welcome in my office--is the 
message I am trying to transmit.
    I have exceeded my time, Mr. Chairman, so why don't I 
conclude.
    [The prepared statement of Mr. Roth follows:]

                 Prepared Statement of Stanley O. Roth

    Mr. Chairman, thank you for the opportunity to give the members of 
the Senate Foreign Relations Committee an update on the state of US-
China relations. Secretary Albright has received your letter dated 
April 27th in which you raise specific concerns about US-China policy. 
The Secretary deeply regrets that she is unable to appear before you 
herself today and hopes that she will have the opportunity to continue 
her dialogue on US-China relations with this committee in the near 
future. In the meantime, Secretary Albright has asked that I represent 
her this morning to address your concerns and outline where we are in 
our relationship with the PRC.
    Mr. Chairman, since I last testified before this committee in 
September of 1997, we have made encouraging progress in many aspects of 
our relationship with China. From Jiang Zemin's state visit last 
October through Secretary Albright's recent trip to Beijing, we have 
worked hard with our Chinese counterparts to identify areas of common 
interest and to achieve progress on issues of concern.
    Given the priority that you have attached to a number of human 
rights issues, Mr. Chairman, let me turn to this set of issues first. 
Progress on human rights has been a vital component of our engagement 
with China. Just six months ago members of this committee as well as 
the international community at large had grave concerns regarding the 
health and status of two of China's most prominent political 
dissidents, Wei Jingsheng and Wang Dan. Against a backdrop of intensive 
dialogue with the United States and continued, public U.S. criticism of 
China's human rights record, the Chinese authorities have released both 
Mr. Wei and Mr. Wang on medical parole and have permitted some other 
dissidents to depart China. China has also signed the UN Covenant on 
Economic, Social, and Cultural Rights and has pledged to sign the UN 
Covenant on Civil and Political Rights. President Jiang Zemin also 
recently hosted a delegation of U.S. religious leaders, and the Chinese 
government has agreed to follow up this visit with further dialogue and 
exchanges. These exchanges can and do produce results, as the release 
from prison just this week of Bishop Zeng Jingmu has demonstrated.
    None of this is to suggest that human rights abuses in China are a 
thing of the past. On the contrary, we have reported to Congress that 
China continues to deny or curtail many fundamental freedoms. But the 
steps the Chinese have taken within the space of just a few months are 
nonetheless significant, and we will continue to push our human rights 
dialogue forward in the expectation of greater progress on these issues 
in the future.
    As with our dialogue on human rights, we similarly pressed the 
Chinese for progress on non-proliferation. They have responded by 
taking concrete steps towards strengthening their export control 
regimes, and in so doing have contributed to regional and global 
stability. The Chinese have: committed to phase out nuclear cooperation 
with Iran and to refrain from assisting unsafeguarded nuclear 
facilities anywhere; implemented strict, nation-wide nuclear export 
controls; issued a State Council directive controlling the export of 
dual-use items with potential nuclear use; joined the Zangger NPT 
exporters' committee; signed and ratified the chemical weapons 
convention and adopted chemical export controls. These steps build upon 
the progress that this and previous administrations have made in 
integrating China into international control regimes and signify the 
PRC's growing acceptance that the proliferation of weapons of mass 
destruction is not in its own interests.
    China's emergence on the world economic stage is of major 
significance to the United States, and as our widening trade deficit 
with the PRC demonstrates, we have a significant interest in working 
towards an open Chinese economy that is integrated into a rules-based 
trade regime. WTO accession is intended to do just that, ensuring 
meaningful access for U.S. companies in the growing China market. But 
WTO accession for any applicant is a complex and lengthy process, and 
Chinese accession can only come on a fully commercial basis. We believe 
that the reforms and openings that China must undertake to gain 
membership are fundamentally in China's interest as well as our own and 
thus are committed to working with China to advance this common goal.
    In this context, we are encouraged by recent indications from 
Premier Zhu that China remains committed to working towards a WTO 
agreement and by the momentum that appears to have been established in 
USTR Barshefsky's latest round of negotiations in Beijing. We also 
welcome the responsible measures China has taken in the wake of the 
Asian financial crisis, particularly its commitment not to devalue in 
the face of regional depreciations. In light of your strong feelings 
regarding the future of Hong Kong, Mr. Chairman, it is worth noting 
that Hong Kong was a primary beneficiary of this policy.
    As in other areas, there is still a long road ahead in addressing 
all of our bilateral economic concerns. While we are working with the 
Chinese on the challenge of WTO accession, we are pressing them to take 
steps to adders our growing trade deficit. The key is increasing U.S. 
exports to China. We are encouraged by steps, such as the $3 billion 
dollar Boeing contract signed at the October summit, and hope that we 
will be able to make further progress in the months ahead.
    Movement forward on the areas I just indicated--human rights, non 
proliferation and economic cooperation--has been made within the 
broader framework of a deepening strategic dialogue between the United 
States and China. Over the course of the past year, we have expanded 
the breadth and scope of our strategic dialogue with China, and Korea 
policy is one area where this expanded dialogue has yielded results. 
Peace on the Peninsula is as fundamental a strategic interest for China 
as it is for the United States. The heightened risk of instability in 
the North due to its prolonged food crisis, moreover, poses as much a 
security threat to the PRC as it does to our own troops and allies, and 
thus we share a common interest in working together to defuse tensions 
and deter aggression.
    Still, despite such common cause, many observers speculated that 
historical ties to the North might prompt Beijing to play spoiler and 
thus complicate our efforts to deal with the DPRK. Thanks to the 
strategic dialogue we have been cultivating with the Chinese, however, 
the PRC has defied such expectations and emerged as a partner in the 
promotion of peace and stability on the Peninsula. China worked closely 
with the United States to bring North Korea to the negotiating table 
last fall and now sits with us at the four party talks in the common 
pursuit of a permanent peace. China chaired the most recent North-South 
negotiation, which we wholeheartedly support, and is pro actively 
addressing the humanitarian crisis in North Korea through substantial, 
ongoing food and fuel donations. These efforts have been complementary 
to our own and have contributed to the security and stability of the 
entire region.
    Mr. Chairman, the above are not exhaustive examples of the fruits 
of engagement but rather highlights of the progress we have made in 
just the past eight months. We are moving forward with China in other 
areas as well, on issues as diverse as rule of law, energy and the 
environment, and law enforcement. I want to make clear that we are 
neither satisfied with nor complacent about this progress; there are 
issues on which we have admittedly made less headway as well as 
significant areas of contention on each of the fronts in which I noted 
progress.
    On that note, Mr. Chairman, let me turn now to the specific 
concerns you raised in your letter to Secretary Albright. First in 
regards to suspicion that China violated its promise not to proliferate 
nuclear material by arranging to ship chemicals necessary for the 
conversion of uranium to Iran, let me assure you that we share your 
concerns about such troubling reports. China is a major producer of 
nuclear, chemical, and missile related equipment and technology and we 
must be vigilant in our monitoring to ensure China's adherence to its 
commitments.
    Although I am limited as to what I can say on this in open 
testimony, let me explain to the committee in broad terms how this case 
was resolved. After receiving reports of the alleged transaction, we 
immediately approached the authorities in Beijing. The Chinese 
responded by conducting an investigation into the allegations, after 
which they assured us that although contacts had been made, no transfer 
of such chemicals had taken place or would be permitted to take place. 
Should you wish to discuss this issue in greater detail, Mr. Chairman, 
I would be happy to arrange a time to do so at your convenience in 
closed session.
    I would like to make the point, however, that this case is 
illustrative of how engagement with China enables us to deal with new 
challenges. Regular contacts and dialogue between the United States and 
China provide a mechanism for dealing with problems as they arise.
    As for your concerns regarding the Administration's attitude toward 
Taiwan, let me take this opportunity to categorically deny that 
progress at the summit will be achieved at Taiwan's expense. Despite 
widespread rumors to the contrary, there will be no fourth 
``communique'' regarding Taiwan arms sales. The reason for this is 
quite simple, Mr. Chairman: our position regarding Taiwan is clear and 
unchanged. We remain committed to our unofficial relationship with 
Taiwan in accordance with the three U.S.-PRC joint communique's and the 
Taiwan Relations Act, and continue to support the peaceful resolution 
of the Taiwan issue. Our efforts to improve relations with the PRC are 
intended to strengthen peace and stability in East Asia and in that 
sense will benefit the region as a whole, including Taiwan.
    Furthermore, the record shows that tensions across the Taiwan 
Strait are lowest when US-China relations are strong. In that regard, 
we are encouraged by signs of a renewed willingness on both sides of 
the Strait to resume their dialogue. Last month representatives from 
the PRC's ARATS and Taiwan's SEF, the two ``unofficial'' organizations 
which carry out direct contacts between Beijing and Taipei, met in 
Beijing for two days of talks, marking the first real step towards the 
resumption of formal cross-Strait dialogue since Beijing suspended the 
talks in June 1995. We welcome this new development and firmly believe 
that improvement in cross-Strait relations is in both parties' best 
interests as well as that of the entire region.
    The third issue you raised in your letter, Mr. Chairman, is that of 
the state of democratic freedoms in Hong Kong. As we noted in our April 
1, 1998 update of the Hong Kong Policy Act report, many aspects of the 
transfer of autonomy to the people of Hong Kong have gone well.
    Still, while the overall transition from a colony under the British 
crown to a special autonomous region under Chinese sovereignty has been 
smooth, we recognize as you have in your letter, Mr. Chairman, that 
serious areas of contention remain. A new election law has been passed 
that will lead to a legislature that is less representative than the 
1995-97 Legislative Council, and other colonial era laws have been 
adapted to grant immunities to certain Chinese government agencies.
    We are troubled by these developments and have not hesitated to 
share our concerns with officials at the highest levels in Hong Kong. 
President Clinton himself candidly conveyed to Tung Chee Hwa his 
disappointment with changes in the election laws late last year, and 
Secretary Albright and other senior U.S. officials have repeatedly 
advocated free, fair, and fully representative elections as well as the 
maintenance of Hong Kong's judicial and legal autonomy.
    The last issue raised in your letter, Mr. Chairman, is the lack of 
tangible progress towards resolution of the Tibet issue. Tibet 
continues to be a priority for Secretary Albright. She discussed a 
number of Tibet-related issues in Beijing last month and pushed hard 
for the resumption of dialogue with His Holiness the Dalai Lama. It is 
worth noting that the Dalai Lama himself has publicly stated support 
for U.S. engagement with China, expressing his firm belief that such 
engagement keeps the pressure on while keeping channels of 
communication open.
    We share your concerns about the degradation of Tibet's unique 
cultural, linguistic and religious heritage and will continue to press 
the PRC for progress on the ground. Secretary Albright made it very 
clear during her recent trip to Beijing that President Clinton intends 
to discuss Tibet during his upcoming visit.
    As a final note, Mr. Chairman, I'd like to address the problem of 
organ trafficking. We have shared a personal dialogue on this issue 
before, and as I stated in recent correspondence with you on this 
issue, we are working to ensure that the Chinese government understands 
in no uncertain terms that the allegations of organ trafficking are a 
key human rights issue for us. At the same time, we are continuing to 
press authorities in Beijing in an effort to ensure compliance with 
their own regulations. These regulations, as you know, require prior 
consent for the use of an executed prisoner's organs and prohibit the 
sale of organs for profit. We will continue to push for greater 
transparency in these areas and for improvements in China's legal 
system that would better safeguard individual rights and due process. 
Per your request, Mr. Chairman, I met with Harry Wu to discuss this 
issue, at which time I made a standing offer to meet with him again at 
any time. In the meantime, should any additional information regarding 
organ trafficking come to your attention, Mr. Chairman, I hope that you 
will share it with me so that I may continue to pursue this matter.
    As the Secretary indicated in her remarks in Beijing, and as I have 
tried to give the members of this committee a sense of in my testimony, 
engagement with China is producing results. Our broad goal has been to 
work toward the emergence of a China that is stable and non-aggressive; 
that tolerates differing views and adheres to international rules of 
conduct; and that cooperates with us to build a secure regional and 
international order. We have made significant, if uneven, progress with 
the Chinese on all of these fronts, and in so doing have contributed to 
an ongoing process of change within China. Our candid dialogue on every 
aspect of the relationship will continue as we prepare for the June 
summit in Beijing, and I expect that we will continue to make progress, 
however modest, on various fronts. More importantly, we will continue 
to engage the Chinese long after the summit, expanding areas of 
cooperation, dealing forthrightly with our differences, and advancing 
American interests and values.
    The Chairman. All right. I am going to forego questions at 
this time. We have been joined by the distinguished Senator 
from California, who has not had a chance to say one word. We 
are glad to have any comment that you have. I appreciate your 
coming. You have at him.
    Senator Feinstein. Well, I thank you very much, Mr. 
Chairman. I do not have any major comments to make at this 
time.
    I think, however, that the President's visit to China in 
June really will signal a new era in terms of the policy of 
engagement with China, and will, I believe, put some ``there'' 
there. I happen to believe it is the right thing to do at this 
time. I am also heartened that in May there will be some direct 
communication links so that our leaders can talk to one 
another.
    I believe very strongly that there is an opportunity coming 
in the next few months for some major breakthroughs with China. 
I am not sure that anyone should hold the President's visit 
necessarily as a determinant of this, but that the new 
leadership is now firmly in place in China, that the United 
States has the opportunity, really for the first time, to 
define this strategic partnership and to begin to impress on 
the Chinese, in a coordinated, unified and major way, some of 
our major concerns with the development of the rule of law; the 
treatment of minorities; the Tibetan issues, which are profound 
and festering and need direct attention; as well as some of the 
other areas of concern, involving nuclear nonproliferation, and 
particularly now with the Indian situation and the potential 
Pakistani situation.
    I hope to ask, when I have an opportunity, some questions, 
Mr. Chairman, and I do not know if this is that time.
    The Chairman. Yes.
    Senator Feinstein. It is.
    Let me begin with a direct question of you, Mr. Roth. 
Again, welcome, and it is good to see you again. I wanted to 
ask a question. China is a party to the Nuclear 
Nonproliferation Treaty, and stated on May 11, 1996, that it 
will not provide assistance to unsafeguarded nuclear 
facilities. Also, at the October 1997 U.S.-China summit, China 
pledged that it would phaseout its nuclear energy cooperation 
with Iran.
    What I would like to know is has China stopped its nuclear 
energy cooperation with Iran and its assistance to 
unsafeguarded nuclear facilities in Pakistan? We know that 
China has provided help to Pakistan. I think the record is 
clear. But has that ceased? And is China ceasing its nuclear 
energy cooperation with Iran?
    I think these are very important things. Because it is so 
difficult the way the ministries function sometime outside of 
the scope of political control, have they set up a regime of 
export controls to protect against illegal exports by rogue 
ministries or companies, as they promised in the October 
summit?
    Mr. Roth. I believe in my statement, before you arrived, I 
indicated a number of specific steps which China has taken to 
indicate that it is fulfilling its commitment. At the same 
time, I indicated that there are questions about 
implementation, particularly about implementation not 
necessarily with the approval of the government, that, you 
know, we have to followup on as a key issue. I gave a specific 
example within the limits of what I could say in open session 
about a recent case in which we received reports of an activity 
that would not have been consistent. We brought this to the 
attention of Chinese authorities, and the shipment did not 
happen.
    Obviously, in a classified version, we can give you real 
details on this. But the general point is yes, we believe, on 
the nuclear side, they have lived up to their commitments.
    Senator Feinstein. Because I think of the strategic 
partnership effort that you are engaging upon in the engagement 
effort, I think this is the most fundamental. I mean, this is 
where we have to have very clear cooperation, and particularly 
with the situation on the Subcontinent at the present time.
    Some good news this month is that the first resumptions of 
the across-the-Strait discussion between Taiwan and China was 
to take place in April, in Beijing. Do you have any reports 
from that meeting? Can you enlighten us if any progress was 
made, or even with what was discussed?
    Mr. Roth. Yes. I mean, obviously this is a very high 
priority for us, because we see cross-Strait dialog as the most 
promising means of trying to reduce tensions across the Strait. 
Our understanding is that this meeting was primarily about 
process rather than substance; that the purpose is to try to 
get back to where they had been in 1995, which was on the verge 
of a high-level political meeting, the so-called Wang-Ku talks, 
to really address some of the substantive issues.
    So, my understanding, based on what we have heard from the 
parties, is that this was more of an organizational session 
than a substantive session. The important thing is that it 
appears increasingly likely, when you talk to the parties, both 
sides suggest that they will have a meeting before the end of 
the year and get this dialog back on track, to start addressing 
the substantive issues.
    Senator Feinstein. I think, indeed, that is very good news. 
I think there has been a kind of rumor going around that last 
year was Hong Kong, this year is Taiwan, next year is Tibet. I 
mean, I wish I could really add policy to that rumor, other 
than to express the hope that indeed it is true. It certainly 
seems that at least the discussions will begin. I know some of 
the parties on the Taiwan side will be coming to this country 
shortly. We will have an opportunity, hopefully, to discuss 
this with them, as well.
    What is your assessment of the upcoming elections of the 
LegCo in Hong Kong? I just came from a meeting with 
representatives from the American Chamber of Commerce in Hong 
Kong. They indicated to me that they felt that the transition 
had gone, as they put it--and this is a quote--in a seamless 
way. They did have some concerns on the development of the rule 
of law. We discussed the elections that are upcoming.
    What is your assessment of these elections which are going 
to be held next week?
    Mr. Roth. I think I met with the same delegation. The point 
that I made to them was obviously there is a considerable 
amount of good news, in terms of what took place in Hong Kong. 
For one thing, we have seen virtually no Chinese military 
presence, which had been a major concern, if you go back to 
less than 1 year ago. The troops have not left the barracks.
    At the same time, there is absolutely no doubt that when it 
comes to the electoral process, I would say that is the issue 
where things have gone the least well. President Clinton 
himself has expressed disappoint to Tung Chee Hwa, when he came 
to the United States, about the arrangements, because we 
believe a system was adopted which is going to make this less 
representative than it had been previously.
    The real issue is the future; where do we go from here? As 
you know, there is a process set out in the Basic Law that 
makes it possible to establish what we would call full 
democracy within 10 years. But when you talk to the Hong Kong 
people, you are finding that many of the Hong Kong people 
themselves are talking about expediting this process, not to 
have it take 10 years. I think that is going to be the focus of 
the activities way beyond this specific election.
    Senator Feinstein. Thank you very much.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much. The Senator from 
Missouri, Mr. Ashcroft.
    Senator Ashcroft. Thank you, Mr. Chairman. Thank you for 
holding this hearing on the June summit between the United 
States and China. I will submit for the record a complete text, 
but I want to move through some of the statement that I would 
like to make.
    We have of course the upcoming summit with China, which 
would be the second in less than a year. I am a little 
disappointed that this administration's greater time commitment 
to U.S.-China relations has not been matched by what I consider 
to be more effective and prudent policy. The administration's 
China policy has too often been one of appeasement. From 
weapons proliferation to trade agreements to human rights, 
China has made and broken commitments while this administration 
has looked the other way.
    Nuclear detonations in India are deeply troubling, but the 
laxity of this administration's efforts to stop Chinese 
proliferation activity throughout South Asia over the last 6 
years contributed to the level of regional insecurity.
    For example, during last October's summit between President 
Clinton and President Jiang, the administration rewarded the 
Chinese for almost 20 years of broken nonproliferation pledges 
with implementation of the long dormant U.S.-China Nuclear 
Cooperation Agreement. This Agreement will allow the United 
States to send its best nuclear reactor technology to Communist 
China, the country which the Central Intelligence Agency has 
identified as, and I quote, the most significant supplier of 
weapons of mass destruction-related goods and technology to 
foreign countries.
    I suppose it could be portrayed as a triumph, when the 
latest potential Chinese transfer to Iran's nuclear weapons 
program was detected and stopped. But I wonder if that is 
really a triumph, when the commitment of the Chinese appears to 
be that if you catch us with our hand in the cookie jar, we 
will drop the cookie. What about the items that we do not 
detect? Is the commitment only to discontinue deliveries when 
the United States develops information about them?
    As a condition of implementing the Nuclear Cooperation 
Agreement, the President certified to Congress on January 12, 
1998, that China had made clear and unequivocal commitments not 
to proliferate nuclear technology. Then, 2 months later, the 
Washington Post reported China was caught trying to ship to 
Iran hundreds of tons of anhydrous hydrogen fluoride to use to 
enrich uranium to weapons-grade. The material reportedly was 
destined for the Isfahan Nuclear Research Center, one Iran's 
principal sites to manufacture an explosive core for an atomic 
device.
    The administration reportedly discovered this effort by 
China even before the President certified China's 
nonproliferation commitments to Congress. That is troubling.
    How did the administration respond to this latest example 
of China's total disregard for honoring its nonproliferation 
commitments? Outrage? Suspension of the Nuclear Cooperation 
Agreement? Not hardly.
    The administration spun this troubling story into a 
diplomatic triumph, arguing that U.S. protests against the 
nuclear transfer to Iran were responded to more quickly by the 
Chinese, who made new pledges not to engage in such behavior in 
the future.
    Nuclear technology is not the only area troubling to me. 
According to the New York Times, the President allowed 
satellite technology to be sent to China which benefited 
China's intercontinental ballistic missile program--missiles 
with nuclear warheads pointed at the United States, according 
to recent revelations.
    Further, according to the reports in the Washington Times, 
the administration is trying to lure China into the Missile 
Technology Control Regime with promises of greater space 
cooperation with the United States, cooperation that would 
enhance their access to U.S. missile technology. The 
administration is offering to help arm China in exchange for 
Chinese entrance into a missile nonproliferation framework that 
China has violated repeatedly in the past, and is probably 
violating right now.
    The picture is no better in our trade relations with the 
Chinese. The administration has administered U.S.-China trade 
relations with what appears to be a disregard for U.S. law and 
a dismal record of broken trade commitments by the Chinese 
Government. Ever since the United States and China normalized 
relations in 1979, the two countries have had a bilateral trade 
agreement, which is the foundation for China's MFN status.
    Just 3 months ago, the President had to decide whether 
China's concessions in trade and services were satisfactory. 
The President said yes, even though the administration released 
a report on China, stating that its trade regime is, political; 
severely restricted; prohibitive; unpredictable; preferential; 
de facto; unpublished. It is vague according to the quotes from 
the report, inaccessible, inconsistent, non-comprehensive--and 
the list goes on.
    Furthermore, when China was facing Congress' near 
withdrawal of MFN status and President Bush's threat of 
sanctions over its trade practices in 1991, China had to make 
specific, measurable trade commitments to the United States to 
preserve MFN and to obtain U.S. support for China's accession 
to the World Trade Organization. China has failed to honor 
these commitments by the December 31, 1997 deadline, which 
passed at the end of last year. Yet the administration is 
moving forward in negotiation for China's WTO accession.
    So we had conditioned our help on an agreement between the 
Congress and the President of the United States, that China was 
going to be involved in certain kinds of activities. The 
President has ignored China's lack of compliance. The 
administration's consistent appeasement of China's predatory 
trade and investment practices has resulted in a 1997 trade 
deficit of $49.7 billion, an imbalance more than 2.5 times 
larger than the U.S. trade deficit with the entire European 
continent.
    I see that the chairman is signalling that I should submit 
the rest of my statement for the record, and I will be happy to 
do so.
    I am concerned that U.S. policy toward China is not being 
formulated to advance U.S. interests effectively. It seems to 
me that there is a suggestion that the way we show concern 
about an issue is that we make sure we talk about it a long 
time when we show up for bilateral conferences. I think it is 
important that U.S. interests not just be bullet points on a 
meeting agenda. Defending U.S. interests has got to be the 
driving force of our policy and conduct.
    We have to understand that China will draw lessons from our 
policy and conduct, and I fear that Beijing is sensing they 
will not be held accountable for behavior contrary to American 
interests to the values of a free society.
    [The prepared statement of Senator Ashcroft follows:]
              Prepared Statement of Senator John Ashcroft
    Mr. Chairman, I want to thank you for holding this hearing on the 
June summit between the United States and China. The upcoming summit 
with China will be the second in less than a year. Unfortunately, this 
Administration's greater time commitment to U.S.-China relations has 
not been matched with a more prudent and effective China policy.
    This Administration's China policy can best be described as 
appeasement at every turn. From weapons proliferation to trade 
agreements to human rights, China has made and broken commitments while 
this Administration has looked the other way or worse.
    Nuclear detonations in India are deeply troubling, but the laxity 
of this Administration's efforts to stop Chinese proliferation activity 
throughout South Asia over the last six years contributed to the level 
of regional insecurity.

U.S. National Security Interests

    For example, during last October's summit between President Clinton 
and President Jiang, the Administration rewarded the Chinese for almost 
20 years of broken nonproliferation pledges with implementation of the 
long-dormant U.S.-China nuclear cooperation agreement. This agreement 
will allow the United States to send its best nuclear reactor 
technology to Communist China--the country which the Central 
Intelligence Agency identified as the ``most significant supplier of 
weapons of mass destruction-related goods and technology to foreign 
countries.''
    As a condition of implementing the nuclear cooperation agreement, 
the President certified to Congress on January 12, 1998 that China had 
made ``clear and unequivocal'' commitments to not proliferate nuclear 
technology. Only two months later, on March 13, 1998, The Washington 
Post reported that China was caught trying to ship Iran hundreds of 
tons of anhydrous hydrogen fluoride, a material used in enriching 
uranium to weapons grade. This material reportedly was destined for the 
Isfahan Nuclear Research Center, one of Iran's principal sites to 
manufacture the explosive core of an atomic device. The Administration 
reportedly discovered this effort by China even before the President 
certified China's nonproliferation commitments to Congress.
    How did the Administration respond to this latest example of 
China's total disregard for honoring its nonproliferation commitments? 
Outrage? Suspension of the nuclear cooperation agreement? Not hardly. 
The Administration spun this troubling story into a diplomatic triumph, 
arguing that U.S. protests against the nuclear transfer to Iran were 
responded to more quickly by the Chinese, who made new pledges not to 
engage in such behavior in the future.
    Nuclear technology is not the only area of troubling U.S. 
assistance to China. According to reports in The New York Times, the 
President allowed satellite technology to be sent to China which 
benefited China's intercontinental ballistic missile program missiles 
with nuclear warheads pointed at the United States.
    Furthermore, according to reports in The Washington Times, the 
Administration is trying to lure China into the Missile Technology 
Control Regime with promises of greater space cooperation with the 
United States--cooperation that will enhance China's access to U.S. 
missile technology. The Administration is offering to help arm China in 
exchange for Chinese entrance into a missile nonproliferation framework 
that China has violated repeatedly in the past and probably is 
violating now.

U.S. Trade Interests
    The picture is no better in our trade relations with the Chinese. 
This Administration has administered U.S.-China trade relations with 
what appears to be a disregard for U.S. law and a 4ismissal of the 
broken trade commitments by the Chinese government.
    Ever since the United States and China normalized relations in 
1979, the two countries have had a bilateral trade agreement that is 
the foundation for China's MFN status. Just three months ago, the 
President had to decide whether China's concessions in trade and 
services were satisfactory. The President said ``yes'' even though the 
Administration released a report on China stating that its trade regime 
is: ``political,'' ``severely restricted,'' ``prohibitive,'' 
``unpredictable,'' ``preferential,'' ``de facto,'' ``unpublished,'' 
``vague,'' ``inaccessible,'' ``inconsistent,'' ``noncompetitive,'' and 
the list goes on.
    Furthermore, when China was facing Congress' near withdrawal of MFN 
status and President Bush's threat of sanctions over its trade 
practices in 1991, China had to make specific, measurable trade 
commitments to the United States to preserve MFN and obtain U.S. 
support for China's accession to the WTO. China has failed to honor 
these commitments by the December 31, 1997 deadline, yet the 
Administration is moving forward in negotiations for China's WTO 
accession.
    The Administration's consistent appeasement of China's predatory 
trade and investment practices has resulted in a 1997 trade deficit of 
$49.7 billion an imbalance more than 2.5 times larger than the U.S. 
trade deficit with the entire European Continent, and accounting for 
one-fourth of the U.S. trade deficit with the entire world.
U.S. Interests in Civil Liberty
    Finally, China's human rights practices violate China's own 
constitution and the 14 international covenants on civil liberties 
China has signed. Beijing is engaged in a massive and systematic 
campaign to repress religious and political dissent. Imprisonment, 
forced abortion, torture, and summary execution are some of the 
atrocities listed in the State Department's latest report on China's 
human rights practices.
    In spite of such behavior, the Administration declined even to 
introduce a resolution at the U.N. Commission on Human Rights 
condemning China's violations of civil liberty. Rather than confront 
China's oppression, the Administration reportedly is shifting its focus 
to encourage China to sign more international covenants on human 
rights. Paper covenants on human rights have not stopped the Chinese 
bayonet so far, and I submit they never will until there is genuine 
political change in China. Why is this Administration pushing China to 
sign more covenants to protect the human rights that the Chinese 
government has shown no intention of honoring?

The June Summit
    Mr. Chairman, it is time for the Senate of the United States to 
take a stand on U.S.-China relations. The Senate must raise awareness 
of the obstacles to a strong U.S.-China relationship, and I intend to 
introduce a resolution on June 4--the anniversary of the Tiananmen 
Square massacre--outlining the real issues that need to be discussed at 
the June summit between President Clinton and President Jiang.
    A positive relationship between our two countries is in the 
interest of the United States and China, but this Administration is 
laying the groundwork for serious problems with China in the future. A 
strong diplomatic relationship is based on mutual respect and trust. 
Rather than address Chinese behavior which undermines that trust, this 
Administration is covering up the landmines of U.S.-China relations 
that are bound to explode in the future. Helping China arm its defense 
establishment, overlooking China's broken trade and nonproliferation 
commitments, and turning a deaf ear to China's oppressed are not 
elements of a thoughtful and courageous China policy.
    The President will be going to China next month, and his first stop 
will be at Tiananmen Square, the site of so much bloodshed just nine 
years ago. Paying homage to the students who died at Tiananmen Square 
should be the first thing the President does at the June summit. It 
should not be the last, though. National security, trade, and broader 
human rights issues should be addressed frankly and forthrightly 
throughout the summit.
    Summits are about statesmanship, not salesmanship. Engaging in 
another photo-op summit with Beijing without addressing the fundamental 
deficiencies in U.S.-China relations is a disservice to the American 
people and a threat to a stable U.S.-China relationship in the future.
    The Chairman. Thank you, Senator.
    We have another panel, and I am interested in hearing from 
them, as well.
    We have one final gentleman who has not been heard from 
this morning.
    Senator Feingold, we welcome you and we would be glad to 
hear from you.
    Senator Feingold. Thank you, Mr. Chairman. I would ask 
unanimous consent that my statement be included in the record.
    The Chairman. Without objection.
    [The prepared statement of Senator Feingold follows:]

              Prepared Statement of Senator Russ Feingold

    Mr. Chairman, thank you for calling this hearing today on this 
timely subject. I am pleased we have the opportunity to explore what 
U.S. interests are at the upcoming U.S.-China summit which will take 
place when President Clinton travels to China late next month. I 
appreciate the opportunity to discuss this agenda so far in advance of 
the actual visit, with the hope that the strong views of the members of 
this Committee might be taken into consideration as final decisions are 
made about the agenda.
    As this hearing makes clear, there are myriad subjects at issue 
with respect to the relationship between the United States and China, 
and I am constantly struck by the challenges that China presents us. 
China has what I cannot help but call a ``kaleidoscope'' of problems: 
flagrant abuse of human rights, a brutal occupation of Tibet, the 
curtailment of civil liberties in Hong Kong, slave labor, nuclear 
proliferation, unfair trade practices, rampant copyright piracy--the 
list goes on and on. Looking at any one of these issues, I am hard 
pressed to find evidence--even after years of so-called constructive 
engagement--China has made any meaningful progress on any of these 
fronts.
    The up-coming summit in Beijing is yet another in a long line of 
constructive engagement steps that the Administration has taken, steps 
which I have generally opposed because I do not see that progress has 
been achieved. This includes the October 1997 state visit of Chinese 
President Jiang Zemin and the failure of the United States to sponsor a 
resolution condemning human rights abuses in China and Tibet at the 
most recent meeting of the United Nations Commission on Human Rights. 
This latter decision by the Administration was made despite the 
overwhelming support in the Senate of a resolution, which I was proud 
to co-sponsor, that urged the United States to ``introduce and make all 
efforts necessary to pass a resolution'' at the Commission on Human 
Rights.
    As we all know, for the past few years, China's leaders have 
aggressively lobbied against such efforts earlier and more actively 
than the countries that support a resolution. In 1997, they threatened 
Denmark, which had made a difficult decision to sponsor such a 
resolution. This year, Chinese officials played a diplomatic game with 
various European governments, and succeeded in getting European Union 
foreign ministers to drop any EU co-sponsorship of a resolution.
    The complete failure of the United States and the EU to push for a 
resolution at the Commission was, in my mind, gravely unfortunate. The 
multilateral nature of the Commission makes it an appropriate forum to 
debate and discuss the human rights situation in China. By adopting 
international human rights treaties, China has made commitments to 
international human rights law, and one of the basic purposes of the 
Commission is specifically to evaluate China's performance with respect 
to those commitments. The Commission's review has lead to proven, 
concrete progress on human rights elsewhere, and the expectation has 
been that such scrutiny would lead to concrete progress in human rights 
in China.
    Despite China's announcement last year that it would sign the 
United Nation's Covenant on Economic, Social and Cultural Rights and a 
few other token steps, I see no evidence of real human rights 
improvement on the ground in China. The fact that human rights 
conditions in China are growing worse, not better, indicates that human 
rights continues to demand top priority.
    Nearly four years after the President's decision to de-link most-
favored-nation status from human rights--a decision I have always said 
was a mistake--we can not forget that the human rights situation in 
China and Tibet remains abysmal. Hundreds, if not thousands of 
individuals are detained or imprisoned for their political and 
religious beliefs. The press is subject to tight restrictions. And 
monks in Tibet are harassed for showing reverence to the Dalai Lama, 
who coincidentally happens to be in my home state of Wisconsin this 
week.
    In a well-quoted sentence, the most recent State Department human 
rights report notes that ``the Government of China continued to commit 
widespread and well-documented human rights abuses, in violation of 
internationally accepted norms, including extra judicial killings, the 
use of torture, arbitrary arrest and detention, forced abortion and 
sterilization, the sale of organs from executed prisoners, and tight 
control over the exercise of the rights of freedom of speech, press and 
religions.''
    In this light, I think the President's proposed trip to Beijing, 
which will take place barely a few weeks after the ninth anniversary of 
the June 4 crack down in Tiananmen Square, continues to send the wrong 
signal--not only to China's leaders, but also to those members of 
society in China and Tibet who have worked so tirelessly to achieve the 
basic freedoms. that we, as Americans, take for granted.
    On top of this, in a move that almost adds insult to injury, the 
President has agreed to stage his arrival ceremony in Tiananmen Square, 
the site of the bloody events of June 1989.
    Mr. Chairman, if the President feels he must go to Beijing, if he 
feels he must go there in June, and if he feels he must visit the site 
of that horrible 1989 crack down, then I hope he takes the opportunity 
to send a clear unequivocal message about the importance of human 
rights, of rule of law and of democratic governance.
    If he does not do that, he will disappoint this Committee and he 
will disappoint the American people.
    Senator Feingold. Secretary Roth, thank you very much. I am 
sorry I missed your presentation. But I am obviously aware of a 
number of the issues that you have been discussing. I guess 
what I would like to do is start off by talking a little bit 
about specifically the President's upcoming visit. Apparently a 
conscious decision was made to move up the trip to an earlier 
time, to June, at least in part because of actions by China.
    What kind of gains were you expecting to see in human 
rights prior to that trip, and then afterwards, after the trip, 
what can we expect to see?
    Mr. Roth. This is not completely science. A lot depends on 
what China does. So I cannot give you an absolutely precise 
answer. However, I think you have seen some of the evidence of 
what we expect by what has already happened. We see that Wang 
Dan is out of jail. We see that a prominent, elderly bishop has 
been released. We see that China has committed to signing the 
U.N. Political Covenant, which we expect to take place either 
before the summit or shortly thereafter. We expect the 
ratification of the Covenant that was signed last year on the 
economic side of the house.
    We have seen President Jiang receive a religious delegation 
from the United States, of three very prominent individuals, 
and hope that is going to be a venue for achieving more 
progress on the very important issue of religious freedom. This 
delegation went to Tibet, insisted on getting into a hospital, 
insisted on meeting with some of the political prisoners, as 
opposed to common criminals. So we are seeing a process by 
which we are getting some specific results and setting the 
stage for some future results.
    Senator Feingold. What, for example, would the United 
States do if China actually did not sign the U.N. Covenant on 
Civil and Political Rights, as it has promised?
    Mr. Roth. Frankly, we have not addressed that because we 
fully expect them to.
    Senator Feingold. OK, then we will wait and see the outcome 
of that.
    And I now want to turn to press reports that the President 
has agreed to attend a welcoming ceremony in Tiananmen Square, 
which I believe Senator Wellstone referred to. Which of course 
was the site of this horrible and bloody crackdown in 1989. Can 
you confirm that that will happen?
    Mr. Roth. Well, it is the White House that confirms his 
literal schedule. Let me say that for state visits, which this 
is, the normal Chinese practice--which I do not think has ever 
been deviated from--is that the initial welcoming ceremony 
takes place in their capital of Tiananmen. It is not, in other 
words, a discretionary act. But the White House has not 
finalized the daily itinerary yet.
    Senator Feingold. I think that is an unfortunate decision 
on the part of the administration. Given that, do you think it 
might be a good idea for the President to also visit with the 
family members of at least one of the victims of the Tiananmen 
Square massacre?
    Mr. Roth. I think the President will obviously be looking 
for an opportunity to express our position on human rights the 
way he did during the last visit. Whether it will take that 
form or another activity remains to be seen. But I think there 
will be absolutely no doubt of the President's commitment on 
the human rights issue while he is there in China.
    Senator Feingold. Well, I would urge that as one possible 
approach. I think the symbolism would be important. There needs 
to be something to balance this unfortunate decision to have 
this ceremony in Tiananmen Square.
    Mr. Roth. I will take that back with me.
    Senator Feingold. I also want to echo what Senator 
Wellstone said about how disappointed we were about the United 
States not doing what it could do with regard to passing a 
resolution at the United Nations Commission on Human Rights. 
Can you share the administration's calculation and its 
decisionmaking to not sponsor such a resolution?
    Mr. Roth. Surely. This is obviously a very difficult 
judgment call, and not one which we undertook lightly. I think 
the starting point for us is that the real purpose of this 
exercise is not to pass a resolution but to try to get concrete 
progress on human rights. We have many venues for expressing 
our concerns about the overall human rights situation, not the 
least of which is our annual human rights report. But the real 
purpose, we thought, of the exercise in Geneva is, can we get 
tangible progress that would make it unnecessary for, this 
year, to go ahead on the resolution?
    And we felt that, in the context of the dissident releases, 
particularly Wang Dan, plus the commitment to sign the Covenant 
on Political Rights, which is extremely significant because 
some of the steps China will have to take once that is ratified 
and comes into effect, that that was tangible progress of the 
type we were looking for. Consequently, we made that decision.
    Senator Feingold. I can understand the desire for tangible 
progress. But I am wondering what this does to the Geneva 
process itself. What does it mean when we do not use a very 
appropriate forum with regard to China, and then we may want to 
take actions with regard to Nigeria, Sudan, Algeria? What does 
it mean when we do not use a forum that is explicitly created 
for purposes of pursuing issues of human rights?
    Mr. Roth. I do not expect you will agree with this, Senator 
Feingold, but I think it actually enhances Geneva when you use 
the Geneva process to get tangible results on human rights. 
That converts it from a paper exercise, a debate of words--
which they are very good at, at U.N. organizations--to actually 
accomplishing something on the ground. So, for me, that adds 
more emphasis to it, and it gives us greater ability to come 
back on other issues.
    Senator Feingold. So you are arguing that it was, in 
effect, a deterrent that led to some of the progress, the 
threat of that possibility; is that what you are suggesting?
    Mr. Roth. I do not know if I would say ``deterrent,'' but 
it was an implement that we could use to get progress. I am 
happy that Wang Dan is out, and I am happy that they are going 
to sign the Covenant. I am not satisfied that that is enough. I 
do not think that lets them off the hook on human rights 
progress forever. But I think, in terms of one resolution's 
worth of results, that is a very significant package.
    Senator Feingold. Mr. Chairman, my time is up, but if I 
could just make one other comment.
    The Chairman. I understand. But we have a second panel, and 
I want them to be heard and I want their views to be made a 
matter of the printed record, as well.
    Mr. Roth, you earned your pay, but just as sort of a little 
help for me, at the behest of China, as I understand it--and 
most people do--the President is limiting his trip to China, to 
China and Hong Kong of course. No Korea, no Taiwan, no nothing. 
I just wonder what kind of signal you think that sends to our 
close friends and allies in Japan and Korea and all the rest of 
them? I did not know that they were in the business of serving 
as the travel agent for the President in Beijing. I hope that 
registers with you.
    Mr. Roth. It certainly registered, Mr. Chairman.
    The Chairman. Do you have a comment?
    Mr. Roth. Yes. This is an issue which we have obviously 
taken up directly with some of the allies you referenced in the 
region. For example, Secretary Albright discussed it directly 
with Prime Minister Hashimoto, who said he completely 
understood and concurred.
    But let me point out that I think the administration's 
priorities have been very clear. The President's first trip to 
Asia in 1993 was to two of our crucial allies: Japan and Korea. 
He went back, in 1996, and strengthened our security 
relationship with Japan. We have made it very clear where we 
stand.
    The Chairman. But they did not dictate to him that he could 
not go to China.
    Mr. Roth. The Chinese did not dictate. This was a choice we 
made. We had an option.
    The Chairman. Well, I will not debate you on it, but a 
number of people have noticed that.
    Mr. Roth. I will take back your point.
    The Chairman. And thank you for your courtesy in coming 
here this morning. Give the Secretary my regards. Tell her to 
get some sleep.
    Mr. Roth. I will do that.
    Senator Wellstone. Mr. Chairman, can I ask unanimous 
consent to have my complete statement included in the record?
    The Chairman. Certainly.
    Senator Wellstone. And could I ask unanimous consent to 
have a letter that I sent to the President about Indonesia, 
suggesting that IMF support be conditional on respect for human 
rights in Indonesia be included in the record?
    The Chairman. It will be included, by unanimous consent, 
which is granted of course.
    Senator Wellstone. I thank the chair.
    The Chairman. We will cover all such requests of Senators. 
Thank you very much.
    Now, we will welcome panel number two.
    Senator Feingold. Mr. Chairman, if I could just make one 
comment for the record.
    The Chairman. Certainly.
    Senator Feingold. Mr. Chairman, I just want to acknowledge 
that the Dalai Lama is in Wisconsin this week. He addressed our 
State Legislature. I just want to note in the record that the 
people of our State appear extremely concerned about the 
situation in Tibet. I would just like our interest in Wisconsin 
in the human rights situation in Tibet noted for the record, as 
well.
    The Chairman. I thank you for the comment. The same sort of 
reaction occurred in North Carolina.
    All right, gentlemen and lady, if you will take a seat.
    The second panel consists of Mr. Robert Kagan, Senior 
Associate of the Carnegie Endowment for International Peace, in 
Washington; Dr. Arthur Waldron, who is the Professor of 
International Relations, the Joseph H. Lauder Professor at the 
University of Pennsylvania; and Mr. Mike Jendrzejczyk--is that 
close?
    Mr. Jendrzejczyk. Thank you, Mr. Chairman, yes.
    The Chairman. OK. That is not a household word in North 
Carolina.
    And Mr. Robert A. Kapp, President of the U.S.-China 
Business Council, in Washington, D.C.
    And, gentlemen, since we have run so long this morning, let 
me say I do appreciate you coming. All of us do. If you will 
confine yourself to 5 minutes, as best you can, with the 
understanding that everything you have in writing will be 
printed, and we are going to distribute copies of this hearing. 
Dr. Waldron, why don't we begin with you.

    STATEMENT OF ARTHUR WALDRON, PH.D., LAUDER PROFESSOR OF 
 INTERNATIONAL RELATIONS, UNIVERSITY OF PENNSYLVANIA; DIRECTOR 
        OF ASIAN STUDIES, AMERICAN ENTERPRISE INSTITUTE

    Dr. Waldron.  Thank you, Mr. Chairman.
    The first point I would like to make is that the situation 
in Indonesia has a significance which is not limited to 
Indonesia alone. It should serve to remind us that 
authoritarianism, coupled with rapid economic growth, is not 
enough for a country in today's world. My concern with the 
administration policy is that I do not think that they are 
realistic about the possibilities of political change in China.
    Now, the way that Secretary Roth and others describe it, 
you would think that China was moving steadily toward 
democratization. But I would just note that among the people 
who are invisible on the Chinese scene is the former Prime 
Minister, Zhao Ziyang, who was a democratizer. Hu Yaobang, 
another former Prime Minister, who was a democratizer, now 
dead, is too controversial to be even mentioned in the People's 
Daily. The head of Jiang Zemin's think tank is a brilliant 
young political scientist, identified with ``new 
authoritarianism.''
    In other words, my sense of what is going to happen in 
China is not that they are going to move seamlessly toward 
opening, which is what I think they should do, but rather they 
see that the dynamic of change which has been unleashed by very 
real economic change is now threatening their political 
position. Therefore, they are hoping to be able to hold on to 
their power by dint of selective repression, economic growth 
and foreign support.
    So, rather than foreseeing a China which unfolds sm oothly 
into an ever-more attractive and ever-more democratic state 
with which we can have constructive relations, I think we have 
to understand that there may very well be serious bumps in the 
road ahead. I do not think that the present leadership--which 
although very capable, does not contain any political as 
opposed to economic reformers--I do not think they are going to 
do what has to be done as far as opening to society goes. 
Certainly they are not going to do it soon enough to be able to 
forestall problems.
    So, therefore, I would expect that in the near to medium 
run, China is going to become rather more tense, maybe more 
disorderly. There will be unrest: There was a riot in Sichuan 
the other day in which a number of merchants were apparently 
killed by the police. This sort of thing is going to become 
more common.
    And that being the case, I think we in the United States 
have to understand that engagement, while desirable and 
worthwhile, is at best half a policy. We have to prepare for 
the worst even while we hope for the best. That means hedging 
rather than endlessly raising. One of the administration's 
mistakes is to go along when they ought to be hedging.
    Along with the policy of engagement, we need to have a very 
hard line of clear understanding of the need for democratic 
change. We also have to have deterrence of Chinese military 
adventures and the sorts of provocative measures which they 
sometimes take, to try to distract attention from the 
conditions at home.
    Now, the problem is that rather than seeing the deterrence 
and engagement are two hands of the same person, or they are 
two aspects of the same policy, there is a tendency to trade 
one off against the other. If you are deterring, you cannot be 
engaging, and vice versa. I think nowhere is this clearer than 
in connection with our policy with respect to Taiwan. There is 
a regular dynamic in which an improvement of relations with 
China is accompanied by some kind of a gift. We sign chits on 
Taiwan's future.
    This is not only a morally abhorrent policy, but it is not 
in our interest. I think that in the seventies, when we made 
our initial decisions to break with Taiwan, there was a tacit 
understanding in some policy circles--an expectation--that this 
really marked the end of the line for Taiwan; that Taiwan was 
going to disappear, it would cease to be a problem. This was a 
gross underestimation of the people of Taiwan. It also 
underestimated what the U.S. Congress would do.
    However, some people still live in the seventies. We, in 
our dealings with the cross-Strait situation, tie our own hands 
by a whole series of restrictions that we have. I have a 
student who is an Army colonel, a career China specialist. 
Because of our restrictions, in 25 years, he has never been 
able to go to Taiwan. Our people should be playing with the 
full deck. They should have all the cards.
    The last thing I would like to say is that a classic and 
besetting error of American Asian policy is to put China at the 
center, to think that somehow if we can get China right, then 
everything else is going to fall into place. But history 
shows--and I would refer to the history of the 1920's and the 
1930's, which eventuated in the catastrophe of the Second World 
War in Asia--that we have to deal most closely with the states 
which are our long-term allies and friends and the ones that 
share our system.
    It is a jigsaw puzzle in other words, in which you put all 
the other pieces into place, and only then put China in. If you 
get the other pieces right, then China will fit in. If you 
start with China and you concentrate too much on China, then 
you are never going to solve it.
    Thank you.
    [The prepared statement of Dr. Waldron follows:]

                  Prepared Statement of Arthur Waldron

    Mr. Chairman, Ladies and Gentlemen:
    A ``strong, stable, secure and open China'': that is the repeatedly 
expressed goal of the administration's tactic of ``engagement'' with 
Beijing. I have no wish this morning to challenge that goal, which 
seems to me eminently reasonable. Rather, I will raise questions about 
how realistic it is, at least in the short term, and about the tactics 
used to reach it.
    First, as to realism. Change in the economic and social realms in 
China since the death of Mao Zedong in 1976 has been real and extremely 
impressive. It might therefore seem reasonable to suggest that these 
changes will transform seamlessly into political change as well: 
indeed, the need for the United States to foster such steady and 
gradual change would appear to be the premise of the ``engagement'' 
policy. It may work: One can hope that change in China will follow the 
examples of Taiwan and Russia and the Philippines, among others, where 
the transition from dictatorship to democracy has been surprisingly 
smooth and not those of Romania or Indonesia, or China itself in 1989.
    But we cannot count on such a smooth transition. Although economic 
and social change in China has been so rapid and so extensive that the 
country now finds itself at the point where some sort of government 
opening to the people is inescapable, the signs from Beijing are that 
no such opening is being prepared. Rather, the regime looks set to 
attempt to ride out the storm, hoping a combination of selective 
domestic repression, continuing economic growth, and foreign support, 
will provide it with a legitimacy and stability that it has not secured 
from its own people.
    However China is no longer a land of impoverished subsistence 
farmers ruled by an all powerful ``Chairman'' in Beijing, and therefore 
we may doubt whether such an approach will work. It is a land today of 
entrepreneurs, of mobile labor, of vast investment, of markets of every 
sort, of high culture and of education in short, of every sort of 
ferment. Plans for economic change, moreover, envision major remodeling 
including putting millions of people out of work. Such measures demand 
governmental legitimacy. The society that China has become today can no 
longer be ruled autocratically. Its people must be involved in making 
the laws and legitimating authority. That means the sort of 
liberalization we have seen elsewhere in Asia and in the former Soviet 
bloc. To stand against this tide in China is to risk chaos and 
catastrophe.
    Like the desire for prosperity, the desire for freedom and personal 
autonomy originates in China itself. They are not alien concepts, 
applied by arrogant and insensitive foreigners. Constitutional 
government has been a dream of Chinese people since the early years of 
this century. Many people supported the Communists in 1949 because they 
expected Mao and his followers to create such a regime. Although they 
were bitterly disappointed, such desire for political freedom continues 
to find a place in China and in the Chinese communist party. Today, 
however, political reformers are absent from the highest reaches of 
Party leadership and discussion of serious political reform is 
forbidden in the official media. Liberalizers of the past are still 
non-persons. Thus, Zhao Ziyang, prime minister until 1989, remains 
incommunicado, under house arrest. The name of Hu Yaobang, late prime 
minister and also a political reformer, is too sensitive to be 
published in the official People's Daily. There is much talk about the 
bold economic reforms Prime Minister Zhu Rongji is supposed to under 
take; silence about the equally pressing need for bold political 
reforms.
    These are not the omens of imminent and decisive political reform. 
My prognosis, therefore, is that the current Chinese administration is 
not going to move quickly enough to make the political changes that its 
already very successful economic reforms require and that the result 
will be an increasingly tense and disorderly situation inside China. A 
beleaguered Chinese government will almost certainly use force against 
its own people--several protesting shopkeepers were shot dead in 
Chengdu just a few days ago--and may well try to distract the 
population with nationalism and imaginary external threats.
    So while the goal of a ``strong, stable, secure and open China'' is 
desirable, it is unlikely to be achieved soon, or by gradual steps. 
Major bumps can be expected in the road ahead as China changes regimes. 
Therefore even as we seek to foster such change through engagement, we 
must hedge against risks.
    Foreign policy often mirrors domestic policy, and a China that is 
repressive at home is likely to be provocative and bullying abroad. We 
have seen plenty of examples of such behavior recently. Probes and 
intimidation in pursuit of dubious territorial claims continue, as the 
Japanese, the Indonesians, the Filipinos, the Vietnamese, the 
Taiwanese, the Indians, and others will testify. Chinese can be 
enormously courteous, but they are also masters of conflict: the 
protracted game, the zero sum ``ni Si wo huo'' [ ``you die I live''] 
struggle, the arts of isolating and intimidating adversaries, disarming 
and confusing opposition, and then quietly bludgeoning whoever 
remainsthese are unattractive but well developed parts of the Chinese 
cultural inventory. Current Chinese military preparations, moreover, 
seem designed to be used in connection with such tactics. Any sound US 
policy must deal with these serious challenges, by steady and 
unflinching deterrence.
    Indeed ``deterrence''--broadly speaking, the willingness to counter 
Chinese threats, support allies, and brave Beijing's displeasure (which 
is often expressed with the extravagant rhetoric of ``calculated over 
reaction)''--is the second component (engagement being the first) of a 
successful China policy. It is the one that is largely missing from the 
current Clinton administration approach.
    The reason for this absence is worth noting, for it gets at what is 
fundamentally wrong with the administration's strategy. Engagement and 
deterrence go together: one will not succeed without the other; they 
are mutually supporting. But that is not how the administration seems 
to understand it. They see the two as inimical: one either has a 
``friendly'' relationship with China or a ``hostile'' one. Engagement 
is the route to the first, deterrence, to their way of thinking, leads 
to the second. Therefore deterrence is traded off in pursuit of 
engagement.
    Nowhere is this pattern clearer than in our dealings with Taiwan. 
To be fair, the United States has shown itself on balance to be a very 
good friend to Taiwan: through unofficial contacts, military sales, and 
the carrier deployment in 1996, we have underlined our commitment to 
this brave and democratic society. However, when China confronts us, 
some in government still show a lamentable tendency to sign chits on 
Taiwan's future as a way of appeasing Beijing today. This practice has 
already gone too far, and should be stopped. I hope very much that 
President Clinton will stonewall any such Chinese demands in 
preparation for his trip: for example, he must refuse to incorporate 
the so called ``three noes'' into any official U.S. statement. [These 
are ``no support for one China one Taiwan,'' ``no support for Taiwan's 
entry into the UN'', and ``no support for Taiwan's independence.'']
    Looking to the future, it is important that we be as realistic 
about Taiwan as about China. Our current Taiwan policy of no official 
recognition or contact works against our national interests. Given that 
the Taiwan strait is an area of potential conflict on a level with 
Cyprus or Korea or the Middle East, it is important for us to have 
maximum contact with all players, in order to have maximum leverage. I 
have a student, an army Colonel and a career China specialist--a key 
player, in other words, in our Asia policy who, because of US 
government restrictions, has never been able to visit Taiwan. This 
amounts to tying our own hands. When I look forward, I ask how we are 
going to be able to secure our interests in the Straits area if our top 
officials cannot meet top officials from Taiwan. Arafat, after all, has 
come to the White House, not to mention Jiang Zemin, China's unelected 
president. No genuine dialogue or negotiation can take place at second 
hand yet we have, of our own accord, discarded, in the Taiwan 
relationship, all the standard tools of diplomacy.
    Why? The answer is simple. In the 1970s, when we broke relations 
with Taiwan, we thought we were in fact ending Taiwan's existence as an 
independent player. The idea was, as Richard Holbrooke has put it in a 
different context, ``a decent interval followed by anschluss.'' The 
arrangements proposed by the Carter administration for Taiwan make 
sense as a transitional structure, but not as a permanent status. 
Contrary to expectations, however Taiwan did not disappear: that is 
owed first of all to the people of Taiwan, whom we underestimated, and 
second, to the many Americans who created the legislative instrument of 
the Taiwan Relations Act.
    Unfortunately some in government are still living in the 1970s when 
it comes to Taiwan. But objectively we must recognize that in our 
eagerness to please China trading off deterrence for engagement we (and 
Beijing) have painted ourselves into a corner with our joint policy of 
debasing words and twisting diplomatic usages in an attempt to deny 
reality. Despite the urgings of those who want more chits signed who 
want, for example, official US opposition to Taiwan in the UN and 
international organizations, or want a freeze in arms sales, or want 
pressure on democratic Taipei to settle with autocratic Beijing it is 
clear that today we must, just for starters, drop the brush and stop 
painting. The corner is already too small. Then we and Beijing can 
consider more realistic and constructive approaches.
    Important as Taiwan is, however, too much focus on it can lead us 
to overlook the larger regional and international context of our China 
policy. This brings me to my final and perhaps most important point. I 
fear that by making China the centerpiece of its Asian policy, instead 
of working with regional powers that share our values to create a 
multilateral security structure, the Clinton administration may be 
unwittingly recreating the sort of situation in Asia that has 
repeatedly led to trouble in Asia earlier in this century. For example, 
many scholars believe that an American overestimation of China and 
underestimation of Japan in the 1920s and 1930s contributed to the 
breakdown of Asian security that brought on World War II. We must not 
repeat those errors now that the Cold War no longer gives structure to 
our Asian policy.
    The lesson of history is that American interests in Asia will best 
be served by working with states that share our economic and political 
values: Japan, Korea, Taiwan, the ASEAN states, India, Russia. We hope 
that China will become such a state in the future, but that result is 
not a certainty. Rather, as we have seen, China's future today is a 
question mark
    In the 1970s our current China policy took its initial shape from 
the demands of the Cold War. It was ``strategic'': driven by the need 
in both Washington and Beijing for an ally against the Soviet threat. 
That threat has now disappeared, so it makes no sense to talk, as the 
Administration does, of a ``strategic partnership'' with China. The 
sorts of massive strategic issues that dominated the Cold War world no 
longer exist globally. Their place has been taken by what I call 
``governance'' issues, and on these China lags far behind the rest of 
the world. During the Cold War shared strategic interests overshadowed 
these problems but today we can no longer avoid facing them. A 
liberalizing China will strengthen peace, but a China whose government 
attempts to sustain an outmoded dictatorship will be volatile 
domestically, and possibly dangerous in a world of democracies.
    So until China matches her economic progress with political 
liberalization and a peaceful foreign policy, America's Asian policy 
should avoid staking too much on Beijing. Some in Washington seem to 
think that if only we can get China policy right, then the rest of Asia 
will somehow fall into place. The truth is the opposite: Asian policy 
is like a jigsaw puzzle with China the last piece to be fit in. Things 
will go well with China only if we place our primary emphasis on our 
traditional friends and states that share our values and economic 
system. If China reforms and makes herself stable that will be a great 
gain for all concerned. But we cannot cause that to happen and if we 
count on it and things go wrong, then problems in China may lead, as 
they did earlier in this century, to crisis in the region.
    Our goal therefore must be to forge an Asian security order robust 
enough not to be shattered by tremors originating in China. What sort 
of policy will meet this requirement. First, it must be one understood 
and supported by the American people. The thirty year tradition of 
secrecy in China policy, of Congress and the White House at 
loggerheads, of executive actions in the teeth of public opinion--all 
of that must come to an end. The administration must be candid with the 
American people and the world about every aspect of the policy, from 
the good things, such as releases of prisoners and mutually 
advantageous trade, to the problems such as espionage, military 
development, repression, and so forth.
    Second, the policy must begin with our allies and friends, and not 
with Beijing. Our policy today is reactive: it makes no sense on its 
own (why derecognize Taiwan?) but is intelligible if you look at the 
Chinese demands that have given it shape. We must adopt a positive 
policy, developed through extensive preliminary consultation with other 
interested states. Symbolic actions are important here. Taiwan, after 
all, took the brave action of releasing political prisoners and 
allowing the exiles to return at a time when it had almost zero 
international status. Korea and the Philippines have shown the path to 
Asian democracy. China, which is far stronger, has shied away from any 
similar action. Yet which state receives the most symbolic attention 
and deference from the United States? Not the democratizers. In an Asia 
where ``face'' is so important, these things matter.
    Finally, as for power relationships, the crucial ones are Japan-US 
and Japan-Korea. If these are firm, I am confident that Asia will be 
relatively peaceful. If; on the other hand, we do what Adminstrations 
have repeatedly done in the past: if we treat China as a sort of 
campaign stop, or wave her into the community of nations without 
checking her domestic credentials if we go long at the moment when we 
should be hedging or shorting if we turn a blind eye to security 
challenges and neglect our established friends with whom we share 
values in pursuit of new but highly problematical relationshi--then 
Asia's future, and with it our own, will be very much in question
    The Chairman. Mr. Jendrzejczyk.

  STATEMENT OF MIKE JENDRZEJCZYK, WASHINGTON DIRECTOR, HUMAN 
                   RIGHTS WATCH/ASIA DIVISION

    Mr. Jendrzejczyk. Thank you, Mr. Chairman.
    The Chairman. Will you pronounce your name for me?
    Mr. Jendrzejczyk. It is Mike Jendrzejczyk. It is spelled 
correctly here, by the way. Thank you.
    The Chairman. Very well. There are a limited number of your 
family in North Carolina.
    Mr. Jendrzejczyk. Thank you, Mr. Chairman, for the 
invitation to testify this morning.
    When President Clinton visits China and steps into 
Tiananmen Square, he will, as you know, be the first Chief 
Executive to do so since 1989. I want to emphasize, I am not 
opposed to high-level engagement. I am certainly not opposed to 
dialog and discussion. I think this can be quite useful. But 
this is not an ordinary visit. This is a very special visit, 
one that is especially meaningful, and a very powerful symbol 
for the new, emerging Chinese leadership.
    We believe the administration should have laid out specific 
human rights preconditions before setting the date of the 
visit. Instead, the administration formally agreed to the 
summit, and now is scrambling to send one delegation to Beijing 
after another to try to get something in return.
    Not only has the administration thus far failed to secure 
meaningful human rights improvements in advance of the summit, 
it also seems to be preparing to lift some of the few remaining 
postTiananmen sanctions imposed by the Bush administration, 
with strong support from the Congress.
    And we believe that under the current human rights 
conditions in China and Tibet, the administration should not 
try to restore either OPIC, the Overseas Private Investment 
Corporation, loans and insurance, or TDA, Trade Development 
Administration programs, both of which were suspended in 1989.
    We would also oppose any easing of existing restrictions on 
arms transfers to China, including the sales of dual-use 
technology.
    Mr. Chairman, we believe that the cornerstone of the 
Clinton administration policy for the last year and a half--and 
Mr. Roth just repeated it a little while ago--trading away 
criticism of China in the U.N. Human Rights Commission in 
exchange for promises to sign human rights treaties and to 
release a few well-known dissidents into exile was a poor 
bargain. It certainly has not affected the fundamental human 
rights situation within China.
    We know the administration hopes, out of this Presidential 
visit, to resume the formal dialog on human rights that was 
suspended by China in 1994, after Mr. Shattuck met with Wei 
Jingsheng, then in Beijing. We followed that dialog, when it 
began under the Bush administration, with Mr. Richard Schifter, 
then in the State Department. We followed that dialog as it 
continued under Mr. Shattuck. Frankly, it was virtually 
meaningless, and almost totally useless. I think it is a 
mistake for the administration to expect that a dialog under 
the current situation will lead to anything more significant 
than it had in the past.
    We also very much share the concern articulated by Mr. 
Feingold, that the pomp and ceremony of the President being 
welcomed in Tiananmen Square will send a message to the Chinese 
and the American people that will far overshadow anything 
useful the President might say about human rights or the rule 
of law when he addresses university audiences. We think the 
White House should resist pressure from the Chinese to insist 
that he begin his visit in Tiananmen Square.
    We also very much endorse Senator Feingold's suggestion 
that if the President is going to visit Tiananmen Square, he 
should find time to visit at least one family member of the 
victims--of the 89 massacre. These people continue to suffer, 
in many cases, discrimination and persecution.
    One man we hope the President will in fact mention is Mr. 
Li Hai. He is now serving a 9-year prison sentence for 
collecting information on the victims of the 1989 massacre. In 
fact, the list of the 150 Beijing citizens still detained since 
1989 attached to my testimony is largely based on his 
information. We think surely the President should insist on the 
unconditional release of all of these people.
    We also hope the President will secure from China's leaders 
a pledge to remove by a certain date all the names on an 
official blacklist that was secretly published in 1994, that 
now contains more than 50 Chinese citizens who cannot go back 
to their own country, in violation of international law. This 
includes distinguished individuals like Dr. Fang Lizhi, the 
astrophysicist, now in Arizona; Han Dongfang, an activist and 
labor leader, who is not stranded in Hong Kong, stateless 
because his passport has been confiscated; as well as Liu 
Binyan, a prominent Chinese journalist studying in Princeton. 
All of these people cannot go back to their country.
    This would be a significant gesture if these people could 
go back and begin to organize and carry on their lives, 
including their pro-democracy activities, peacefully back in 
their home country.
    Mr. Chairman, I have attached to my testimony a number of 
other recommendations for the President's visit. Again, these 
are steps that we believe the President should insist upon in 
exchange for his being the first President to go to China since 
1989. These are significant steps.
    For example, releasing not a handful of prisoners, but 
large numbers of prisoners. China, for example, has abolished 
in its criminal code all of the offenses of 
``counterrevolution,'' in March 1997. It replaced these, I 
should add, with new provisions of, ``endangering state 
security.'' But, nevertheless, there are more than 2,000 
acknowledged convicted counter-revolutionaries. All of those 
sentences should be reviewed. They should abolish reeducation 
through labor. Some 200,000 Chinese citizens are now in 
reeducation through labor camps, an arbitrary form of 
punishment handed out by the police, with no judicial review. 
Certainly they should take meaningful steps to improve the 
human rights situation in Tibet and to ease religious 
persecution.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Jendrzejczyk follows:]
                Prepared Statement of Mike Jendrzejczyk
    When President Clinton steps into Tiananmen Square, he will be the 
first U.S. head of state to visit China since the 1989 crack down on 
the pro-democracy movement. His visit will provide a huge propaganda 
boost to the new post-Deng leadership team of Jiang Zemin, Zhu Rongji 
and Li Peng, the last step in China's ten-year climb back from pariah 
status. More importantly, perhaps, with this visit both governments are 
signaling their determination not to allow human rights violations to 
interfere with closer political and economic relations.
    We are not opposed to high-level engagement, discussion or dialogue 
with China, indeed, we believe such exchanges are necessary and useful. 
But presidential summits are not ordinary visits, and the 
Administration has thus far failed to effectively use the enormous 
leverage this summit provides to press for significant--not merely 
token or cosmetic--human rights improvements. We believe the White 
House should have laid out specific human rights preconditions before 
setting the date for the President's visit. Instead, the Administration 
formally agreed to the summit and now is scrambling to send one 
delegation after another to Beijing to try to get something in return.
    Not only has the Administration failed thus far to secure 
meaningful improvements, but it appears to be intent on compounding 
that failure by moving to lift the sanctions that remain in place from 
1989. We certainly understand that a combination of carrots and sticks 
can sometimes be useful in international diplomacy. But under the 
current human rights conditions in China, we would strongly oppose any 
move by the Administration to restore the Overseas Private Investment 
Corporation (OPIC) or Trade Development Administration (TDA) programs 
suspended in 1989. In addition, we would remind the Administration of 
the worker rights requirements for OPIC. We would also oppose any 
easing of existing restrictions on arms transfers to China including 
sales of dual use technology, such as Sikorsky helicopters.
    Since the May 1994 decision to delink MFN from human rights, the 
Administration has yet to develop an effective bilateral or 
multilateral strategy for promoting meaningful improvements of human 
rights in China and Tibet. The cornerstone of its policy over the last 
year and a half--trading away criticism in the United Nations Human 
Rights Commission and going forward with summits in exchange for 
Chinese government promises to sign human rights treaties and releases 
of well-known dissidents--was a poor bargain. It did produce the 
release into exile of Wei Jingsheng and Wang Dan and the release, 
probably under heavy surveillance, of a Catholic bishop, but the 
overall pattern of human rights violations remains fundamentally 
unchanged.
    The State Department hopes that one outcome of the President's 
visit will be a formal resumption of the ``dialogue'' on human rights 
that Beijing suspended in 1994 following Assistant Secretary John 
Shattuck's meeting in Beijing with Wei Jingsheng. That ``dialogue'' was 
more of a monologue, with the U.S. requesting information on prisoners 
that China never produced in full. The idea of what constitutes a 
``dialogue'' may well have changed, but judging from the meager results 
of different human rights ``dialogues'' now underway between China and 
the European Union (EU), Japan, Australia, Canada and other 
governments, we are extremely skeptical that the process by itself will 
lead to concrete changes. Pressure is also needed.
    The limited steps taken by Beijing in recent years have come about 
largely because of pressure, including the prospect of a resolution on 
China at the United Nations Commission on Human Rights in Geneva and 
the earlier debate over annual MFN renewal. Among these limited steps 
have been the release of prominent dissidents, visits by United Nations 
working groups and rapporteurs--including the UN Special Rapporteur on 
Religious Intolerance, who visited China and Tibet in 1994 and last 
year's trip by the UN Working Group on Arbitrary Detention--talks with 
the International Committee of the Red Cross (ICRC), and Beijing's 
promises to sign and ratify the International Covenant on Civil and 
Political Rights (ICCPR) and the International Covenant on Economic, 
Social and Cultural Rights (ICESCR).
    I would add that until Beijing both signs and ratifies these two 
important treaties--welcome steps if they happen--they have no binding 
force. On October 26, 1997, just prior to the Clinton/Jiang summit in 
Washington, China signed the ICESCR but to date has not ratified it. It 
has yet to sign the ICCPR. In private discussions with European 
diplomats and others, Chinese authorities have indicated they intend to 
attach reservations taking exception to particular provisions in both 
treaties. These include article 19 of the ICCPR on the right of freedom 
of expression; article 8 of the ICESCR on the right to form trade 
unions; and article 1 in both treaties on the right of freedom of self-
determination. It is precisely these rights that are now directly under 
assault in China.
    We are concerned that without the threat of action at the UN Human 
Rights Commission and without the leverage that a presidential summit 
could have provided, Beijing will have little incentive to follow 
through on its promises or to undertake more significant, far-reaching 
reforms.
    The pomp and ceremony connected with the President's trip to China 
will likely obscure the extent of ongoing abuses. The symbolism of 
President Clinton's official arrival ceremony taking place in Tiananmen 
Square will send a message to the Chinese people and to the American 
people that will override anything the President might say about human 
rights and the rule of law when he gives speeches to a university 
audience in Beijing or Nanjing. The White House should have resisted 
pressure from Chinese officials to start his visit in the Square.
    If the leverage provided by the impending summit has been partly 
wasted, it has not been totally lost, and the President can still make 
important human rights points during his visit to Beijing. Especially 
if the President does indeed begin his official visit in Tiananmen 
Square, he should find time to visit with the family members of one of 
the victims of the 1989 massacre. Many of them are still suffering from 
political harassment, discrimination or persecution. One man named Li 
Hai is serving a nine-year sentence for the ``crime'' of collecting 
information on the victims of the 1989 crack down. The list of more 
than 150 Beijing citizens who are still detained since 1989--which Li 
Hai helped to compile--is attached to my testimony.
    The President should also secure from China's leaders during his 
visit a pledge to remove by a certain dates the names on an official 
re-entry blacklist. The list contains the names of more than fifty 
Chinese citizens now living in the U.S. who cannot return to China. 
(See names attached, from a document issued secretly by the Ministry of 
Public Security in May 1994. We expect that other names have been added 
since then). They have all been subject to government decrees banning 
them from returning to their own country due to their pro-democracy 
activities in China or while living abroad. Almost fifty percent of 
those listed were placed on ``most wanted'' notices after June 4, 1989; 
none of them is known to have committed any act which could be 
construed as criminal under international law. While of course we 
welcomed the release of Wei Jingsheng or Wang Dan, sending them into 
exile is hardly a sign of any greater tolerance for political dissent. 
By contrast, allowing pro-democracy activists, journalists or labor 
organizers to return to China unconditionally would be a significant 
gesture by the Chinese authorities.
    Other steps the Administration should urge China to take in the 
context of the President's visit:

  <bullet> releasing unconditionally large numbers of imprisoned 
        political, religious and labor activists and Tibetans;
  <bullet> revising China's draconian security laws, including the 
        provisions on ``endangering state security'' added to the 
        criminal code in March 1997 (see ``State Security in China's 
        New Criminal Code,'' published by Human Rights Watch and Human 
        Rights in China, April 1997);
  <bullet> reviewing the sentences of more than 2,000 convicted so-
        called ``counterrevolutionaries'' with a view towards releasing 
        those convicted solely for exercising their internationally 
        recognized rights of free speech and association, especially 
        since the crime of ``counterrevolution'' has itself been 
        abolished;
  <bullet> abolishing ``reeducation through labor,'' a form of 
        arbitrary administrative punishment involving up to three 
        years' detention without judicial review widely used in China;
  <bullet> protecting freedom of association of workers;
  <bullet> easing religious repression by abolishing the registration 
        process in its current form and implementing the 1994 
        recommendations of the U.N. Special Rapporteur on Religious 
        Intolerance;
  <bullet> allowing regular access to Tibet and Xinjiang by independent 
        human rights monitors.
Overview: Human rights conditions in China
    There has been no substantial improvement in China's human rights 
record in the past year. Isolated prisoner releases, such as the 
release of Wang Dan last month and Wei Jingsheng in November 1997, have 
little impact on the overall state of repression in China. In the six 
months since Wei's release, others have been detained and arrested. The 
overall pattern of the government's treatment of political dissidents 
has not changed.
    Just last week, Xu Wenli, a Democracy Wall activist who spent 
twelve years in prison, was apparently picked up the police and has 
disappeared. The police have kept him under surveillance since his 
release on parole in 1993. He tried to form a human rights organization 
and even applied for official approval, but the authorities responded 
by increasing the surveillance. On April 3, he was detained and held 
for twenty-four hours; his house was searched and his computer and fax 
machine were confiscated. The authorities urged him to leave the 
country, but he refused. On May 4, police stopped his car on the way to 
the airport as he was taking his wife to a flight to the U.S., on the 
grounds that he was not wearing a seat belt, and he was not allowed to 
see her off. Then, on May 9, 1998 he was reported to have boarded a 
train in Beijing for Wuhan but never arrived. In response to appeals 
from his family over the last few days, the police have insisted that 
they know nothing about his current whereabouts. He surfaced yesterday, 
according to press reports this morning, after being held by police for 
three days to prevent him from visiting other pro-democracy activists.
    A few other recent examples:

  <bullet> Yang Qinheng, a dissident in Shanghai, was sentenced in 
        March 1998 to three years of ``education through labor'' after 
        being arrested for reading an open letter on Radio Free Asia on 
        January 27, 1998 calling for the right to unionize. He also 
        said, in the broadcast, that the government's anti-unemployment 
        efforts were threatening to social stability.
  <bullet> Shen Liangqing, a former prosecutor from Anhui province, was 
        sentenced to two years of ``reeducation through labor'' on 
        April 4, 1998. He was arrested on February 25, in the run up to 
        the annual meeting of the National People's Congress, after he 
        sent letters to the government criticizing the selection of 
        former premier Li Peng as the new chairman of the NPC. He also 
        had contacts with outside human rights organizations and 
        Western journalists.
  <bullet> On January 16, 1998, Li Qingxi, an unemployed former health 
        worker at a clinic attached to the Datong Coal Mining 
        Administration in Shaaxi province, was arrested for putting up 
        notices calling on worker to form their own independent trade 
        unions. He was released on February 24, but put under a form of 
        house arrest for one year, serving a ``reeducation through 
        labor'' sentence.
  <bullet> On April 5, 1998, Li Baiguang, a law professor on the 
        southern island of Hainan, was reportedly detained by police 
        for trying to start a ``salon'' with students to discuss 
        political reforms. The university faculty fear he has been 
        arrested.
  <bullet> The wife of imprisoned labor activist, Liu Nianchun, serving 
        a sentence of three years in a ``reeducation through labor 
        camp,'' applied for a permit to protest his imprisonment on May 
        1998, during Secretary Albright's visit. Liu signed a petition 
        in 1995 calling for workers to be allowed to form free trade 
        unions. Chu Hailan, his wife, was followed by plainclothes 
        police and the protest was not allowed.

    Are these signs of greater ``tolerance'' towards dissent, as the 
State Department claimed in its most recent annual country report on 
human rights?
    On the issue of access to prisoners by international humanitarian 
organizations, there has been no breakthrough. Following a series of 
meetings between the International Committee of the Red Cross (ICRC) 
and Chinese authorities, Christian Brumme, regional deputy head of the 
ICRC, said in February 1998 that he did not expect the Chinese 
government to agree to the openness required by the ICRC; their non-
negotiable requirements include access to all detainees of a similar 
category, access to all places of detention, completely confidential 
visits with detainees and so on. Justice Minister Xiao Yang (now head 
of the supreme court) said last year, after a set of talks, that the 
ICRC's conditions were too rigorous to be acceptable.
    Last month, the U.N. Working Group on Arbitrary Detention delivered 
its report to the UN Commission on Human Rights in Geneva, describing 
its visit to China in October 1997 in some detail and making 
recommendations. Although we believe the Group failed to adequately 
address some key issues, such as the lack of independence of the 
Chinese judicial system, it did make some useful findings. For example, 
it cited the failure of the Chinese Criminal Law to clearly and 
precisely define offenses ``endangering state security,'' which can be 
used to imprison political and religious dissidents as was the case 
with the ``counterrvolutionary'' offenses they replaced. The Working 
Group was told that as of December 1997, there were 230,000 persons 
being held in reeducation through labor centers throughout China, both 
ordinary prisoners and political and religious dissidents. According to 
Chinese government statistics, this is an increase of more than 50 
percent over the number of detainees in labor camps just four years 
earlier (in mid-1993, there were less than 150,000 inmates.) Conditions 
in the labor camps are often harsh. These administrative punishments 
clearly violate numerous provisions of international law.
    The report of the Working Group does not mention a peaceful protest 
that took place in Drapehi Prison in Lhasa, Tibet that occurred in the 
presence of the delegation. A prisoner openly declared his support for 
the Dalai Lama in a protest planned by several inmates. They were 
reported to have been intensively interrogated later, severely beaten, 
and put into solitary confinement after the U.N. delegation left the 
premises. Yet the delegation received assurances from Chinese 
authorities that no prisoners would be harmed.
    Greater cooperation by China with the U.N.'s human rights 
mechanisms and perhaps, over time, to greater transparency in China's 
legal and detention system is clearly desirable, but nothing in the 
Administration's human rights policy offers China any incentive to make 
progress in that regard.
    There has been some incremental progress in the area of legal 
reforms. For example, the implementing regulations issued in December 
1997 for amendments to Criminal Procedure Law adopted in 1996 allow 
defendants access to lawyers while they are still in police custody 
(though meetings with attorneys can be monitored), but there is still a 
long way to go. There is often a wide gap between laws and amendments 
on the books and their actual implementation and enforcement. As the 
Lawyers Committee for Human Rights points out in its new study, 
``Lawyers in China: Obstacles to Independence and the Defense of 
Rights'' (March 1998), ``There are a number of structural and 
institutional impediments to the development of a strong legal system 
and an independent and authoritative court system in particular.'' 
Among them, according to the Committee, are lack of transparency, poor 
quality legislation, lack of clear jurisdictional authority for making 
and interpreting the law, the influence of the Chinese Communist Party 
and local governments on judicial appointments, and corruption.
Worker Rights
    As I noted earlier, we would oppose the lifting of remaining 
Tiananmen sanctions, such as controls on military transfers or starting 
up an OPIC program in China; the latter should be ruled out, in any 
case, by the pervasive violations of worker rights in China. OPIC 
assistance, under the U.S. Trade Act of 1974, as amended, can only be 
given to countries that are taking steps to adopt and implement 
internationally recognized worker rights, including the right of 
association, the right to organize and bargain collectively, and that 
prohibit forced labor. As the State Department points out in the 1997 
country reports, ``Independent trade unions are illegal (in China)... 
Credible reports indicate that the Government has attempted to stamp 
out illegal union activity.''
    During the past year, there have been a series of major protests by 
workers and other disaffected urban residents in various Chinese 
cities, mainly sparked by the layoffs at state-owned enterprises. An 
estimated 25 percent of the urban industrial labor force (about 30 
million people) were actually or effectively unemployed. The most 
serious large scale worker protest erupted early in 1997 in several 
cities in Sichuan, and other protests also took place in Nanchong in 
March. In July, in Mianyang, Sichuan, more than 4,000 workers 
demonstrated outside the city government office demanding jobs. When 
officials refused to meet with them, the protests became more heated, 
and the People's Armed Police broke up the gathering. Several dozen 
demonstrators were injured and there were a number of arrests. In 
another incident, in May, when laid off workers from the Zhongyuan 
Oilfield in Henan province organized an unofficial union and sent 
delegates to Beijing to plead their case, the delegates disappeared and 
were feared to be arrested. There has been no further word on their 
fate.
    At a Labor Day event earlier this month, a member of the Politburo 
Standing Committee, Wei Jianxing, warned that increasing labor unrest 
is likely; Beijing had announced that 3.5 million workers will lose 
their jobs this year. ``Whether we can solve the problem of the 
livelihood and job placement for the unemployed affects not only the 
success of the reform of the state-run enterprises,'' he said, ``but 
social stability and the viability of the socialist regime.'' On the 
one hand, the authorities are trying to create jobs--the city of 
Beijing has ordered the firing of 120,000 migrant workers to open up 
jobs for unemployed Beijing citizens--and to quell unrest by paying 
overdue wages to disgruntled workers, but also by urging security 
officials to maintain social stability by preventing any overt 
challenges to the government's rule.

Religious Freedom
    We are deeply concerned about official controls over religious 
belief and practice in China and Tibet. The Chinese government has been 
conducting an intensive campaign to convince foreign governments that 
there are no meaningful constraints on religious practice, despite 
evidence of continuing persecution. Last October, the Information 
Office of the State Council published a ``White Paper on Freedom of 
Religious Belief in China,'' asserting that the right to freedom of 
religion is respected and protected.
    Earlier this year, a senior delegation of Chinese religious 
officials visited the U.S., and in February, three prominent U.S. 
clerics went to China and Tibet to open an unprecedented dialogue with 
Chinese officials on religious freedom. The delegation's visit was 
negotiated during the summit meeting between President Clinton and 
President Jiang last October. We believe the delegation deserves credit 
for its principled approach. In its report, it criticized the Chinese 
government's requirement that all religious sites register with the 
official Religious Affairs Bureau, and strongly condemned the use of 
administrative punishments imposed on some religious believers. But the 
delegation failed to produce any breakthrough, and made the mistake of 
taking a showcase tour of a prison in Lhasa, Tibet. This provided the 
authorities with a major propaganda coup. The head of the prison told 
Archbishop Theodore McCarrick that well-documented reports of torture 
and ill-treatment of imprisoned monks and nuns were just ``stories.'' 
The group was shown a prison factory in which ``scores of inmates were 
weaving blankets, with some humming popular songs,'' according to 
Xinhua, the official Chinese news agency.
    For the past few years, we have documented the Chinese government's 
increasing control over religious organizations, which has paralleled 
an increasing interest in religion by Chinese citizens. (For details, 
see the Human Rights Watch reports ``China: State Control of Religion'' 
issued in October 1997, and an update published in March 1998). The 
government singles out Christianity and Islam as two avenues for 
subversion by ``hostile foreign forces,'' and views religion as ``a 
critical element of the nationalist movements in Tibet and Xinjiang.'' 
It is also concerned about the growth of religious activity 
exacerbating social instability at a time when the government's 
economic reforms are creating greater dislocation.
    I would like to briefly refer to two recent examples of 
restrictions on religious freedom: two Roman Catholic bishops, Duan 
Yiming and Xu Zhixuan, were invited by the Pope to attend a synod of 
Asian bishops at the Vatican that concludes today. There were refused 
permission to leave China because the Vatican does not have diplomatic 
ties with Beijing; in addition, Bishop Duan accepted the Vatican's 
invitation without first consulting with the Chinese government's 
Religious Affairs Bureau.
    Members of this Committee may have read recent news stories about 
the release of Bishop Zeng Jingmu, a 78-year old Catholic cleric, who 
was freed earlier this month, six months before the expiration of his 
three year sentence to reeducation through labor. His release was 
confirmed by the U.S. embassy in Beijing, and according to the 
Washington Post (May 10, 1998) was ``seen as another gesture to 
President Clinton to improve the atmosphere between China and the U.S. 
before Clinton's visit....'' His case was apparently at the top of a 
list of about 30 clerics and lay believers handed over to authorities 
in Beijing by the U.S. religious delegation in February. As noted 
above, there are now unconfirmed reports that he has been placed under 
heavy surveillance.
Tibet
    Finally, I would like to comment briefly on the human rights 
conditions in Tibet, which remain grim. We were encouraged by reports 
that the Administration intends to use the President's visit to press 
for an overall improvement in the situation in Tibet. We hope the 
Administration will, for example, urge the Chinese government to allow 
access by credible, independent human rights or humanitarian 
organizations to the nine-year-old boy recognized by the Dalai Lama in 
1995 as the reincarnation of the Panchen Lama. Gendun Choekyi Nyima's 
whereabouts are currently unknown and there is conflicting information 
about his current living conditions. Last September, an official of the 
Tibet Communist Party said that he goes to school and is ``perfectly 
free.'' Other accounts indicate that he is held under some form of 
house arrest in Beijing, or is living in his native village in Tibet. 
The U.S. religious delegation that visited Tibet requested access to 
him, but it was denied.
    Secondly, the U.S. should urge that all monks and nuns expelled 
from their monasteries and nunneries be immediately reinstated, and 
that the government's current reeducation campaign be ended. Buddhist 
monks and nuns are expelled for failing to denounce the Dalai Lama; 
during 1996-97, the campaign affected 35,000 monks and nuns in 700 
different sites. As many as 2,800 may have been expelled. They are 
forbidden to enter any monastery or nunnery or to go to Lhasa.
    Thirdly, the Administration should urge the immediate, 
unconditional release of all Tibetan prisoners held solely for the 
peaceful expression of their beliefs and opinions. There are at least 
650 Tibetan political and religious prisoners, and the actual number 
may be over 1,200. Getting unhindered, regular access to Tibet by the 
U.N. Special Rapporteur on Torture would also be another useful and 
constructive step the White House should encourage in the runup to the 
President's visit.

                                 ______
                                 

  Beijing Citizens Still in Prison in Connection With 1989 Tiananmen 
                            Square Crackdown
Beijing No. 2 Prison
Name, Age - Sentence, Charge (see key below for charge name)

Cao Yingyuan, 40 - 10 years, #6
Chang Jingqiang - 25, Life, #4, 5
Chang Yongjie, 31 - Susp. death #4, 6, 9 Chen Dongxiang, 57 - 14 years 
#3
Chen Qiulong, 38 - 13 years, #3
Chen Yanbin, 23 - 15 years, #7
Guan Jian, 46 - 20 years, #3
Han Gang, 27 - 12 years, #6
Hu Zhongxi - 10 years, #2
Jiang Yaqun, 54 - Susp. death #4, 4A Li Yujun, 29 - Life #4
Li Zhixin, 37 - Life #4, 4A
Lu Jinsheng, 30 - 15 years, #4A
Miao Deshun - Susp. death #1
Shen Licheng, 43 - 13 years, #3
Shi Xuezhi, 53 - 16 years, #4A
Song Kai, 40 - Life #5
Sun Chuanheng, 22 - Life #4
Sun Hong, 22 - Susp. death #4A
Tan Diaoqiang, 42 - 15 years, #3
Tang Yong, 23 - 10 years, #6
Wang, 42 - 15 years, #3
Wang Baoyu - Susp. death
Wang Dongfeng, 40 - 10 years, #4A, 6 Wang Jiaxiang, 76 - Life #4
Wu Chunqi, 42 - Life #4, 4A
Zhang Baosheng, 22 - 13 years, #5, 6 Zhang Peiwen, 55 - 10 years,
Zhao Suoran, 30 - Life #4
Zhu Gengsheng, 31 - Susp. death #4, 4A, 6

Beijing No. 2 Prison, No. 9 Team
Name, Age, Occupation - Sentence, Charge (see key below for charge 
name)

Bal Fengying, 34, worker - 15 years, #9 Chai Jun, 26 - 14 years, #4a
Chen Yang, 27, worker - 15 years, #9, #10 Deng Wanyu, 34 - 15 years, #4
Dong Shengkun, 37, cadre in Beijing No. 2 Print Works - Susp. death, #4 
Du Jianwen, 28, worker - 17 years, #9, #10
Duan Zhijun, 43, worker - 11 years, #4 Feng Lisheng, 33 - Life, #11
Gao Hongwei, 28 - Life, #4
Gao Liang, 27, worker - Life, #4
Gao Zhenhe, 23 - 20 years, #9, #10
Gong Chuanchang, 25 - 15 years, #9
Guo Zhenbo, 30, worker - 13 years, #9, #10 Hao Fuchun, 61 - 15 years, 
#9
Hua Siyu, 27, cadre - 13 years, #9, #10 Huang Xuekun, 28 - 12 years, 
#9, #10 Huo Liansheng, 29 - 12 years, #11
Jia Majie, 27, cadre - 13 years, #4
Jiang Sheng, 31, worker - 15 years, #9, #5 Li Changzhan, 34, worker - 
13 years, #4
Li Fuquan, 35 - 15 years, #4
Li Hongqi, 31, worker - 20 years, #11, #9, #10 Li Tao, 26, worker - 11 
years, #9, #10
Li Zengliang, 27 - 13 years, #10
Lian Zhenguo, 30 - 13 years, #9
Liang Yingchun, 38, worker - 12 years, #4 Liang Yunqing, 27, worker - 
14 years, #9, #10 Liang
Zhaohui, 26, worker - 13 years, #4
Liang Zhenyun, 32, auto-mechanic - 12 years, #11 Liang Zhixiang, 25, 
worker - 10.5 years, #4
Liu Changqing, 34 - 15 years, #4
Liu Chunlong, 26 - 12 years, #4
Liu Huaidong, 31, cadre - 13 years, #10
Liu Jianwen, 29, worker - 20 years, #11, #10 Liu Kunlun, 43, cadre - 13 
years, #4
Liu Quan, 44 - 15 years, #4, #13
Liu Xu, 28, worker - 15 years, #4
Liu Zhenting, 36, worker in Beijing No. 2 auto plant - 17 years, #4, #9
Lu Xiaojun, 36, worker - 13 years, #9, #10
Ma Guochun, 35 - 11 years, #9, #10
Ma Lianxi, 44 - 15 years, #11
Ma Shimin, 26 - 11 years, #4
Meng Fanjun, 29, worker - 13 years, #11 Mi Yuping, 39, worker - 13 
years, #4 Niu Shuliang, 26, worker - 12 years, #4
Nin Zhanping, 43, worker - 12 years, #4, #12 Peng Xingguo, 41 - 15 
years, #4
Qiao Hongqi, 38, worker - 12 years, #11 Shan Hui, 28, worker - 14 
years, #9
Shi Xuezhi, 58 - Life, #4
Song Shihui, 24, worker - 11 years, #9, #10 Su Gang, 28, teacher - 15 
years, #4
Sun Chuanheng, 28 - Life, reduced to 20 years, #2 Sun Hong, 27, worker 
- Susp. death, #4
Sun Yancai, 32 - Life, #9
Sun Yanru, 27 - 13 years, #9
Sun Zhengang, 33, worker - 14 years, #4 Wang Jian, 30, worker - 13 
years, #9 Wang Lianhui, 31 - Life, #9
Wang Lianxi, 43, worker - Life, #4
Wang Xian, 30, worker - Life, #4
Wang Yonglu, 30, worker - 11 years, #11 Wang Yueming, 32 - 13 years, #4
Wang Chunmo, 34 - 11 years, #9
Wang Dongming, 37, worker - 13 years, #4 Wu Ruijiang, 28, cadre - 13 
years, #9, #10
Xi Haoliang, 27, worker - Susp. death, #4, #5
Xu Ning, 26, worker - 12 years (reduced by 2 years), #4 Yan Jianxin, 
30, worker - 11 years, #9, #10
Yang Guanghui, 25 - 12 years, #4
Yang Jianhua, 38, worker - 14 years, #9, #12 Yang Pu, 34 - Susp. death, 
#4
Yang Yupu, 33 - 15 years, #4
Yu Wen, 29, worker - 12 years, #10
Zhang Baojun, 27 - 13 years, #4, #9
Zhang Baoku, 29, worker - 12 years, #4 Zhang Baoqun, 32 - Life, #4
Zhang Fukun, 39 - Life, #4
Zhang Guodong, 27 - Life, #4
Zhang Kun, 28, worker - 11 years, #4 Zhang Maosheng, 30 - Susp. death, 
#4
Zhang Qijie, 32, worker - Susp. death, #9, #10, concealing a weapon 
Zhang Qun, 27, worker - Life, #4
Zhang Shengbo, 28, cadre - 14 years, #9 Zhang Yansheng, 30 - Life, #9
Zhao Qing, 28, worker - 18 years, #4, #9 Zhao Yushuo, 37 - 14 years, #9
Zheng Yansheng, 45, worker - 11 years, #4 Zhu Wenyi, 37, worker - Susp. 
death, #4

Qinghe Farm, No.3 Branch
Name, Age - Sentence, Charge (see key below for charge name)

Chen Baohua, 19 - 10 years, #10
Dong Jianjun, 20 - 9 years, #10
Feng Xuyin, 25 - 9 years, #11
Huo Yanfeng, 16 - 10 years, #4A
Li Lijing, 20 - 10 years, #11
Li Ruijun, 27 - 9 years, #11
Li Shengli, 21 - 9 years, #10
Li Yanming, 28 - 9 years, #11
Liang Aizhong, 26 - 10 years, #10
Liu Dongquan, 24 - 10 years, #4A
Liu Tianli, 21 - 10 years, #10
Lu Jingshan, 20 - 10 years, #4A, 10
MengFanmin, 19- loyears,#11
Qin Zhiyu, 18 - 10 years, #4A
Rong Yongnan, 36 - 10 years, #11
Tian Degang, 30 - 10 years, #10
Wan Baolin, 33 - 10 years, #11, 10
Wang Xianhui, 26 - 9 years, #11
Wei Guoqing, 25 - 10 years, #11
Xiao Fuge, 21 - 9 years, #10
Zhang Zhenxi, 20 - 10 years, #10

Qinghe Farm, No. 8 Branch
Name - Sentence

Deng Yuanping - 9 years
Ding Ke - 9 years
Dong Shuangsuo - 10 years
Shi Guohui - 10 years
Wu Yuping - 9 years
Zhang Cailin - 10 years
Zhang Chuanyou - 10 years
Zhao Yongjiang - 9.5 years

Qinghe Farm, No. 6 Branch
Name - Sentence

Chen Wei - 10 years
Cheng Hongli - 10 years*
Cheng Honglin - 10 years*
Deng Shusen - 10 years*
Li Donghui - 10 years
Li Jimin - 9 years
Zhang Fusheng - 9 years*
Zhang Liwei - 9 years
Zhao Jianxin - 10 years*
Zhao Jun - 10 years

Key

Counterrevolutionary charges:

#1 - Defecting to the enemy and turning traitor
#2 - Participating in armed mass rebellion
#3 - Espionage
#4 - Counterrevolutionary sabotage
#4A - Counterrevolutionary arson
#5 - Counterrevolutionary injury
#6 - Counterrevolutionary propaganda and incitement
#7 - Organizing a counterrevolutionary group
#8 - Conspiring to subvert the government

Common criminal charges

#9 - Robbery
#10 - Hooliganism
#11 - Stealing or seizing gun or ammunition
#12 - Disturbing social order
#13 - Disrupting traffic

Notes:

    (1) Some of the ages of prisoners in Qinghe Farm No. 3 Branch are 
age at date of arrest.
    (2) Sentences marked with an asterisk* could have been subject to 
reduction or supplementation.
    (3) ``Susp. death'' means a death sentence with a two-year 
reprieve. This means that if the prisoner has behaved well during the 
two-year period, the sentence is normally commuted to life.

     List of Forty-Nine Overseas Members of Reactionary Organizations Currently Subject to Major Control \1\    
                                         List A: ``Category 1 Persons''                                         
----------------------------------------------------------------------------------------------------------------
                                               Travel                                                           
                                    Date of   Document     Expiry      Whether on Wanted       Date of Border   
  No.           Name          Sex    Birth    Type and      Date             List          Control, Doc. No. and
                                                 No                                          Period of Validity 
----------------------------------------------------------------------------------------------------------------
1        Yan Jiaqi              M      xxx         xxx         xxx   MPS Wanted Notice No  On 8/20/91, Ministry 
                                                                      (89) 060              of Public Security  
                                                                                            issued secret       
                                                                                            telegram placing    
                                                                                            subject on list of  
                                                                                            those to be denied  
                                                                                            re-entry to China;  
                                                                                            MP Telegram No. (91)
                                                                                            1041, unlimited     
                                                                                            duration.           
2        Chen Yizi              M      xxx         xxx         xxx       do                    do               
3        WanRunnan              M      xxx         xxx         xxx       do                    do               
4        Su Xiaokang            M      xxx          No     [blank]        do                    do              
                                              document                                                          
5        Wu'erkaixi             M      xxx          do          do   MPS Wanted Notice          do              
                                                                      No. (89) 058                              
6        Chai Ling              F      xxx          do          do        do                    do              
7        Liang Qingtun          M      xxx          do          do       do                    do               
8        Feng Congde            M      xxx          do          do       do                    do               
9        Wang Chaohua           F      xxx          do          do       do                    do               
10       Zhang Zhiqing          M      xxx          do          do       do                    do               
11       Zhang Boli             M      xxx          do          do       do                    do               
12       Li Lu                  M      xxx          do          do       do                    do               
13       Yue Wu                 M      xxx          do          do   MPS Wanted Notice         do               
                                                                      No. (89) 069                              
14       Zhang Gang             M      xxx         xxx         xxx   MPS Wanted Notice         do               
                                                                      No. (89) 077                              
15       Yuan Zhiming           M      xxx          No     [blank]   MPS Wanted Notice         do               
                                              document                No. (89) 0?0                              
16       Wang Runsheng          M      xxx          do          do       do                    do               
17       Chen Xuanliang         M      xxx          do          do       do                    do               
18       Zheng Yi               M      xxx          do          do   MPS Wanted Notice         do               
                                                                      No. (89) 100                              
19       Lu Jinghua             F      xxx         xxx         xxx   MPS Wanted Notice     On June14, 1989, MPS 
                                                                      No. (89) 078          placed subject on   
                                                                                            list of those to be 
                                                                                            denied re-entry to  
                                                                                            China, Border       
                                                                                            Control Notice No.  
                                                                                            (1993) 621, re-entry
                                                                                            ban valid until June
                                                                                            14, 1998.           
----------------------------------------------------------------------------------------------------------------
\1\ This document was issued confidentially by the Ministry of Public Security to all border control units in   
  China in May 1994. The appearance of the letters ``xxx'' in the table indicate that the relevant details have 
  been deleted from the original document in this translation in order to safeguard the privacy of those        
  concerned.                                                                                                    


                                                                                                                
                                         List B: ``Category 2 Persons''                                         
----------------------------------------------------------------------------------------------------------------
                                               Travel                                                           
                                    Date of   Document     Expiry      Whether on Wanted       Date of Border   
  No.           Name          Sex    Birth    Type and      Date             List           Control, Doc. No. & 
                                                 No                                          Period of Validity 
----------------------------------------------------------------------------------------------------------------
1        Wang Bingzhang         M      xxx          No     [blank]   [blank]               On August 20, 1991,  
                                              document                                      MPS issued secret   
                                                                                            telegram placing    
                                                                                            subject on list of  
                                                                                            those to be denied  
                                                                                            re-entry to China;  
                                                                                            MPS Telegram No.    
                                                                                            (91) 1041, unlimited
                                                                                            duration.           
2        Hu Ping                M      xxx     [blank]         xxx       do                    do               
3        Xu Bangtai             M      xxx         xxx         xxx       do                    do               
4        Han Lianchao           M      xxx         xxx         xxx       do                    do               
5        Cao Changqing          M      xxx         xxx         xxx       do                    do               
6        Liu Yongchuan          M      xxx         xxx         xxx       do                    do               
7        Liu Binyan             M      xxx         xxx         xxx       do                    do               
8        Han Dongfang           M      xxx         xxx         xxx    Wanted Notice No.    On July 19, 1993, MPS
                                                                      (89) 058              placed subject on   
                                                                                            list of those to be 
                                                                                            denied re-entry to  
                                                                                            China; PRC Border   
                                                                                            Control Notice No.  
                                                                                            (1993) 778          
9        Xiong Yan              M      xxx          No     [blank]   MPS Wanted Notice         do               
                                              document                No. (89) 058                              
10       Zhao Pinlu             M      xxx          do          do   MPS Wanted Notice         do               
                                                                      No. (89) 078                              
11       Cheng Kai              M      xxx          do          do   [blank]               On August 21, 1993,  
                                                                                            MPS placed subject  
                                                                                            on list of those to 
                                                                                            be denied re-entry  
                                                                                            to China; PRC Border
                                                                                            Control Notice No.  
                                                                                            (1993) 842, re-entry
                                                                                            ban valid until     
                                                                                            August 21, 1998 [?I 
----------------------------------------------------------------------------------------------------------------


                                                                                                                
                                         List C: ``Category 3 Persons''                                         
----------------------------------------------------------------------------------------------------------------
                                               Travel                                                           
                                    Date of   Document     Expiry      Whether on Wanted       Date of Border   
  No.           Name          Sex    Birth    Type and      Date             List           Control, Doc. No. & 
                                                 No                                          Period of Validity 
----------------------------------------------------------------------------------------------------------------
1        Fang Lizhi             M      xxx         xxx         xxx   MPS Wnted Notice No.  On August 20, 1991,  
                                                                      (89) 054              MPS issued secret   
                                                                                            telegram placing    
                                                                                            subject No. (89) on 
                                                                                            list of those to be 
                                                                                            054 denied re-entry 
                                                                                            to China; MPS       
                                                                                            Telegram No. (91)   
                                                                                            1041, unlimited     
                                                                                            duration            
2        Li Shuxian             F      xxx          No     [blank]       do                    do               
                                              document                                                          
3        Yu Dahai               M      xxx          do          do   [blank]                   do               
4        Wu Fan                 M      xxx          do          do       do                    do               
5        Ni Yuxian              M      xxx          do          do       do                    do               
6        Yao Yueqian            M      xxx         xxx         xxx   do                    On September 2, 1993,
                                                                                            MPS placed subject  
                                                                                            on list of those to 
                                                                                            be denied re-entry  
                                                                                            to China; PRC Border
                                                                                            Control Notice No.  
                                                                                            (1993) 926, re-entry
                                                                                            ban valid until     
                                                                                            December 31, 1998   
7        Tang Guangzhong        M      xxx         xxx         xxx   On October 11,1993,       do               
                                                                      MPS placed subject                        
                                                                      on list of those to                       
                                                                      be denied re-entry                        
                                                                      to China; PRC                             
                                                                      Border Control                            
                                                                      Notice No.                                
                                                                      (1993)1038, re-                           
                                                                      entry ban valid                           
                                                                      until December 31,                        
                                                                      1998                                      
8        Guo Luoji              M      xxx         xxx         xxx       do                On August 13, 1993,  
                                                                                            MPS placed subject  
                                                                                            on list of those to 
                                                                                            be denied re-entry  
                                                                                            to China; PRC Border
                                                                                            Control Notice No.  
                                                                                            (1993) 879, re-entry
                                                                                            ban valid until     
                                                                                            December31, 1998    
9        Wu Hongda              M      xxx         xxx         xxx       do                On October 19, 1991, 
                                                                                            MPS placed subject  
                                                                                            on list of those to 
                                                                                            be denied re-entry  
                                                                                            to China; PRC Border
                                                                                            Control Notice No.  
                                                                                            (1991) 373, re-entry
                                                                                            ban valid until     
                                                                                            December 31, 1996   
10       Shen Tong              M      xxx         xxx          do   On November 12,           do               
                                                                      1992, MPS placed                          
                                                                      subject on list of                        
                                                                      those to be denied                        
                                                                      re-entry to China;                        
                                                                      PRC Border Control                        
                                                                      Notice No.                                
                                                                      (1992)1202, re-                           
                                                                      entry ban valid                           
                                                                      until November 2,                         
                                                                      1995                                      
11       Wang Ruowang           M      xxx         xxx         xxx       do                On March 8, 1993, MPS
                                                                                            placed subject on   
                                                                                            list of those to be 
                                                                                            denied re-entry to  
                                                                                            China; PRC Border   
                                                                                            Control Notice No.  
                                                                                            (1993) 246, re-entry
                                                                                            ban valid until     
                                                                                            September 6, 1998   
12       FengSuying             F      xxx         xxx         xxx       do                    do               
13       Liu Qing               M      xxx         xxx         xxx       do                On JuIy 19, 1993, MPS
                                                                                            placed subject on   
                                                                                            list of those to be 
                                                                                            denied re-entry to  
                                                                                            China; PRC Border   
                                                                                            Control Notice No.  
                                                                                            (1993) 778, re-entry
                                                                                            ban valid until July
                                                                                            19, 1998            
14       Xue Wei                M      xxx         xxx         xxx       do                On April 13, 1993,MPS
                                                                                            placed subject on   
                                                                                            list of those to be 
                                                                                            denied re-entry to  
                                                                                            China; PRC Border   
                                                                                            Control Notice No.  
                                                                                            (1993) 571[?], re-  
                                                                                            entry ban valid     
                                                                                            until September 23, 
                                                                                            1998                
15       Chen Jun               M      xxx         xxx         xxx       do                On September 2, 1993,
                                                                                            MPS placed subject  
                                                                                            on list of those to 
                                                                                            be denied re-entry  
                                                                                            to China; PRC Border
                                                                                            Control Notice No.  
                                                                                            (1993) 826, re-entry
                                                                                            ban valid until     
                                                                                            December 31, 1998   
16       Yang Jianli            M      xxx     [blank]     [blank]       do                Currently not subject
                                                                                            to control          
17       ZhuJiaming             M      xxx          do          do       do                    do               
18       Xu Jiatun              M      xxx          do          do       do                    do               
----------------------------------------------------------------------------------------------------------------

    The Chairman. Excellent. Thank you. Mr. Kagan.

STATEMENT OF ROBERT KAGAN, SENIOR ASSOCIATE CARNEGIE ENDOWMENT 
                    FOR INTERNATIONAL PEACE

    Mr. Kagan. Thank you, Mr. Chairman.
    In his testimony, Stan Roth passed up the opportunity to 
describe the theory of engagement that underlies the entire 
administration's policy. I would just like to, extremely 
briefly, look at what that theory is and ask whether it is in 
fact turning out the way the administration thinks it ought to.
    What is the theory of engagement? It is that we should be 
trying to integrate China into the international system through 
a combination of inducements and incentives that will lead them 
gradually, in their own interest, to accept international 
norms, to become a responsible player in the international 
community, both in terms of its domestic policy behavior and in 
terms of its foreign behavior. At the heart of that theory is 
that inducements are the way to get China to make the necessary 
changes of its behavior.
    Now, I think that there is real reason to doubt whether 
this theory is appropriate if you think about what China wants 
in the world, what the Chinese leadership wants. When I say 
this, it is not just my opinion. I want to quote just very 
briefly from two leading Sinologists, who, by the way, happen 
to share the administration's general approach, but who write 
very frankly about what it is that China wants.
    I am quoting Kenneth Lieberthal, a distinguished professor 
at the University of Michigan. ``China wants the world to 
accept its Chinese characteristics as part of the price of 
having the country join international councils. Though a new 
player, China wants to be a rule-setter and not just a rule-
accepter.''
    Now, let me quote from David Shambaugh, another 
distinguished Sinologist at George Washington University. 
Shambaugh argues that because of its domestic politics, China 
cannot and will not reciprocate the Western policy of 
engagement, because on the one hand the regime views it as a 
policy of subversion, and on the other the cost of adapting to 
international rules and norms are too high. According to 
Shambaugh, China is a dissatisfied and non-status quo power, 
which seeks to change the existing international order and 
norms of interstate relations.
    Now, moving from the question of theory to the question of 
practice, the question we have to ask ourselves today is, who 
is shaping whom in this relationship? Are we in fact shaping 
Chinese behavior or are they in fact shaping our behavior, and 
succeeding in changing international norms that we have 
established over 50 years of hard work by successive 
administrations?
    I think if you look across the board, across the nine 
baskets of issues that this administration likes to talk about, 
you can see that it is China that is increasingly setting the 
rules and we who are increasingly bending in order to 
accommodate Chinese desires to make these kinds of changes.
    I will not go in any detail through these issues. We have 
heard already about how we are the ones making exceptions for 
China on nonproliferation activities. We are the ones who are 
trying to--the administration has, through various means, been 
trying to put pressure on Taiwan to accommodate itself to 
Chinese desires. We are sharing technology with China against 
our own national security interests. We are in fact now 
abandoning an international human rights strategy because that 
strategy annoys the Chinese Government.
    And I think it is almost time to ask whether the U.S. 
policy of engagement has become a policy aimed at protecting 
China from the consequences of its own behavior. If you look at 
the administration's actions over the 6 months, in every single 
case that you can think of, where the Chinese have misbehaved, 
whether it is on human rights or nonproliferation, it is the 
administration that has come to the defense of the Chinese 
Government and sought to move this relationship forward despite 
those transgressions.
    I think it is worth asking, is this what engagement was 
supposed to mean, whether one agrees with the engagement 
strategy or not?
    I will just make two other quick comments. One is that I 
believe it was Senator Thomas who asked that there be no 
surprises leading up to this summit. Well, it seems to me this 
administration's strategy has all been about surprises. If it 
were not for the hard work of Bill Gertz at the Washington 
Times, we would not know that the administration had planned to 
go even further in the direction of missile cooperation and 
space cooperation with the Chinese Government. The fact that 
the memo was leaked and Bill Gertz was able to write about it 
has effectively killed that plan.
    But the administration strategy is to be as quiet about 
what it wants to do as possible, and then spring these 
surprises on the Congress. I trust that the Congress will try 
to keep a close watch on what the administration wants to do, 
and try to get the administration to say what its plans are and 
what its strategies are for this summit.
    And, finally, I would only like to echo those who have said 
that it is a tragedy that the President is going to visit 
Tiananmen Square. The Chinese Government is very eager to sweep 
away the memories of what happened in 1989, and would very much 
like the rest of the world to collude with it in sweeping away 
those memories. I am afraid that no matter what President 
Clinton say when he arrives in China, the fact of his being in 
Tiananmen Square will aid the Chinese Government in its efforts 
to wash over the past and forget about all those who died under 
tanks in Tiananmen Square.
    Thank you.
    [The prepared statement of Mr. Kagan follows:]

                 Prepared Statement of Robert Kagan \1\
---------------------------------------------------------------------------
    \1\ Robert Kagan is Senior Associate at the Carnegie Endowment for 
International Peace.
---------------------------------------------------------------------------
    There has been a long-running debate in this country over the best 
strategy for managing China's inevitable emergence as global power in 
the years to come. Some have argued that the only way to steer China 
toward responsible and peaceful membership in the international system 
is by containing the Chinese government's increasingly aggressive 
regional and global ambitions while at the same time applying 
consistent pressure for sweeping internal political reform. According 
to this view, which I share, only a democratic China can truly become 
integrated into an international system of rules and norms of behavior 
that have been shaped, after all, by the United States and its 
democratic allies. And only a China which knows that it cannot achieve 
its goals through intimidation and conquest, through the buildup of its 
conventional and strategic nuclear forces, and through the 
proliferation of weapons of mass destruction and advanced missile 
technology, can ever be considered a reliable ``partner'' of the United 
States.
The Theory of ``Engagement''
    The Clinton administration, of course, has taken a quite different 
view. The administration has argued that the best policy toward China 
is one of ``engagement.'' The logic of engagement is that China has a 
clear set of primary interests--in expanding its economic growth, in 
preserving an open door to international trade and investment, in 
maintaining tranquillity at home and peace abroad. These interests, in 
turn, impose certain requirements on Chinese domestic and foreign 
policies. To compete effectively in the world's economy requires that 
China's leaders learn to behave according to internationally 
established norms and rules, both in external and internal matters. 
They must sign and abide by international agreements; they must become 
responsible members of the international community; and, if China's 
economic prosperity is to continue, they must gradually loosen the 
controls on free expression and political organization in their 
country.
    Since any other course is contrary to China's interests, as defined 
by proponents of the engagement theory, Chinese leaders can ultimately 
be counted on to do the right thing. Obstreperous international 
behavior or violent repression at home would only lead to China's 
isolation, straining vital trade ties with the rest of the world, 
retarding economic growth, and producing a hostile encirclement of 
China by fearful but well-armed states. According to the engagement 
theory, China's leaders cannot possibly want to pursue a course so 
damaging to their interests.
    The implications for U.S. policy are clear: With all the forces of 
global economic integration leading the Chinese naturally toward the 
very goals we seek for them, goals which, happily, are compatible with 
our own interests, the task for the United States is merely to help 
educate the Chinese to understand their interests better, to show them 
the fruits that await if they will only do what is right, and otherwise 
to make as little trouble for them as possible. The ``engagement'' 
strategy assumes that China can be guided peacefully toward playing a 
full and responsible role in the existing international order; that 
Chinese leaders desire to be part of that order or at least can be 
persuaded to see their interest in becoming part of it; that China's 
ambitions at home and abroad need not be incompatible with the broad 
interests of the United States; and that, therefore, the best way to 
guide China toward peaceful integration in the international order is 
through patience, forbearance, and active efforts at accommodation and 
cooperation, not through pressure and confrontation.
Is ``Engagement'' Working?
    The administration has been pursuing ``engagement'' for four years 
now, and in recent months it has accelerated efforts to provide the 
Chinese government with ever more incentives to good behavior. It seems 
reasonable to ask at this point, especially with the Beijing summit 
approaching, whether ``engagement'' is working as its advocates 
predicted, whether all the American incentives and inducements really 
have shaped Chinese behavior in a more promising direction, and 
whether, in fact, China can be expected soon to begin conforming its 
foreign and domestic behavior to international norms? To put it 
bluntly, have the administration's optimistic assumptions about China's 
current course reflected anything more than wishful thinking?
    There has, in fact, always been reason to question those 
assumptions. Even Sinologists devoted to the policy of ``engagement'' 
have never concealed the fact that China has little interest in playing 
by the rules of the international game. According to Kenneth 
Lieberthal, a fervent advocate of ``engagement,'' China has never been 
willing to enter the international system without first changing it. 
``China wants the world to accept its `Chinese characteristics' as part 
of the price of having the country join international councils. Though 
a new player, China wants to be a rule setter and not just a rule 
acceptor.'' Thomas J. Christensen, who spent several months 
interviewing Chinese military and civilian government analysts and then 
published his findings in Foreign Affairs, has written that Chinese 
strategic thinkers tend to ``view international organizations and their 
universal norms as fronts for other powers.'' They participate in 
international conferences on economic, environmental, non-
proliferation, and regional security issues in order ``to avoid losing 
face and influence,'' but they have no intention of letting the 
decisions of the organizations constrain their behavior on matters of 
importance. According to Christensen, they consider ``complaints about 
China's violations of international norms'' to be part of ``an 
integrated Western strategy, led by Washington, to prevent China from 
becoming a great power.''
    David Shambaugh, head of the Sigur Center for Asian Studies at 
George Washington University, and a supporter of the administration's 
approach to China, has made the point even more eloquently. ``Because 
of its domestic politics,'' Shambaugh has pointed out, ``China cannot 
and will not reciprocate the Western policy of `engagement' because, on 
the one hand, the regime views it as a policy of subversion and, on the 
other, the costs of adapting to international rules and norms are too 
high.'' According to Shambaugh, the decisive fact is that China is a 
``dissatisfied and nonstatus quo power which seeks to change the 
existing international order and norms of inter-state relations.'' It 
does not want to be ``integrated'' into the U.S.-dominated 
international order; it does not want to accommodate itself to what the 
West considers international ``norms'' Rather, it wants to change the 
world to suit its own special needs as a powerful dictatorship on the 
rise.
    Critics of ``engagement'' with China have long been concerned that 
the net effect of this strategy would not to force China to conform to 
international norms but, on contrary, and as these prominent 
Sinologists suggest, to force the United States and the international 
community to conform to their rules and norms to meet China's desires 
and interests.

Who is Shaping Whom?
    Mr. Chairman, I believe that is the process we have been witnessing 
over the past few years, and especially over the past six months. 
Today, Congress needs to pose a question to the administration. If it 
is true, as Lieberthal argues, that China ``wants to be a rule setter 
and not just a rule accepter,'' has the Clinton administration begun to 
acquiesce to this demand?
    On some issues, for instance, on the subject of trade, the Clinton 
administration has so far been reluctant to let the Chinese rewrite the 
international rules of the game. At the very least the Clinton 
administration fears the angry reaction in Congress that such an 
accommodation might spark. The result, however, is that China is 
nowhere near meeting the requirements of entry into the World Trade 
Organization, even though the administration had once hoped to bring 
China in this year.
    But in other areas, the administration's resolve has weakened. 
Confronted by the prospect of having nothing substantial to show for 
last year's summit, for instance, the administration rushed into 
accepting Chinese assurances on nuclear non-proliferation so that the 
President could certify the Chinese as eligible to buy American nuclear 
power plants. A more prudent approach would have put the Chinese on 
probation for to see whether they would actually abide by those 
pledges, since their record of compliance in the past has been 
miserable. But apparently the administration believed that 
``engagement'' required taking Chinese assurances at face value.
    The administration's stated determination to hold the Chinese 
government to some reasonable standards of international and domestic 
behavior has weakened further in the months since the summit. In the 
last six months, the Clinton administration has been working hard to 
accommodate the Chinese on a host of issues. In March the 
administration announced it would no longer support a human rights 
resolution at Geneva, even though last year U.S. officials had promised 
to work harder to get one passed. In January, the Clinton 
administration dispatched a group including former Secretary of Defense 
William Perry to warn democratic Taiwan against any move toward 
independence. The administration has been silent about the quashing of 
democracy in Hong Kong, even though democratic rights are steadily 
being stripped away by the Chinese authorities there
    Then there are matters that even more directly affect the vital 
security interests of the United States and its allies. Since the 
beginning of the year, the administration has been systematically 
compromising America's long-term national security interests in order 
to get short-term trade deals for favored business executives, who also 
happen to be top Democratic party donors. In fact, nowhere has the 
administration been more lax in enforcing the international rules of 
the game than on two important national security issues: China's 
assistance to nuclear weapons and missile projects in Iran and 
Pakistan; and the efforts by some American corporations to provide 
China's own intercontinental ballistic missile program with American 
know-how and sensitive technology.
    Some may recall that the ``centerpiece'' of last year's Clinton-
Jiang summit was an agreement to allow American companies to start 
building nuclear reactors in China, in return for which China was 
supposed to cease its nuclear cooperation with Iran and Pakistan. The 
administration also trumpeted another, related deal at the summit: The 
Chinese government allegedly promised Madeleine Albright that they 
would stop providing cruise missiles to Iran, since such missiles 
directly threaten American naval forces in the Persian Gulf.
    But the Chinese appear to have reneged on their promises almost 
immediately after the summit. Clinton officials now acknowledge, 
privately, that there was no deal on cruise missiles. The Chinese, 
apparently, still have every intention of continuing to supply Iran 
with help in developing medium- and short-range missiles.
    As for Chinese assurances against further nuclear cooperation with 
Iran, these turned out to be hollow. Earlier this year President 
Clinton certified to Congress that China ``is not assisting and will 
not assist any nonnuclear-weapon state, either directly or indirectly, 
in acquiring nuclear explosive devices or the material and components 
for such devices.'' But at about the time the President was making this 
certification, U.S. intelligence eavesdropped on Chinese and Iranian 
officials who were secretly putting the finishing touches on a sale of 
hundreds of tons of chemicals that would be used by Iran to enrich 
uranium for use in nuclear warheads.
    The Clinton administration did not, however, withdraw the 
certification and put the nuclear cooperation agreement with China on 
hold. Instead, Clinton officials quietly let the Chinese government 
know they had been caught preparing to make the sale; the Chinese 
canceled the sale (or so they said); and then the administration set 
about trying to cover up China's violation of its pledges here at home. 
President Clinton publicly praised the Chinese government after this 
incident: ``The Chinese followed through on [the deal] and kept their 
agreement to the letter,'' the President said. ``I am well pleased, 
actually, with the way that issue came out.''
    In April, the New York Times' Jeff Gerth revealed a troubling story 
about the transfer of sensitive missile guidance technology to China by 
two American corporations. According to Gerth, two American aerospace 
companies, Hughes Electronics and Loral Space and Communications, were 
suspected of having given ``the Chinese crucial assistance in improving 
the guidance systems'' of their Long March intercontinental ballistic 
missiles in 1996. More specifically, it was the kind of technology that 
could help the Chinese deploy multiple warheads on their missiles, 
something they have so far been unable to do. In May 1997, the Times 
revealed, the Pentagon produced a classified report concluding that 
scientists from the two firms had ``turned over expertise that 
significantly improved China's nuclear missiles.'' As a result, the 
Pentagon report stated, ``United States national security has been 
harmed.'' The problem was considered so serious that the Justice 
Department began a criminal investigation and impaneled a grand jury.
    Despite these reports and inquiries, in February President Clinton 
granted Loral a waiver to provide the Chinese with the same kind of 
missile guidance information which the company was under investigation 
for illegally providing two years ago. Clinton overruled the Justice 
Department, which argued that the decision would undercut the ongoing 
criminal case, and the Pentagon, which had argued on national security 
grounds against the sale.
    Apparently, the administration intends at the upcoming summit to 
make it even easier for the Chinese to obtain sensitive technology from 
American companies. In exchange for yet another round of Chinese 
promises to stop doing what they said they had already stopped doing, 
the administration would invite China into the international Missile 
Technology Control Regime. According to a secret memo uncovered by the 
Washington Times' Bill Gertz, the administration expects that entry 
into the MTCR would give China ``substantial protection from future 
U.S. missile sanctions and would expedite somewhat the consideration of 
MTCR-controlled U.S. exports to China.''
    Who is shaping whom? Are we reshaping China's behavior, or is the 
Chinese government reshaping ours? Unfortunately, a clear pattern seems 
to be emerging in the administration's policy toward China. As China 
remains intransigent, on issues of human rights and political reform, 
on its belligerence toward democratic Taiwan, on its military buildup 
and weapons modernization, and on its sales of weapons, technology, and 
technical know-how to. Iran, Pakistan and others, the administration 
has been moving determinedly to shield China from criticism both 
internationally and domestically. Instead of tough negotiating, instead 
of standing firm on these vital issues, the administration has looked 
to give China more and more inducements to better behavior. And it has 
tried to cover over or find excuses for China's misbehavior.
    Is this what ``engagement'' was supposed to means? It would seem to 
be an appropriate question for Congress to ask the President before he 
leaves for Beijing next month. One thing is certain: The Chinese 
government has held firm in pursuit of its goals. And there should be 
no doubt what those goals are. To quote Shambaugh again, ``Above all, 
China seeks to disperse global power and particularly to weaken the 
preponderant power of the United States in world affairs.... China's 
primary foreign policy goal today is to weaken American influence 
relatively and absolutely.'' The Clinton administration's strategy of 
engagement once purported to try to deal with this problem. Now it 
increasingly appears that the administration is interested in cementing 
U.S.-Chinese relations at any cost--even at the price of U.S. security.

    The Chairman. Thank you very much. Mr. Kapp.

  STATEMENT OF ROBERT A. KAPP, PRESIDENT, U.S.-CHINA BUSINESS 
                            COUNCIL

    Mr. Kapp. Thank you, Senator, for letting me come by. I had 
intended to be super brief and, as the conversation has gone 
on, I have become a little less brief, but I will stay within 
my alloted time.
    My testimony says something that some will find 
discomfiting. That is that while it is 10 years since 
Tiananmen, it is also 10 years since an American President last 
visited China. I think that we need now to ask ourselves to 
look at China and to form our understanding of China by asking 
where China was, where it has come over the last 10 years,and 
where it now is, not only in terms of Tiananmen alone.
    This of course is not the way many people would view the 
last 10 years of Chinese history, but as I suggest in my 
written remarks, we cannot look at American history since 1963 
as the history of the United States solely since the 
assassination of President Kennedy either.
    The Clinton trip to China actually, in that sense, offers 
us an opportunity--without even for a minute forgetting or 
shoving under the rug the tragedy of Tiananmen and the 
lingering tragedies that stem from it--to ask ourselves where 
the United States and China can go and how China has come since 
the year of the last Presidential visit, without focusing on a 
single tragic event.
    My comments now will unfortunately not include the raising 
of straw men, the placing of alleged words in others' mouths, 
the vague use of terms like ``some people,'' the raising of 
rhetorical questions, or even any particular praise or blame 
for the administration--our Council is a nonpartisan 
organization, and that is not my purpose. I have been troubled 
by these tendencies on much of the inflamed commentary 
regarding U.S.-China relations that is currently circulating. I 
want instead to comment on a couple of things that are found in 
the material I have presented as testimony and in the written 
documents appended to my testimony.
    I think we have to grapple with a difficult realty. That is 
that we want China, as a government and as a society, to 
conduct its affairs in greater conformity to global norms, and 
in fact norms of which the United States has often been a 
creator. We want China to act better. But we also have a 
tremendous national interest in the existence of a national 
government in China that governs effectively. That is, for 
Americans in the policy sector and perhaps for some Americans 
in legislation, a difficulty.
    Many of the problems that we have with China result from 
the fact that Chinese political institutions are in such flux, 
and the profundity of change and uncertainty in the development 
of Chinese political institutions--long before 1949, but even 
now--is so great that the government in Beijing simply does not 
have the power to control the actions--even internationally 
significant actions--of Chinese citizens or Chinese economic 
units.
    So, we have a problem. I believe that there is a very 
strong national interest for the United States in developing 
the maximum possible degree of effective cooperation with the 
Chinese Government to enable the Chinese Government to govern 
more effectively in areas that in fact are of profound concern 
to the United States. The classic case is ``rule of law;'' 
there are others--energy and environment for example, and other 
issues that Stan Roth called the ``baskets'' in his discussion 
of the earlier Clinton-Jiang meeting.
    The central point is this: It is OK to wishful think about 
the deconstruction of the Chinese central government or the 
elimination of an iniquitous regime, but we also have to 
remember that this is a pretty small world, and that the 
existence of a Chinese central government that can really 
govern the country is also of profound importance to the United 
States. U.S. policy should address the most effective ways of 
engaging with a Chinese national regime whose ability to govern 
is itself important to U.S. interests.
    The only other point I would raise before I close is the 
question of perfect satisfaction. I went to a media conference 
last week on how the media were going to handle the trip. I 
must say, I think for many of us it was quite dispiriting. I 
mean, the notion was--from members of the media themselves--
that throughout the President's visit to China there will be a 
constant focus on aspects of the President's personal life or 
on U.S. domestic issues. In the process, if this happens, the 
opportunity for this visit to really help reintroduce the 
reality of China to the American people will be just swept 
away.
    In my testimony, I have chosen to be a little bit more 
optimistic. It seems to me that the great value of this trip--
the first value of this trip--could be to begin the process of 
reacquainting the American people with the complexity and the 
variety and the enormity of today's China. Today's China has in 
it features and dimensions that all of us are repelled by. It 
also has dimensions and features that are extraordinarily 
impressive and worthy, I think, of most Americans' appreciation 
and understanding, you might even say praise; that certainly 
includes China's achievements in raising living standards and 
so forth.
    So, my hope is that the President's trip, will serve a 
constructive role, in a sense reintroducing the variety and the 
complexity of the People's Republic of China to the American 
people as a whole. It is the American people, ultimately, who 
will determine the ways in which our Government manages its 
differences and its common interests with China.
    Thank you.
    [The prepared statement of Mr. Kapp follows:]

                  Prepared Statement of Robert A. Kapp

    Mr. Chairman, members of the Senate Foreign Relations Committee:

    I very much appreciate your invitation to offer my views to you 
today, as the Committee considers the implications of the President's 
upcoming visit to China.
    As I have testified before this Committee earlier in this Congress, 
I will not introduce myself at length on this occasion. I have been 
president of the US-China Business Council since 1994. The Council is 
the principal organization of American companies engaged in trade and 
investment with the People's Republic of China. Founded in 1973, we 
will celebrate the Council's twenty-fifth anniversary in just a few 
weeks. Among the nearly three hundred companies and firms that comprise 
our membership, many have been working with China for ten, fifteen, or 
even twenty-odd years. We hope that the perspectives developed out of 
this extensive experience can contribute to the development of 
effective US policies toward China and to the continued improvement of 
relations between the two nations.
    In support of my testimony today, I have appended a few short 
items.
    Mr. Chairman, the visit of President Clinton to China next month 
will mark the first voyage on American president to China since the 
beginning of 1989.
    1989-the year conjures a single image when we think about China.
    But 1989 was also the last occasion for a presidential visit to 
China - the first overseas visit by a newly-chosen American president, 
if I remember correctly.
    As we look ahead to President Clinton's visit, it is fair to look 
at the years since 1989 as the years ``since Tiananmen.''
    But that is not enough, any more than the 18 years of American 
experience since 1969 are solely the years ``since Kent State,'' or the 
35 years since 1963 are solely the years ``since the assassination of 
President Kennedy.''
    We should also seek perspective on the period ``since the last U.S. 
presidential visit to China.''
    This visit should indeed cause us to pause for reflection on where 
both China and the United States have been, where we are today, and 
where we might go in the future.
    As we stop to reflect, we will notice with a start of surprise that 
time is passing. In little more than a year, we will f'md that more 
time has passed since Tiananmen than elapsed between the normalization 
of US-China diplomatic relations in 1979 and the Tiananmen tragedy. 
Unavoidably, drama becomes history. The world turns. The world of 1989 
has changed unalterably. The Cold War is over. The once-feared Asian 
economic growth engines have sputtered. The United States and China, 
each in its way, have moved on.
    What should we--and our president--consider as we approach 
Clinton's visit to China?
I. Baseline Observations
    A. The immense, uneven and often untidy process of China's quest 
for post-Mao modernity is the dominant feature of the Chinese landscape 
over the past two decades.
    Initiated by the battered survivors of the chaos and violence of 
the Mao era and the ``Cultural Revolution,'' the broad reform program 
established in 1979, with its twin goals of introducing the market 
economy and integrating China with the wider world, has plowed ahead, 
erratically but irrevocably.
    Agricultural communes are gone. In most areas of the economy, the 
market forces of supply and demand drive prices and production 
decisions. Competition has exploded throughout the Chinese economy, 
especially in the vast sectors where the government no longer 
dominates. Once an insignificant player in world trade, China is now a 
global trading power. Basic material needs are satisfied. Government 
rationing of food grain and cloth, for example, has ended. A massive 
consumer market has burst forth.
    China's politics have abandoned Maoist ``mass campaigns'' and 
regime-engineered ``class struggle'' that burned themselves into 
American perceptions of the PRC, in favor of non-violent but non-
democratic leadership change and technocratic administration. A recent 
Hong Kong report, citing a classified Communist Party document, 
revealed that more than seventy percent of officials at or above the 
rank of vice minister in the Chinese administration immediately 
preceding the new Zhu Rongji administration had spent at least six 
months in the United States.
    Central planning and the trappings of the Soviet-derived economic 
model have given way, albeit unevenly and in the face of powerful 
resistance, to a mixed economy which defies labelling but which has 
clearly abandoned Marxist-Leninist economic orthodoxy. Chinese citizens 
whose schooling, employment, and residence were once assigned by the 
government now make their own choices, in a labor market that would 
have been absolute heresy two decades ago. The non-state sector of the 
industrial economy is the growth center of the entire economy.
    The still incomplete edifices of a legal system--and of a legal 
profession--have emerged from the ashes of the Cultural Revolution. 
Long-dominant institutions and ideological shibboleths have crumbled.
    Living standards have risen beyond the imaginations of most 1970s 
observers. Deng Xiaoping's pledge to double and then redouble China's 
GNP by the year 2000 was realized five years early.
    Global influences--economic, cultural, intellectual--continue to 
enter China through every channel, including the internet, whose 
unlimited breadth sometimes causes concern not only to Chinese leaders 
but to American parents and legislators.
    Raggedly, the concept of private property has re-emerged; one of 
the pressing modern Chinese needs is the establishment in law and 
practice of effective definitions of property ownership. What is clear 
is that the rigidities of pre-reform state ownership have broken down.
    The Zhu Rongji government has just decided to cut the umbilical 
cord of government-subsidized housing for urban dwellers, creating in 
its place private ownership of dwellings and the possibility of an 
immense new housing market.
    I found it interesting to note that Century 21 Real Estate has 
recently announced establishment of operations in Shanghai.
    In short, casual suggestions that China today is unchanged from the 
China of a decade or two ago--the kind of suggestions conveyed by such 
journalistic catch phrases as ``Aging Maoists,'' are inaccurate and 
misleading. No serious observer who has visited China since the last 
presidential visit in 1989, or since the late 1970s, as I have, could 
agree with the Member of Congress who solemnly informed me two years 
ago, ``Nothing has changed in China in 25 years.''
B. Growth and reform have generated new dilemmas in China.
    The PRC today faces massive challenges, many of them stemming from 
the successes of nearly twenty years of post-Mao reform.
    A book recently published in Beijing, The Critical Moment: 27 
Problems Urgently Demanding Resolution in Today's China, offers a frank 
look at these challenges.
    With apologies for my inadequate translation skills, I have 
appended my own rendering of the chapter summaries from this 
fascinating book--whose very publication, I might add, would have been 
inconceivable in China a decade ago.
    Year after year of 10 percent growth has produced prosperity for 
some, and unprecedented opportunity for many. But there has been a 
heavy price: environmental degradation on a monumental scale, 
widespread official corruption both petty and grand, ominously 
increasing disparities of wealth and income growth between more- and 
less favored regions of the country, a dearth of broadly-accepted 
public values among citizens no longer susceptible to heavy. doses of 
official ideology, visible and growing unemployment in spite of rapid 
economic growth, prospects of further economic dislocation as the 
regime now turns to the core tasks of dismantling the inherited Maoist-
Stalinist economic edifice.
C. China is still, as it was a hundred years ago, in profound flux.
    Institutions rise and fall; jurisdictions are defined and 
redefined; policies change as conflicting views at the highest levels 
of government and Party play out behind closed doors. (And remember; 
when those views clashed in public, in the 1950s, 1960s, and 1970s, the 
result was too often massive social violence and loss of life.) Power 
ebbs and flows between the national government, which seeks to weld 
together a modern nationwide economic structure, and the 
``localities''--provinces, counties, cities, towns--which often prefer 
to maximize their local interests without too much concern for national 
priorities.
    The presumption that China's institutions are locked tight, set in 
concrete, is sadly mistaken, and an inadequate assumption on which to 
build U.S. policy.
    America's challenge--whether in in business or government--is to 
work effectively with the constant flux and shifting that characterizes 
day-to-day life and policy in China. Nothing could be more futile than 
focusing our national policies or our business strategies on an 
imagined China that has ceased to be--or never was--the ``real thing.''
Some Chinese traits and conditions, however, run very, very deep. Among 
        them:
    Population pressure. Members of the Committee will know already 
that China has more than 20 percent of the world's population, but only 
7 percent of the world's arable land. That land is under ever-
increasing pressure, as the government releases controls over private 
economic choice and farmland is converted to non-agricultural use.
    Most estimates suggest that, even without the economic dislocation 
and unemployment now burgeoning as the national government attempts to 
dump the core institutions of the Maoist-Stalinist economic system, 
fifteen to twenty million people newly enter the work force each year.
    It was Mao Zedong, in his almost mystical zeal, who excoriated and 
ruined those serious economists who warned in the 1950s of the dangers 
of unlimited population growth. Today, his successors grapple daily 
with the realities of overpopulation, insufficient employment 
opportunity, torrents of migration from countryside to city, and 
potential social discontent among the rootless and the unemployed.
    Bureaucracy. The Chinese Communists did not invent Chinese 
bureaucracy in 1949. By the third century BC, the emperor was 
experimenting with interchangeable administrative officers recruited by 
a merit-based examination. By the 7th century AD the bureaucratic 
system took its modern form, lasting with few changes into the early 
20th century. What not only Western business people but ardent 
reformers inside China see as the sloth, corruption and irrationality 
of much Chinese bureaucratic process has deep, deep roots, and has 
proven almost impossible to eliminate. An historic attempt at 
bureaucratic reduction, involving the termination of four million 
officials in the central government alone, has just gotten underway 
with the establishment of Premier Zhu Rongji's administration last 
month.
    Government management of morality. The Communists didn't invent 
this either; from the time of the birth of Christ in our calendar, 
Chinese rulers, no matter how they attained power (usually through 
violent upheaval), ruled through the mechanism of an officially 
promulgated moral orthodoxy. For two thousand years, this was 
Imperially sponsored Confucian philosophy, embodied in the classical 
literature whose masters became the emperor's administrative 
bureaucrats. After 1949, the government-sponsored morality became 
``Marxism-Leninism-Mao Zedong Thought,'' with all the repressive 
implications that conveys.
    Today, the excesses of ideological indoctrination have receded, but 
the rulers of China still take it as a given that the state propagates 
popular values--and defines the line between acceptable and 
unacceptable social values and heterodoxy. This is not to the taste of 
most Americans, but it is a fact.
    Fierce debates still occur from time to time, though fortunately 
without the violence of earlier decades, over the content and the 
boundaries of state-approved ideology.
    The celebration in Beijing this month of the twentieth anniversary 
of the publication of an article entitled ``Practice is the Sole 
Criterion of Truth''--a topic not calculated to rouse passions inside 
the Beltway or out in the American heartland--hints at this reality; 
the original article was a coded attack on the blind ideological 
fundamentalism of the Maoist era and a clarion call (in Chinese 
context) for the regime to permit ``The Liberalization of Thought.'' 
The debate over regime definitions of Right and Wrong for popular 
consumption is an old one in China, and it persists today.
    Uneven economic development. China has always been big, and has 
nearly always been ruled from a single imperial center point. But, like 
other very large countries, it has always contained areas of wealth and 
of poverty, and in those disparities lurk the possibilities of social 
tension.
    Since the Western advance toward China in the 18th century and 
China's maritime engagement with the world, coastal China has known the 
most rapid economic growth. This has been particularly true since the 
``Opening to the Outside World'' after 1978, as massive amounts of 
foreign investment have poured into the more developed coastal areas 
enjoying the greatest economic advantages. Indeed, an unanticipated 
byproduct of China's impressive economic improvement since the late 
'70s has been the re-emergence of grave inequalities of growth rates 
and the leaving of some poor and remote areas in the deep shadows of 
national economic development.

      *      *      *      *      *      *      *
    Mr. Chairman, thus far in my remarks, I have tried to point out a 
few of the basic features of the China that the United States faces at 
the end of the twentieth century. I have emphasized size, the power of 
the bureaucratic-imperial legacy, the tradition of state sponsorship of 
moral values, the unending challenge of enormous population and limited 
resources, the worrisome unevenness of economic development between 
advantaged coastal areas and disadvantaged interior regions, the 
constancy of flux and change in policies and administrative structures, 
and the powerful pull of China's inherited traditions.
    As we look back on twenty years of contact with China, we in the 
business community know that the route to effective and profitable 
relations with China leads deep into Chinese society itself. It is 
impossible to succeed with China, we have learned through experience, 
without continually learning how to make our way. It avails us naught 
to try to do business with China from our armchairs in Washington or 
Dallas or New York or Omaha It is fruitless to pack up our sample cases 
and head for China to ``tell them what they need to know.'' As an 
earlier generation of American entrepreneurs, both commercial and 
spiritual, discovered in 19th century China, no amount of selling our 
wares will succeed if we cannot, as it were, ``speak their language.''

      *      *      *      *      *      *      *
    From all of this, what can and should the United States hope for 
from the visit of President Clinton next month?
    First of all, we should hope that the visit will produce something 
more than sound bites for the American people. The President of the 
United States represents the entire nation on state visits abroad, and 
his visit to China should help all Americans to get at least a bit 
better acquainted with a vast and ancient nation that marches to music 
other than our own. No one picture--whether of Tianamnen, of the placid 
fishermen of Guilin, of the Shanghai stock exchange or of an adorable 
young baby--can alone convey to Americans the complexity and the 
variety of the Chinese experience. We have lived with sound bites for 
too long. With the conscientious efforts of the media, the Clinton trip 
might be able to expand America's sense of China from a crimped menu of 
black versus white images and 7-second bites into a more serious and 
complex understanding. That would be the best possible service to US 
policy making.
    Second of all, we should welcome the furtherance of low-key 
building-block cooperative efforts between the two nations. Presidents 
Clinton and Jiang made a start in this direction with their October 
1997 statement pledging bilateral working cooperation on a wide range 
of issues of shared concern to the two countries. Modest but serious 
programs of concrete cooperation--in law, in energy and environment, 
and in a variety of other fields--are a key to stable and beneficial 
US-China relations.
    Third, we should hope for substantial progress on the major 
remaining unrealized issue relating to China's role in the world 
economy, namely, China's accession to the World Trade Organization on 
legitimate terms. Like every nation confronting the mixture of benefits 
and obligations arising from participation in multilateral 
institutions, China has its share of ``openers'' eager to seize the 
opportunities offered by greater global participation and of 
``closers'' fearful of the loss of sovereignty or the potential damage 
to domestic economic interests caused by the opening of markets to 
foreign participation. Accession to the WTO, moreover, will require of 
China a degree of economic and social reorganization far greater than 
anything that the US has ever faced in preparing to join global 
institutions. Ultimately, therefore, China's leaders will have to face 
very tough economic and political decisions. I am encouraged, however, 
by the intensity of current US-China contacts over WTO, hope, with most 
Americans active in business with China, that the summit will be able 
to mark definitive progress on major aspects of a final WTO 
understanding.
    Fourth, we should hope for progress on the many non-economic issues 
that this Committee so frequently discusses. I am not a specialist in 
most of these areas, and will not write at length on them.
    I would hope, however, that members of this Committee might 
consider the main point contained in the article, ``Once in a While, 
Less Is More,'' which I have appended to this testimony.
    There are times when the way to resolve bilateral disagreements 
with China is not through high-visibility confrontation, or even 
through high-drama negotiation. US-China relations are not wrestling 
matches. Hammer locks don't apply. The climactic ``pin,'' with the 
loser unable to move while the referee counts him ``out'' and the 
audience cheers, is not the stuff of successful US-China engagement and 
realization of US interests. We err if we assume that in every case, 
the more strident one side becomes the more pliant the other side will 
be--in either direction.
    I am hopeful, therefore, that in addition to reaching publicly 
acclaimed bilateral understanding on some issues, such as the WTO, the 
Clinton trip to China will further advance a process that is already 
underway; the ``reciprocal unilateral'' removal of irritants and causes 
of US-China friction. Whether before, during, or after the upcoming 
Presidential mission to China, I believe that the continuing re-
normalization of US-China relations can and should result in additional 
unilateral gestures of consideration for each side's sensitive 
concerns.

      *      *      *      *      *      *      *
    Will the June visit of President Clinton to China be a ``success?'' 
It depends on who is setting the targets.
    It is logically impossible for any Summit, or for any actions by 
either government, to provide absolute satisfaction to all those in one 
country who are disgusted with the other side's behavior. If we define 
the upcoming Summit's success in terms of such perfect satisfaction--
whether in trade, human rights, regional security affairs, or any other 
field--then the Summit will be found wanting.
    But if we see this summit as a step--symbolic, certainly, but also 
substantive--in the direction of fuller US-China communication, 
cooperation, and mutual consideration, I believe that there is a 
reasonable chance for ``success.'' The process of re-establishing a 
civil US-China relationship has been underway since 1996. The 
reciprocal visits of Presidents Jiang and Clinton are an important 
element in that vital process.

      *      *      *      *      *      *      *
    Mr. Chairman, the economic and commercial relationship between the 
United States and China is now immense. China is this nation's fourth-
ranked trade partner. Exports to China account, by any reasonable 
standard, for several hundred thousand American jobs. Imports from 
China account for more jobs in transportation, services, and sales. US 
investment in China far exceeds twenty billion dollars. In the global 
economy, China has come to play a significant and mature role; its 
maintenance of currency stability in the face of the Asian economic 
crisis has been widely applauded worldwide, and by US policy makers. 
Stable and growing economic and commercial relations have been the 
bedrock of US-China relations, even in periods of political tension, 
since the 1970s.
    The American business community is the first to recognize that 
making progress--whether commercial or diplomatic--with China is hard 
work for America and for China as well. We acknowledge a myriad 
problems in China, both commercial and noncommercial.
    We believe, however, that the American response to those problems 
should be typically American--energetic  practical. We know from 
experience that even when we are told ``Meiyou banfa,'' ( ``No Way!'') 
there usually is a banfa--a way--to resolve difficulties or prevent 
unnecessary stalemates. For these reasons, we wish President Clinton 
well on his mission, and we look forward to continuing to play our 
constructive role in the building of a reliable 21st century 
relationship between the United States and China.
    Thank you.

                           APPENDED DOCUMENTS

                    THE U.S.-CHINA BUSINESS COUNCIL

                       Letter from the President

                             Robert A. Kapp
     reprinted from the January-February 1998 China Business Review

                     Once in a While, Less is More

    In case you haven't noticed, we are in a moment of calm on the US-
China front. How long it will last is uncertain. Unless somebody does 
something sufficiently imaginative to break out of the annual Most 
Favored Nation-Driven cycle of recrimination, we'll soon see fire-works 
again, perhaps even before the winter of 1998 is over. While things are 
quiet, let's contemplate the year past and the way ahead.
1997 Highlights
    After months of bitter debate laced with very domestic politics, 
the US House of Representatives sustained normal US tariffs (MFN rates) 
on Chinese goods by a decisive margin. An attempt to scuttle MFN in the 
Senate was quickly defeated. Late in the year, the House passed in a 
few days a raft of China-focused bills. Prospects of enactment into law 
in 1998 are at best cloudy.
    Hong Kong reverted to Chinese sovereignty with essentially none of 
the dire eventualities that had sparked a year-long feeding frenzy in 
the American media and unending discussion in the US political realm. 
Since the handover, many Americans and others worldwide have remained 
vigilant, but Hong Kong has dropped almost completely from public view 
in the United States.
    The state visit of PRC President Jiang Zemin produced a number of 
commitments to improved bilateral cooperation, and a remarkable public 
event: the two presidents' sober public exploration of deeply divergent 
perspectives on human rights. Despite heavy US media concentration on 
points of US friction, the two leaders revealed an increasingly mature 
and manageable relationship between proud but very different societies.
    Bureaucratic engagement between the two governments began to expand 
in ways that will assist the continuing normalization of US-China 
cooperation. Already, cabinet- and subeabinet-level engagements are 
increasing.
    Following the conclusion of the state visit, Wei Jing-sheng, 
regarded by many as China's most prominent prisoner of conscience, was 
released from penal custody and came to the United States for medical 
care. Wei's release had been heavily emphasized by leading US human 
rights organizations and critics of US-China rapprochement; some had 
urged that the state visit not proceed unless Wei was freed.
    Shortly after the summit, during the Vancouver Asia Pacific 
Economic cooperation forum meetings, china presented US negotiators 
with a new proposal on World Trade Organization (WTO) accession. 
American officials have called it a serious step forward.
    China moved ahead on key questions of political leadership, and 
reforms in the crucial area of State-owned enterprise restructuring 
have already begun to lurch forward at the grass-roots level.
    The year end evidence thus suggests that the PRC and US 
administrations have taken a publicly observable stake in the benefits 
of civil and respectful engagement, in spite of voices in each nation 
demanding that the other country be treated as an implacable strategic 
adversary'.
Signs of ``Reciprocal Unilateralism''
    After years of megaphone diplomacy, 1997 may be remembered as the 
year in which a more productive pattern of engagement began to emerge. 
Call it ``reciprocal unilateralism,'' as distinct from ``formal 
bilateralism.''
    Under reciprocal unilateralism, the two sides maintain a very 
direct, thorough, continuous, and businesslike policy dialogue, 
generally away from the headlines and the ``bully pulpit,'' so that 
each side has a solid understanding of the others priorities and most 
sensitive concerns.
    When the ongoing, formal bilateral dialogue produces formally 
negotiated agreements whose public affirmation is acceptable to both 
sides, the two governments announce and ink their achievements 
together.
    Significantly for the long-term standing of bilateral differences, 
however, each side also takes unilateral steps to address the other's 
urgent concerns. Moreover, without detailed elaboration, each side 
responds to positive gestures with something positive of its own.
    These reciprocal unilateral moves take place with no formal 
agreements, no joint statements, and no explicit acknowledgement of 
linkages. As they accumulate, however, the end results are a 
progressive removal of irritants and improvement of the operating 
system of US-China relations overall.
    In terms of process. this may not be to the taste of all Americans. 
Some would prefer bankable proof that their own efforts have caused 
China to modify its policies or practices. In extreme cases, the value 
seems to lie more in the public credit to be earned than in the 
concrete results to be achieved. Advocates of a bright-spotlight 
strategy of public exposure and high-profile demands are probably right 
in maintaining that pressure is an intrinsic element in the US-China 
relationship. But yearning for that comforting assurance that one's own 
actions directly caused a desired change for the better in China is 
almost always an exercise in futility.
    For achieving real results, the reciprocal unilateral style may 
turn out to be unexpectedly productive. The evidence of the past year 
suggests that a decision to maintain a real working relationship at the 
leadership level, after many years of deep doubt, has now been 
established in both countries. This relationship can allow each side to 
address the concerns and needs of the other without requiring in every 
case the official agreements and explicit linkages that formal 
bilateralism entails. Such a possibility does not mean the end of all 
differences of position between the United States and China. Like 
official bilateral commitments, reciprocal unilateral moves can entail 
domestic political risks.
    Reciprocal unilateralism assumes three things. First, it assumes 
maintenance of very strong, laborious but effective communication 
between the two administrations. This in turn demands a willingness to 
commit precious time and attention to a dialogue that will tax the 
resources of both sides.
    Second, reciprocal unilateralism demands consistent adherence to 
stable and durable priorities. If the two sides cannot dependably 
convey their priorities to each other, no amount of agile maneuvering 
will suffice to sustain political confidence in the possibility of 
shared progress, and bitterness over ``moving the goal posts'' will 
wear away at bilateral relations.
    Third, reciprocal unilateralism both requires and contributes to a 
sense of positive purpose and forward movement even in the face of 
inevitable storms and controversies. Reciprocal unilateralism must 
bring results in sensitive areas one step at a time, but it is the 
cumulative pattern that counts. If momentary crises perpetually 
threaten to derail the process, real progress will not be sustainable. 
Forces within each society might prefer derailment. Nevertheless, to 
continue the analogy, while a string of burning tank cars on a rail 
siding in a populated area might be a great marketing opportunity for 
gas-mask manufacturers, it doesn't do much for the local citizenry.

The Way Forward
    The way forward ideally will see substantial formal bilateral 
progress in 1998, particularly in the context of President CIinton's 
visit to China. That visit will, we hope, take place earlier rather 
than later in 1998.
    At the core of the formal bilateral agenda in 1998 should be the 
PRC's WTO accession and its companion, elimination of the wasteful 
annual US renewal of China's normal tariff status. Though we've said 
this before, recent signs of progress have once again suggested that a 
genuinely acceptable agreement between the United States and China, 
prerequisite to broader WTO agreement on China's accession, may finally 
be edging within the two leaders' grasp. The two sides now know each 
other's positions well, and the two nations' leaders have apparently 
blessed further progress in this key area. Expeditious conclusion of 
the nearly endless WTO haggle, on economically legitimate terms, is far 
and away the biggest concern of US business at the formal bilateral 
level.
    The way forward should also see the further development of longterm 
bilateral cooperation in such areas as the extension of international 
legal procedural norms, under conditions in which neither side is the 
demander and neither is the target.
    The way forward should see additional reciprocal unilateralist 
steps in areas of great sensitivity. This is as significant as required 
progress in formal bilateral settings. Already, the two sides have 
begun to show that they can make these gestures. There is no need to 
elaborate the issues here or to propose a specific tit-for-tat formula. 
The gathering record should speak for itself.
    Finally, the way forward must be just that--a path to progress. 
Standing still is equivalent, bicycle-style, to falling over. If the 
two sides have decided to invest in the rebuilding of a crucial global 
relationship, it will not do to lose concentration, or to stow the 
follow-up plans in the back of the drawer.
    In the US-China arena. 1997 ended more positively than it began. 
Look for more drums and cymbals in 1998, but hopefully for further 
nuanced progress on the reciprocal unilateral front--and ideally for 
resolution at last on WTO as well.

                                 ______
                                 

                    THE U.S.-CHINA BUSINESS COUNCIL

                       Letter from the President

                             Robert A. Kapp
     reprinted from the January-February 1998 China Business Review

                  The Meaning of the 1997 MFN Victory

    The June 24 decision by the US House of Representatives to maintain 
normal trade relations between the United States and China by refusing 
to abolish Most Favored Nation (MFN) tariffs on Chinese imports, 
although the eighth consecutive case of MFN preservation, must not be 
regarded as ``business as usual.'' It was the result of a remarkable 
amount of very hard work, not only by the community of American 
international businesses and key national organizations like the US-
China Business Council, but also by a new and impressive array of 
smaller businesses and non-business organizations that expressed for 
the first time the full breadth of US national support for a decent and 
civil relationship with China.
    The extent and the ferocity of this spring's assault on MFN, and on 
normal US-China relations, deepened the discussion of US-China 
relations throughout American society. No one can say that the 
opponents of MFN and those dedicated to downgrading US-China relations 
did not have their chance to speak this year. They threw everything 
they had into their attack, including massive media efforts, virulently 
inflammatory language, shaky numbers, misleading statements, and plenty 
of bitter assaults on the integrity of MFN's supporters.
    At first, Congress reeled backward under this onslaught from a 
well-organized, media-savy campaign that seemed to be as heavily 
dedicated to scoring domestic political points as to changing US China 
policy.
    In the dark days of February and March, when the full fury of the 
anti-MFN storm began to burst forth, many in the business community, 
too, were shocked by the intensity and animosity of the attack. The 
persistent, unelaborated allegations of PRC involvement in US campaign 
finance irregularities fueled an underlying flame that illuminated the 
political dangers fading elected officials dedicated to the 
preservation of normal US-China relations.
    The blunt political insistence on defining MFN as a moral-religious 
issue seemed for a time likely to turn MFN into a visceral, media-
magical drama of Foreign Treachery and Domestic Villainy. As the spring 
progressed, the intricate complexities of American domestic politics 
produced an ominous rumble of shifting positions among some prominent 
figures. For a time, it seemed that, in the House at least, MFN was 
headed for defeat.
    Then, something remarkable happened.
    From the countryside, from small towns and cities across the 
country came a growing chorus of alarm that killing MFN would be not 
only economically disastrous, but morally counterproductive. Members of 
Congress began to hear, from members of the religious comnunity who 
actually work with the Chinese in the PRC, a gentle but urgent message 
of concern over the damage that a comprehensive degradation of US-China 
relations would wreak on their work and the welfare of their friends 
within China. Coalitions supportive of stronger US-China relations, 
especially economic and commercial ties, made their views known in many 
states--precisely as members of Congress had implored MFN's supporters 
to do. The views of constituenents--including those in small companies 
who lack the resources to ``work the issues'' in the nation's capital 
month after month--were expressed in home town weekend meetings with 
members of Congress. local newspapers, and community gatherings. These 
voices seemed to break through the high-pitched hum of the Washington, 
DC policy apparatus.
    Powerful and respected figures from the Chinese dissident community 
in the United States came forward, in congressional hearings and 
through published statements, to point out that killing economic ties 
between the United States and China was exactly the opposite of what 
was needed if hopes of further political opening in China were to be 
realized.
    And once again, with particular courage in the face of the anti-MFN 
side, the committed and steadfast congressional supporters of MFN, 
including their talented and untiring staffers, worked diligently to 
spread the message of responsible policy making among their colleagues. 
The White House and key Administration figures also turned their 
attention to the future of US-China relations, and argued ringingly for 
the maintenance of normal trade ties as the keystone of a much larger 
and more complex relationship.
    The business community, long the workhorse of the battle to 
maintain stable US-China economic relations, came together as never 
before. Blasted by its opponents as political and moral renegades, the 
business community found itself this year sharing the burden with a 
broad coalition of concerned Americans who, in their own words, made 
the case for MFN on humanitarian and ethical grounds. The business 
communities comments in Congress. press conferences, letters, and news 
articles, refuted the outrageous contention that killing MFN was the 
only legitimate course for people of ethical and religious conviction. 
My own testimony in the House of Representatives this June attempted to 
bring together in a single brief document the core moral issues and the 
eloquent voices of Americans and Chinese outside of business, who 
provided the dearest justification of continued MFN in the terms that 
many in Congress chose to emphasize this year.

The Search for the Perfect Message
    In the end, MFN's opponents were left to claim that, even though 
MFN's future was never really in doubt because both the US Senate and 
the President were certain to ensure its continuation, House defeat of 
MIN was needed to ``send a message.'' But what the message was, and to 
whom it ought to be sent, was something the anti-MFN legions could 
never quite clarify: A message to Hong Kong perhaps? A message to 
others in one's own political party? Maybe a message from Congress to 
the White House about control of trade policy? A message to President 
Clinton, as more than one anti-MFN member of Congress put it? A message 
to China, as several columnists dubbed it? A message to US consumers? A 
message to China's leaders?
    On June 24, the House of Representatives faced up to the reality 
that, after eight years of wrenching annual debate the ``message'' is 
still impossible to pinpoint. As one impatient congressman made clear, 
sending a message is no substitute for a substantive and credible 
policy.
    Amazingly, in the final days before the House vote, the national 
media seemed to turn their attention to other matters. Hong Kong as an 
MFN issue had fizzled weeks before; the imminence of the Hong Kong 
handover galvanized media attention and MFN faded into the shadows. By 
the time of the critical House vote, the whole subject had virtually 
disappeared from the American press.
    So the 1997 MFN battle is over; normal trade is preserved for one 
more year. Once again, members of Congress in both parties, including 
some of the most strenuous critics of China, have seen that the annual 
struggle over tariffs on Chinese imports is of little use in handling 
the complexities of US-China relations.
    The rest of 1997 will be busy: Hong Kong will put in place new 
governing structures and officials in line with its new status as a 
Special Administrative Region of the PRC. PRC President Jiang Zemin 
will visit President Clinton this fall: and bilateral negotiations on 
China's accession to the World Trade Organization will continue. The 
need for effective US-China dialogue on many issues is increasing, not 
diminishing. Opportunities for further progress, interrupted since late 
1996, are at hand this autumn. This summer may see additional China-
focused proposals in Congress that require careful examination even if 
they are not specifically tied to continued MFN status for China. But 
we should take satisfaction in the outcome of this year's struggle. 
which represents a recovery from adversity and a significant broadening 
of the social and intellectual foundations for US commitment to stable 
and enduring commercial and economic ties with China.

                                 ______
                                 

THE TALK OF THE HOUR IN CHINA: INTRODUCTIONS TO SAMPLE CHAPTERS FROM 
THE CRITICAL MOMENT: 27 PROBLEMS THAT DESPERATELY NEED TO BE SOLVED IN 
TODAY'S CHINA (Published April 1997 in Beijing by a group of young 
researchers and social scientists under the sponsorship of a prominent 
scholar-adviser to President Jiang Zemin.)

(Informally translated by Bob Kapp, September 10, 1997)

    The Question of our Farmers. From beginning to end, the question of 
the peasantry is the foremost question of China's revolution and its 
economic development. How are we going to rekindle the tremendous 
energy and enthusiasm that the farmers displayed in the early 1980s? 
How are we to renew and stimulate the immense potential stored up over 
the centuries in the hearts of our farmers, in order to build once 
again a new Chinese Enlightenment in the 21st century?
    In today's agriculture we find traditional peasants laboriously 
tilling the land of their ancestors. But some of our farmers are really 
modern businessmen, wearing western clothes and leather shoes and 
carrying bulging briefcases.
    We have long talked a big game about the central importance of 
agriculture. How much longer are we going to go on with this 
``Agriculture By Slogan''?
The Grain Problem.
    China's Third-Generation leadership stresses, ``Grain Production 
Affects Everything.''
    Worldwide, 800 million people go hungry every day; 500 million 
children have not enough to eat; their mental and physical development 
is impaired; 40,000 people die of hunger every day.
    The ominous words of/Lester/Brown about ``A Starving World'' are 
like a boulder pitched into the water; one stone makes a thousand 
waves, giving a chilling new significance to all the talk about the 
``China Threat.''
    The crisis of the huge fluctuations in China's grain production are 
rooted in the long years of policy emphasis on heavy industry at 
agriculture's expense and soaking agriculture /i.e., from 1950s through 
late 1970s/. Will China's grain situation in the next five years again 
show such critical fluctuations? What should we do about it?
The Population Problem
    China has been carrying out a population planning campaign for 20 
years. More than 300 million additional births have been avoided. Even 
so, our population will rise to 1.3 billion by the end of the century. 
In 2020 it will be 1.4 billion, and by 2050 it will rise to about 1.6 
billion. Only then will we reach the point of zero population growth.
    We can rail about people's lack of vision, but actually their 
outlook is rooted in practicality. Changing their outlook--this is the 
most effective form of criticism and a way of bringing about some 
changes for the better in the unfair distribution of mental resources. 
This relates directly to the willingness of families to invest in the 
intellectual development of their children.
    Furthermore: how are we going to navigate the challenges of a 
transition to a more rapidly aging population?

The Problem of the State-Owned Enterprises
    Our state-owned enterprises are the least efficient. Any delay 
today in the continued reform of these enterprises will critically 
impair our social and economic development in the future.
    The outflow of assets from state-owned enterprises is now a serious 
problem. The ``legal'' loss of such assets is even more serious than 
the illicit losses. Some have estimated that losses of assets from the 
state-owned enterprises /i.e., into non-state hands, through whatever 
means/ now total RMB 500 billion /approx. US $60 billion. Some say the 
leakage is running RMB 100 billion each year. Who can say for sure?
    Are state-owned enterprises a good thing or a bad one? Can China's 
state owned enterprises exist independent of government? Should state-
owned enterprises simply withdraw from economic fields in which there 
is competition, or shouldn't they? Should the pursuit of profits be the 
only aim of state-owned firms? What will become of our state-owned 
enterprises in 15 years?

The Problem of the Market Economy.
    The Cold War between East and West in this century was rooted in 
different assessments of the market economic system; from that emerged 
a conflict of ideologies and of systems.
    Rigorously speaking, the beliefs we have embraced since the 
beginning of Reform in the late 1970s has been an ``Operations 
Philosophy.'' This condition lasted until after Deng Xiaoping made his 
famous Trip to the South in 1992 /in which Deng called for the renewal 
of rapid economic liberalization after a post-Tiananmen period of 
economic and ideological retrenchment/.
    The conditions of China's early reform period were not the result 
of a deep-going economic crisis, but rather the result of social 
pressure. What kind of system and what kind of future do we face, now 
that our economic life is switching from one track to another? What 
will we gain from this transition? What will we lose?
    We have already travelled down the easy path. The next steps of our 
reform are going to encounter much more difficult challenges. Starting 
from where we are today, China's socialist market economy could face 
three very different futures.

The Question of our International Strategy
    Will the 21st century see the funeral of the socialist world? Will 
it be ``The American Century?''
    China's international strategy in the 21st century absolutely will 
not rely on a narrow nationalism or on constantly saying ``No!'' to 
cooperation with others. We have no need to become the second ``Mr. 
NO!''
    We should in a dignified way ``Invite the U.S. to descend from its 
gilded throne of global hegemony.''
    A policy of strength is a historical given. China's military 
standard should at least approximate that of France. China should 
seriously, but discriminatingly and in appropriate ways participate in 
UN peace-keeping activities.

The Problem of Crime
    The crime rate in the mid-'90s was eight times the crime rate of 
the early '80s. We are now going through the fifth national crime 
``High Tide'' since 1949
    The characteristics of this crime wave are as follows; the scale of 
crimes is growing and the harm inflicted is increasing; crimes are 
becoming more structurally diverse; the ratio of people violating the 
law is increasing; rural crime has reached alarming proportions; the 
effects of official and public-employee crime are pernicious; organized 
crime grows day by day. Any kind of crime known abroad is also found in 
China, such as secret manufacture and sale of weapons and ammunition, 
computer crime, counterfeiting of money and credit cards, and so on.
    China's investment in public safety represents 1 percent of total 
national investment. In developed countries it stands at 3 to 5 
percent, and in developing countries public-safety investment averages 
9 percent. Budgets are starved for funds; sometimes, for lack of money 
our law enforcement people fail to do their duty...Those who do police 
work face extremes of hardship.
The Problem of Education
    China's education develop could burst ahead in one of three 
directions.
    Some areas have experimented with the bases for financial self-
sufficiency in education, and may very carefully unhook themselves from 
public funding.
    Higher-level schools should gradually establish a system of 
budgeting for the costs of human resource development, carry out cost-
benefit analyses in training programs, and reverse the system of 
``schools managing the community,'' so that ``the community manages the 
schools.''
    China's education needs to overcome its present over-standardized, 
slanted and narrowly ``closed'' condition, establishing instead an 
outlook that respects and dignifies each individual, develops each 
person's natural, and cultivates in each student a sense of self-
development and responsibility.

The Problem of the Moral Quandary
    The power of China's tradition of ethically based culture is so 
great that for two thousand years society in the main did not rely on 
physical force, or on religion, or even on law for its enormous 
stability and unity. ``Governing the empire by the influence of 
virtue'' was China's unique cultural tradition.
    The destruction of the realm of ideals has led to two different 
disorientations. One was the lack of psychological preparedness for the 
enormous burdens accompanying modernization, which pitches some people 
into the deepest sense of hopelessness and crisis of belief On the 
other hand, some people have fallen into a life of giddy infatuation 
with the other countries' ways of life, leaving them walking zombies 
and spiritually dead.
    Modern Chinese live in a time of historic transition from old moral 
values to new ones. They fall into unavoidable moral travail. Moral 
values lose their educating power, and people's values descend into 
confusion. All kinds of immorality float to the surface. The system of 
social morality weakens and loses its controlling influence. The core 
of ethical and moral education changes its appearance....

The Problem of the Wandering Population
    Seeking a higher future income is the primary reason for the tide 
of human labor; there's no doubt that income differentials among 
regions--and even among nearby towns--has provided the impetus for the 
increasing movement of labor among regions and within individual 
regions of the country.
    In reforming the present system of household registration, the 
government's interest would lie in alleviating the crisis of rural 
unemployment, and raising both the productivity and the income of 
laborers. This will promote a new burst of rural economic expansion.
    But the price is measured in higher urban unemployment, in the 
additional inconveniences that affect the quality of urban life, and 
especially in a rising sense of psychological uneasiness in the cities.
    The government definitely can use any number of policy measures to 
cope with these massive population movements, making it more costly for 
people to migrate. But this is not nearly enough to stanch the flow of 
internal migrants, and the scope of this internal migration can only 
continue to grow.

The Problem of Culture Conflict
    Intellectuals' sense of self-worth has already plummeted to the 
lowest point in a hundred years or more. Their image has lost its 
luster. Their prestige has lost its majesty. The market economy has 
unleashed the ``God of the Crowds,'' and opened the door to a 
``carnival era.''
    Educated people versed in the humanistic learning of arts and 
letters cannot leap onto the battlefield of the market economy. They 
hover fatalistically beyond the boundaries of the flourishing market 
economy.
    In an age of heroes, the brave protests of intellectuals against 
the tide of worldliness and secularism may not be well received by the 
general public. Now, as socialist civilization enters a new stage, the 
task of today's intellectuals will be, through their strenuous efforts, 
to reaffirm their own values.
The Problem of Public Finance
    Reform commonly causes financial pressures. How to deal with these 
financial pressures has an enormous impact on the governance of the 
nation
    Competition among profit-seeking firms is a little like a crowd 
getting into a fight in a porcelain shop and throwing cups and plates; 
some people, in grabbing more plates to throw, wind up destroying the 
pottery that could have been shared with many other families.
    The ever-increasing dispersion of government powers among China's 
many local regions has become a major obstacle to the further deepening 
of China's reform programs. It is the direct cause for the present 
shortage of central government financial resources It turns local 
governments into the central government's negotiating adversaries as 
the central government tries to advance the reform process. This 
intensifying amassing of powers at the local level contributes to the 
overheating of the economy, and actually creates conditions of economic 
separatism within our nation.
    In the field of economics, constitutional reform first requires 
financial reform, and financial reform leading to constitutionalism 
first begins with reforms in the taxation system

The Problem of Sustainable Development
    China's modernization has been truly agonizing and full of 
difficulty. Each time China threads its way through a narrow pass, 
another forbidding obstacle looms ahead. Now, in the arduous and 
difficulty-laden period of our arrival in the world economy, we see 
ahead of us a ``Green Wall.''
    At a time when we are feeling the effects of new modern material 
culture, and of the modern ethical culture as well, a great many people 
are alarmed by what they see in the future: a world of constant alarms 
over crises in production. If present rates of pollution resulting from 
industrial production, and of the waste of resources, continue, we will 
not survive.
    History leaves to us and our descendants a narrow avenue of escape. 
The time remaining for us to improve our performance is very short. The 
fundamental conditions are by now inauspicious; this is our last 
opportunity for development.

    The Chairman. Gentlemen, that was four excellent 
testimonies here. I truly want--and I am going to ask unanimous 
consent, and I believe it will be approved--that this be 
printed. I would like for you to agree with me to do one thing. 
That is to adjust your text to cover over any haste that you 
may have in trying to you know. Because what we want to do with 
this--and I have done this on a number of occasions--not 
recently--but we have this printed and we distribute it among 
the opinion-makers, the editors of magazines and so forth. So, 
you have not misspent your time, I hope, coming here this 
morning. You certainly have been beneficial to us. I thank you 
very much.
    And with that, if there be no further business--and there 
better not be--to come before the committee, we stand in 
recess.
    Thank you so much.
    [Whereupon, at 11:45 a.m., the hearing was adjourned, 
subject to the call of the Chair.]


                            A P P E N D I X

                              ----------                              

                          U.S. Department of State,
                                      Washington, DC 20520,
                                                     July 15, 1998.
Dear Mr. Chairman:

    Following the May 14, 1998 hearing at which Assistant Secretary 
Stanley Roth testified, additional questions were submitted for the 
record. Please find enclosed the responses to those questions.
    If we can be of further assistance to you, please do not hesitate 
to contact us.

        Sincerely,

                                    Barbara Larkin,
                                       Assistant Secretary,
                                               Legislative Affairs.
Enclosure: As stated.

    Responses of Secretary Roth to Questions Asked by Chairman Helms
Tibet
    Question. Mr. Roth, last October, Secretary Albright took the 
unprecedented step of appointing a senior official on Tibet. Greg 
Craig's mandate on Tibet is to ``promote substantive dialogue between 
the Government of the People's Republic of China and the Dalai Lama or 
his representatives,'' ``vigorously promote the U.S. policy of seeking 
to protect the unique religious, cultural and linguistic heritage of 
Tibet, and pressing for improved human rights,'' and ``coordinate U.S. 
government activities and programs regarding Tibet.'' These are the 
Secretary's own words.
    Mr. Roth, what progress has the U.S. made in advancing dialogue 
between the Dalai Lama and the government of China, protecting Tibet's 
religious, cultural and linguistic heritage?
    Answer. The Administration continues to be deeply concerned about 
the circumstances in Tibet, particularly reports of human rights abuses 
and limits on religious freedom. Steps also should be taken to ensure 
the preservation of Tibet's unique language, culture and heritage. We 
believe the best way forward on these issues would be the start of a 
meaningful dialogue between the Chinese government and the Dalai Lama 
or his representatives. We are hopeful for progress, but there is still 
a long way to go.
    Consistent with the Dalai Lama's support for the Administration's 
strategy of engaging China, we have repeatedly and vigorously urged the 
Chinese government to start a dialogue with the Dalai Lama. We have 
used every opportunity to address this matter with the Chinese 
including Secretary Albright's recent meetings with President Jiang 
Zemin and other Chinese officials during her visit to China. The summit 
in Beijing later this month will provide a forum for the President to 
discuss Tibet directly with senior Chinese officials.
    Question. What priority is the Administration giving Tibet in U.S.-
China relations, specifically during the upcoming Summit?
    Answer. We use every opportunity in our engagement with China to 
press Beijing to engage in dialogue with the Dalai Lama. We have 
underlined to PRC officials our concern for the preservation of Tibet's 
unique cultural, linguistic, and religious heritage, and our desire to 
see greater respect for the human rights of ethnic Tibetans. Tibet will 
be a high priority agenda item for the upcoming summit, as will other 
issues of religious freedom and human rights.
Taiwan Policy
    Question. Are you prepared to say that U.S. policy on Taiwan is not 
now being altered, and will not be altered during, or as a result of, 
the Summit?
    Answer. U.S. unofficial relations with the people on Taiwan, as 
defined by the Taiwan Relations Act, are not being altered, and will 
not be altered during, or as a result of, the upcoming Summit.
    Question. At what point will Taiwan be entitled to the same respect 
the U.S. accords China in terms of high level visits by Administration 
officials, and the ability of the elected Taiwanese president to visit 
the U.S.?
    Answer. Our relations with the people on Taiwan are unofficial, as 
defined by the Taiwan Relations Act. We treat Taiwan and its people 
with due respect, consistent with the unofficiality of our relations. 
When it serves our national objectives, we do support visits to Taiwan 
of USG officials, up to and including Cabinet rank, from economic and 
technical agencies. Requests for visits by Taiwan's senior leaders to 
the U.S. are reviewed on a case-by-case basis; we expect such visits to 
be personal, private, and rare.
    Responses of Secretary Roth to Questions Asked by Senator Grams
    Question. What is the status of the US-China bilateral shipping 
agreement? US carriers still face restrictions in China while China has 
improved its access in the US. Are the inequities being addressed?
    Answer. The United States signed the current maritime agreement 
with China in 1988. Since then, it has been extended several times and 
expires on June 15, 1998.
    Under the terms of this agreement, maritime authorities from both 
countries have held frequent meetings, most recently in December 1997 
and in March 1998. At each step of the process, we have been in close 
consultation with U.S. industry representatives We are working with the 
Chinese to secure authorization for services that U.S. shipping lines 
want to start or change. We have made clear to the Chinese that a new 
shipping agreement must let U.S. companies perform the full range of 
normal business activities without prior government authorization, just 
as Chinese shipping companies operate in the United States.

   Responses of Secretary Roth to Questions Asked by Senator Ashcroft

    Question. In implementing the nuclear cooperation agreement with 
China, President Clinton certified to Congress that ``the People's 
Republic of China has provided clear and unequivocal assurances to the 
United States that it is not assisting and will not assist any non-
nuclear weapon state, either directly or indirectly, in acquiring 
nuclear explosive devices or the material and components for such 
devices.''
    President Clinton made this certification on January 12, 1998. Did 
the President know, at this time, of China's efforts to send Iran 
hundreds of tons of anhydrous hydrogen fluoride, a material used to 
enrich uranium to weapons grade?
    Answer. The press reports of a potential transfer of anhydrous 
hydrogen flouride (AHF) from China to Iran were allegedly based on 
intelligence leaks and it would not be appropriate to address 
intelligence-related issues in an unclassified response. In general, 
however, we have been monitoring very carefully China's adherence to 
its nonproliferation commitments and assurances, including its 
assurance that it is not going to engage in any new nuclear cooperation 
with Iran.
    We do anticipate that uncertainties will arise from time to time 
about specific transactions that might raise questions about China's 
nuclear nonproliferation assurances, and if we encounter such 
uncertainties, we will not hesitate to raise them with Chinese 
authorities. But the test of China's commitments is not whether a 
Chinese citizen or entity contemplates a questionable transaction or 
consciously or unconsciously attempts to evade export controls. The 
issue is whether China is attentive to possible violations and whether 
it takes prompt, corrective steps to prevent or stop any activities 
that are inconsistent with its commitments. One aspect of this is 
whether China is responsive to our approaches. Based on all of the 
information available to us, China appears to be acting consistently 
with its May 1996 commitment not to assist unsafeguarded nuclear 
facilities and its October 1997 agreement to phase out nuclear 
cooperation with Iran.
    Question. ``The Washington Post'' reported on March 13, 1998 that 
the Administration found out about the transfer of anhydrous hydrogen 
fluoride to Iran just weeks after the October 1997 summit. Did the 
President make the January 12, 1998 certification on U.S.-China nuclear 
cooperation with knowledge of Chinese efforts to ship the nuclear 
material to Iran?
    Answer. As noted above, it is not possible to deal directly in an 
unclassified question and answer with matters alleged to be based on 
intelligence leaks. We do raise questions with other governments about 
potential transactions that appear to be inconsistent with their 
nonproliferation commitments or which might constitute a violation of 
their own export control laws. Sometimes such approaches lead to the 
termination of a potentially troubling transaction, one which may have 
been pursued without the knowledge of the proper authorities. In other 
cases the proposed transaction may turn out to be both authorized and 
legitimate. In yet other cases, it may turn out that no inappropriate 
transaction was actually going to take place. At no time between the 
October 1997 Summit and the submission of the President's certification 
on January 12, 1998 did we conclude that China was violating its 
nuclear nonproliferation commitments.
    Question. Is the President's certification still valid? Is China 
transferring nuclear technology in any way to the nuclear weapons 
program of any country? Are you certain that China is not aiding the 
nuclear weapons programs of Pakistan and Iran?
    Answer. The President's certification is still valid. As noted 
above, based on all of the information available to us, China appears 
to be acting consistently with its May 1996 commitment not to assist 
unsafeguarded nuclear facilities and its October 1997 agreement to 
phase out nuclear cooperation with Iran, i.e., China is not to our 
knowledge transferring nuclear technology to the nuclear weapons 
program of any country.
    Question. In a recent White House meeting discussing legislation 
which would require the President to make various certifications to 
Congress, President Clinton stated that such legislation places 
``enormous pressure on whoever is in the executive branch to fudge an 
evaluation of the facts of what is going on'' (quoted in the New York 
Times, April 28, 1998).
    Do you find troubling the President's comments that facts have to 
be ``fudged''?
    Answer. The Administration has always reported and evaluated facts 
as accurately as possible. The comments attributed to the President 
should not be misinterpreted.
    Question. Have the facts of China's proliferation activity ever 
been ``fudged'' to avoid imposing U.S. sanctions contained in the Arms 
Export Control Act and other relevant legislation on Chinese 
proliferation of missile, nuclear, chemical, or biological weapons 
material?
    Answer. Absolutely not.
    Question. Is China currently engaged in any weapons proliferation 
activity that violates U.S. law?
    Answer. Nonproliferation of weapons of mass destruction is one of 
the highest priorities in our relations with China. We have made 
significant strides in the nuclear area, but we continue to have 
concerns in nonnuclear nonproliferation areas.
    The U.S. has in the past imposed sanctions on Chinese entities in 
accordance with U.S. law. For example, we imposed sanctions in 1991 and 
1993 on Chinese entities for missile-related transfers to Pakistan and 
recently for assistance to Iran's chemical weapons program. We will 
continue to impose applicable sanctions ii and when facts warrant and 
sufficient standards of evidence are met.
    Question. The June 1997 CIA report on the proliferation of weapons 
of mass destruction identifies China as the ``most significant supplier 
of weapons of mass destruction-related goods and technology to foreign 
countries.''
    If this statement is true, in what proliferation activity is China 
engaged that would violate applicable U.S. nonproliferation statutes?
    Answer. Nonproliferation has been one of the highest priorities of 
the Administration's engagement with China. We have made significant 
progress with China in the nuclear nonproliferation area, but we 
continue to have concerns about activities of Chinese entities in the 
missile and chemical fields.
    The U.S. has in the past imposed sanctions on Chinese entities in 
accordance with U.S. law. For example, we imposed sanctions in 1991 and 
1993 on Chinese entities for missile-related transfers to Pakistan and 
last year for assistance to Iran's chemical weapons program.
    We will continue to impose applicable sanctions if and when facts 
warrant and sufficient standards of evidence are met.
    Question. Is China still the world's worst proliferator of weapons 
of mass destruction technology?
    Answer. As noted above, we have made significant progress in the 
nuclear area. We are continuing to pursue progress in nonnuclear 
nonproliferation areas including the strengthening of export controls 
on missiles-related items, dual-use chemicals, and chemical production 
equipment.
    Question. To your knowledge, are there any countries that are worse 
proliferators of weapons of mass destruction technology?
    Answer. Nonproliferation of weapons of mass destruction is a high 
priority issue in our bilateral relations with many countries. 
Proliferation concerns are not restricted to one or two countries. For 
example, we have imposed sanctions on entities in other countries 
including North Korea, India, Pakistan, Germany, and Italy.
    Question. With regard to the Loral-Hughes transfer of satellite 
technology to China in 1996, The Washington Times reports that a 
Defense Department memo on the transfer states that ``United States 
national security has been harmed.''
    A. What sensitive information did Loral potentially transfer to the 
Chinese in 1996?
    B. In your own review of the 1996 case of Loral transferring 
sensitive technology to China, do you concur with the Pentagon's 
statement that the ``United States national security has been harmed.''
    C. Has U.S.-China space cooperation improved China's 
intercontinental ballistic missile capability?
    D. Does China have nuclear missiles pointed at the United States?
    Answer:

    A. The determination of what information Loral may have passed to 
the Chinese as part of the investigation into the February 1996 launch 
failure of a Long March rocket is currently under investigation by the 
Department of Justice. I have not seen the Defense Department report 
referred to in The Washington Times because of a request from the 
Department of Justice that it not be released out of concern that its 
release would jeopardize the ongoing investigation.
    B. I have not reviewed the 1996 case personally. Within the State 
Department, the review was undertaken by regulatory experts in the 
Office of Defense Trade Controls in the Bureau of Political Military 
Affairs. The bureau referred the case to the Department of Justice and 
the U.S. Customs Service.
    C. Our policy of allowing U.S.-made commercial satellites to be 
launched on Chinese launch vehicles was established under President 
Reagan. Since that time there has never been any consideration of 
providing China with technology to improve its intercontinental 
ballistic missile capability.
    The U.S. has a very strict policy, embodied in a bilateral 
technology safeguards agreement between the U.S. and China, which is 
designed to prevent the transfer of sensitive missile technology to 
China. U.S. companies involved in Chinese launches of U.S. satellites 
are specifically precluded from assisting China in any way on the 
design, development, operation, maintenance, modification, or repair of 
launch vehicles.
    When we obtain information that indicates that such technology may 
have been transferred in violation of those safeguards we take these 
cases very seriously and investigate them thoroughly.
    D. We know that China has for some time had missiles in its arsenal 
which are capable of hitting cities in the United States. Additional 
information can be provided to the Committee in closed session.
    Question. Representative Dana Rohrabacher, chairman of the House 
Space and Aeronautics Subcommittee, stated in floor remarks on April 
30, 1998 that the Administration has ``been doing everything they can 
to quash the [Justice Department] investigation'' of the Loral-Hughes 
case. Do you support a Justice Department investigation? How have you 
helped or assisted the Justice Department?
    Answer. The State Department fully supports the Justice Department 
investigation. We have fully cooperated with Justice's investigation 
and have been responsive to Justice's requests for documents. We will 
continue to assist Justice on this case.
    Question. According to The New York Times, Justice Department 
officials feared that the waiver approved by President Clinton on 
February 18, 1998 for a Loral satellite launch in China would undermine 
an ongoing investigation of a similar launch in 1996.
    A. Why did President Clinton approve the waiver if there was the 
risk of undermining an important investigation into possible 
proliferation activity by a U.S. company?
    B. Did the fact that Bernard Schwartz--the CEO of Loral--was the 
largest individual contributor to the Democratic Party have any 
influence on the Administration's decision to issue the waiver in 
February for the satellite launch?
    C. Were Mr. Schwartz's political contributions mentioned in 
discussions within the Executive Branch regarding the February 1998 
waiver for the satellite launch?
    Answer. A. As reflected in the Presidential decision memorandum 
provided by the NSC to the Committee, the President was aware of the 
ongoing investigation of Loral for possible export control violations 
when he signed the waiver in February 1998. The Justice Department's 
views were weighed carefully in that decision along with other factors 
which supported a waiver.
    The State Department has a long standing policy of not barring 
applicants that are under investigation from receiving export licenses 
in the absence of an indictment. If the investigation in this case 
leads to an indictment before the satellite is exported, the license 
can be revoked and other penalties imposed.
    B. To the best of my knowledge, neither the fact nor the amount of 
campaign contributions by Mr. Schwartz or any other individual had any 
bearing whatsoever on the decisionto issue the February 1998 waiver or 
any other Tiananmen sanction waiver.
    C. To the best of my knowledge, the fact of Mr. Schwartz's campaign 
contributions was never mentioned in any State Department or 
interagency discussions about this waiver.
    Question. Reports indicate that the President will begin his visit 
to China with an appearance at Tiananmen Square.
    If the President is going to Tiananmen Square in June, why not 
visit the site on June 4, the anniversary of the Tiananmen massacre?
    Answer. The United States and Chinese governments have stated that 
the visit will occur during the last week of June and perhaps the first 
week of July. During warm weather months, it is Chinese practice to 
hold arrival ceremonies in front of the Great Hall of the People 
adjacent to Tiananmen Square. The arrival ceremonies for other heads of 
government who have visited China since 1989, including Major, Yeltsin, 
Hashimoto, and Chirac, have been held there.
    The President's strong views about what happened in Tiananmen in 
1989 are well-known and a matter of public record. He has made clear in 
the past and will continue to make clear our view that the break-up of 
the demonstrations, and the consequent killing of many innocent 
civilians, was tragic and a great mistake by the Chinese leaders.
    Question. What will the President say in Tiananmen Square? Will he 
honor the students that were killed there in 1989?
    Answer. Ceremonies for foreign dignitaries at Tiananmen Square do 
not traditionally include remarks by visiting leaders. Human rights is 
at the top of the President's summit agenda. The President raised our 
human rights concerns with President Jiang both in public and in 
private during the October 1997 summit, and plans to do the same at the 
upcoming Beijing summit.
    Question. The Chinese government has been engaged in a systematic 
and massive campaign to repress religious minorities, and has 
implemented a general repression of political dissent in China.
    Therefore, why did the Administration not introduce and support a 
resolution to condemn China's human rights atrocities at this year's 
meeting of the UN Commission on Human Rights?
    Answer. The decision not to go forward with a resolution at the UN 
Human Rights Commission this year was based on positive steps China has 
taken in the area of human rights in recent months and the anticipation 
of additional ones. The decision does not mean that China's human 
rights record is satisfactory. It is not. We will continue to press 
China--publicly and privately, as appropriate--on human rights issues 
of concern to us. Human rights issues will be very much on the 
President's agenda at the Beijing summit.
    Question. Was there a deal struck with the Chinese government that 
the United States would not introduce a resolution in exchange for the 
release of a select few political prisoners?
    Answer. We made this decision because of the positive steps which 
the Chinese had taken and the expectation of further progress toward 
improving human rights in the future. I would note that the 
International Covenant on Civil and Political Rights, which China has 
announced it will sign, includes a review of China's human rights 
practices.
    Question. The 1996 State Department Report on Human Rights 
practices stated that ``No dissidents were known to be active at year's 
end'' in China. In this country of over 1 billion people, would you say 
that is still an accurate assessment of the level of political dissent 
in China?
    Answer. No. I do not believe that is an accurate assessment of the 
current situation. The Department's 1997 China human rights report 
noted, for example, that a number of dissidents, academics, and former 
officials issued public statements, letters or petitions challenging 
the Government's policies or advocating political reform. Generally 
speaking, the Government's response to dissent over the past year has 
been somewhat more tolerant than in recent years.
    Question. The Administration identifies China's trade regime as 
restrictive and prohibitive. I would like to consider for a moment the 
potential for U.S. businesses if China's market was- indeed open. In 
1997, the Chinese market demanded much more than the U.S. has actually 
been able to get past Chinese barriers. In 1997, the U.S. had only 5% 
of China's $18 billion industrial chemical market; 3% of its $12 
billion pharmaceutical market; 3% of its $8 billion poultry market; and 
less than 1% of its grains market.

    What is the Administration doing about this disparity?
    Answer. The primary goal of our trade policy with China is to 
pursue market opening initiatives on a broad scale for U.S. goods, 
services and agricultural products using the WTO accession process and 
bilateral agreements. We must see greater balance in our trade 
relationship, particularly in those sectors where U.S. companies are 
most competitive. The ongoing WTO negotiations provide the mechanism to 
address, in a systematic way, the broad range of market access barriers 
that limit U.S. exporters' access to China's market. Bilaterally, there 
has been continued progress in reducing illicit IPR production in China 
and we are beginning to see the legitimate licensing of film and music 
production in China. Our textile agreement provides market access for 
the first time for U.S. textiles and apparel exports.
    Question. In the 1992 Market Access Agreement, China already made 
commitments to eliminate& the barriers to these sectors by December 31, 
1997. Why do we need further negotiations on these sectors when China 
has already made the commitments to provide market access but has 
failed to honor those commitments?
    Answer. The Administration is committed to ensure that all 
agreements are effectively implemented. China's commitments are 
continually monitored, including those contained in the 1992 market 
access MOU. China has taken some significant steps in implementing the 
1992 Market Access Agreement. Its trade regime is now more transparent, 
it has lowered tariffs on many products and eliminated well over a 
thousand non-tariff barriers. While China has removed a substantial 
number of these barriers, we are concerned with other, less transparent 
barriers. China's implementation of sanitary and phyto-sanitary 
restrictions, as required by the 1992 Agreement, also remains 
incomplete, though China has relaxed restrictions covering imports of 
U.S. apples, cherries, grapes, cattle, swine, and bovine embryos.
    Question. Will the Administration ensure that all of China's 1992 
Market Access commitments are fulfilled before it supports WTO 
accession?
    Answer. The Administration is committed to ensure that all 
agreements are effectively implemented China's commitments are 
continually monitored, including those contained in the 1992 market 
access MOU. China has taken some significant steps in implementing the 
1992 Market Access Agreement. At the same time, the WTO negotiations 
provide the mechanism to address, in a systematic way, the broad range 
of market access barriers that unfairly limit U.S. exporters' access to 
China's market. Some of these barriers were not covered by the 1992 
Agreement, and others, such as tariffs, can be further reduced.
    Question. China agreed in the 1992 U.S.-China Market Access 
Memorandum of Understanding that it would adopt a scientific basis for 
its sanitary and phytosanitary inspection requirements on key 
agricultural commodities. In exchange of China's fulfillment of this 
commitment, the United States agreed to staunchly support China's 
accession to the WTO.
    The Agreement was to be implemented by the end of 1997. Is the 
Administration pursuing WTO negotiations on these issues?
    Answer. The Administration is using every available means to ensure 
that China's sanitary and phytosanitary (SPS) measures for all 
products, not just those listed in the 1992 MOU, are based on sound 
science. On the multilateral side in China's WTO accession 
negotiations, the United States has emphasized that China must comply 
with all aspects of the SPS Agreement upon accession. We have 
specifically requested that China describe how it intends to implement 
the SPS Agreement. Once China accedes, it will be subject to WTO 
dispute settlement should WTO members believe that China's SPS measures 
violate the SPS Agreement.
    Question. Will the Administration be able to ensure that the 1992 
commitments of the Chinese are fulfilled before it supports WTO 
accession?
    Answer. On the bilateral side, we are continuing to work to ensure 
that China implements the 1992 MOU. China has made some progress on 
improving the implementation of SPS measures so that it now permits 
imports of U.S. live cattle and swine, bovine embryos, cherries and 
delicious variety apples from Washington, apples from Oregon and Idaho, 
and grapes from California. We are continuing to work on resolving SPS 
issues related to citrus, wheat from the Pacific Northwest, and 
tobacco. U.S. negotiators and agricultural experts have intensified 
their efforts over past few months so that we can reach agreement on 
appropriate protocols and work plans for these products and exports can 
commence soon.
    Question. China made two commitments in the 1992 U.S.-China Market 
Access Memorandum of Understanding that are important to the U.S. 
automobile industry. First, China made the assertion that it does not 
have or will not have any import substitution policies in place. 
Second, it stated that it does not or will not make quantitative 
restrictions on automotive joint ventures' access to parts or kits. 
Specifically, the Agreement stated:

        The Chinese government also agrees that the operation of 
        current and future U.S. joint ventures in China in the 
        production of motor vehicles and parts will not be affected by 
        quantitative restrictions on parts or kits to be used by the 
        joint ventures. Furthermore, such joint ventures will be 
        permitted to import parts and kits to expand production, 
        including expansion into new product lines.

    In exchange for China's compliance with all of these commitments, 
the United States stated that it would support China's WTO accession. 
In the USTR annual report, the Administration reported that it is 
negotiating with China on these policies.
    Question. Are these negotiations under the purview of the 1992 
Agreement, or is the Administration going forward with WTO negotiations 
even though the Chinese failed to honor their commitments?
    Answer. While it's not appropriate for us to comment on the 
language in the USTR annual report, the Administration is committed to 
ensure that all agreements are effectively implemented. China's 
commitments are continually monitored, including those contained in the 
1992 market access MOU. China has taken some significant steps in 
implementing the 1992 Market Access Agreement. Its trade regime is now 
more transparent, it has lowered tariffs on many products and 
eliminated well over a thousand non-tariff barriers. While China has 
removed a substantial number of these barriers, we are concerned with 
other, less transparent barriers.
    Question. Will the Administration be able to ensure that the 1992 
commitments of the Chinese are fulfilled before it supports WTO 
accession?
    Answer. China has taken some significant steps in implementing the 
1992 Market Access Agreement and we are continuing to press China for 
full implementation of its commitments under this agreement. The WTO 
negotiations provide the mechanism to address, in a systematic way, the 
broad range of market access barriers that unfairly limit U.S. 
exporters' access to China's market. Some of these barriers were not 
covered by the 1992 Agreement, and others, such as tariffs, can be 
further reduced.
    Question. Pervasive piracy in China continues to undermine severely 
the ability of U.S. software companies to do business in that important 
market. We will not be able to get a handle on this problem until the 
Chinese government gets its own house in order and ensures that it is 
internally using only legal software.
    Will the President address this problem during his trip to China by 
asking the Chinese to issue a ``Red Head Decree'' (equivalent to a U.S. 
Executive Order) mandating the use of legal software in government 
entities at the central, provincial, and local levels?
    Answer. We understand that final decisions have not yet been made 
on what topics the President will raise during his trip to China. We 
believe that issuance of a directive of the type you describe would be 
a useful step. We don't plan to stop with that step. Follow-up will be 
required to determine if ministries are actually enforcing the order 
and that will require additional cooperation from China.
    Question. Is it the Administration's position that this is of 
critical importance to the future of the software industry in China? I 
support this and the issuance of a comparable executive order in the 
United States.
    Answer. No additional comment.
    Question. The U.S. software industry is having trouble bringing 
actions against companies in China that make unauthorized copies of 
U.S. products for internal use. In fact, the U.S. software industry has 
stated that this practice of pirating for internal use accounts for 
over half of the nearly $1 billion in losses faced by U.S. software 
companies every year in China.
    What steps is the Administration taking to promote the rule of law 
in China generally?
    Answer. In the joint statement issued at the October, 1997 summit, 
the U.S. and China agreed that promoting cooperation in the field of 
law serves the interests and needs of both countries and agreed to 
undertake cooperative activities in a number of areas. These activities 
will be focused on improving legal institutions in China, including in 
the area of commercial law. The Administration has been working hard 
with the Chinese to work out details of these activities. More 
generally, the Administration's efforts in connection with China's 
accession to the WTO will promote changes that will contribute to 
increasing the rule of law through requiring enhanced transparency, the 
obligation to notify and explain decisions, subjecting all 
administrative decisions on trade-related issues to judicial review, 
and application of the WTO's dispute settlement procedures to China's 
laws and regulations. Our bilateral agreements with China also 
contribute to and promote the concept of rule of law. The 
Administration expects China to implement its agreements fully and 
works to ensure that China respects its bilateral obligations.
    Question. Also, what steps are being taken to develop an 
enforcement system allowing U.S. software and other companies to 
enforce their rights?
    Answer. Based on our bilateral IPR Agreements, China has taken 
strong measures against production of pirated CD-ROMs, VCDs and other 
optical media. Chinese authorities developed andused a reward system to 
obtain information on illegal production facilities in China. In 1997, 
China revised its Criminal Code to make IPR infringement a separate 
offense punishable by prison terms and fines. The government has also 
instituted a system under which IPR owners can bring criminal actions 
as well as civil actions against alleged infringers. Finally, we have 
requested that Chinese authorities issue high level guidance to 
ministries to reinforce the need to ensure that the government uses 
legitimate software in an authorized manner, i.e., stop end-piracy in 
government ministries. We are also urging the government to ensure that 
adequate resources are made available for the purchase of enough 
legitimate software to address the needs for that product.
    U.S. government experts and negotiators meet with their 
counterparts on a regular basis to raise these and other IPR protection 
and enforcement issues. We will continue these efforts in China, as we 
do in other countries with IPR problems, until we reach a satisfactory 
solution.
    Responses of Secretary Roth to Questions Asked by Senator Thomas
Arms Sales to Taiwan
    Question. The Taiwan Relations Act was enacted to assist in 
safeguarding peace, security and stability in the West Pacific region. 
Will the United States continue to sell arms to Taiwan in accordance 
with the Taiwan Relations Act?
    Answer. Yes, the Clinton Administration remains firmly committed to 
fulfilling the security provisions of the Taiwan Relations Act and to 
making such defensive arms available to Taiwan as are necessary to 
carry out those provisions.
    Question. The PRC has not given up the use of force to solve the 
cross-Strait issue. How would the U.S. government react if the PRC test 
fired missiles again in the Taiwan Strait?
    Answer. In accordance with the TRA, we would consider any effort to 
determine Taiwan's future by other than peaceful means a ``threat to 
the peace and security of the Western Pacific area and of grave concern 
to the United States.'' As required by the Taiwan Relations Act, if we 
were to perceive a threat to the security or the social or economic 
system of the people on Taiwan and any danger to the interests of the 
United States arising therefrom, we would consult with the Congress on 
an appropriate response.
    Question. The PRC views U.S. arms sales to Taiwan as part of global 
arms proliferation. The PRC seeks linkage of the two issues in order to 
stop U.S. arms sales to Taiwan Has the Administration ever considered 
halting arms sales to Taiwan, or putting a moratorium on major arms 
sales to Taiwan? What is your interpretation of arms sales to Taiwan?
    Answer. The Administration remains committed to making such sales 
of defensive arms to Taiwan as are necessary to fulfill the terms of 
the Taiwan Relations Act. Such arms sales are consistent with the 1982 
U.S.-PRC Joint Communique. This policy is firm and will not change. In 
our view, U.S. arms transfers maintain Taiwan's capability to defend 
itself, thereby contributing to regional security and stability and 
creating an atmosphere conducive to the peaceful resolution of 
differences between Taiwan and thePRC.
    Question. At the time of the China-Taiwan cross-Strait tensions in 
1996, the U.S. and Taiwan militaries had an insufficient knowledge of 
each other's military leaders and operation procedures. While we are 
heading for closer relations with the People's Liberation Army, are you 
willing to support efforts to upgrade U.S.-Taiwan military-to-military 
relations?
    Answer. Under the auspices of the American Institute in Taiwan, we 
maintain regular contacts with the Taiwan military. We have worked to 
ensure that this relationship is effective in enabling the U.S. and 
Taiwan to be well informed on relevant issues. At the same time, we 
believe our efforts to increase openness and transparency in the 
People's Liberation Army have contributed to stability in the region, 
which has benefited the U.S., Taiwan, and others.
    Question. There have been news articles saying that the U.S. might 
be consulting the PRC regarding our arms sales to Taiwan. I have to 
remind you of our ``Six Assurances'' to Taiwan in 1982 that one of our 
assurances is not to hold prior consultations with the PRC on future 
arms sales to Taiwan. Also, please tell me if President Clinton plans 
to discuss with the PRC regarding arms sales to Taiwan in the coming 
summit?
    Answer. We do not hold prior consultations with the PRC on arms 
sales to Taiwan. In bilateral meetings, PRC officials frequently raise 
their concerns about U.S. arms sales to Taiwan, and we respond when 
they do so, explaining consistent U.S. policy on this matter.
    Question. There is an annual basket in our arms sales to Taiwan. It 
seems like the U.S. is currently increasing training programs for 
Taiwan's military personnel. I would support increasing the training 
but expect that it would not decrease our military hardware sales to 
Taiwan. Does the Administration intend to reduce arms sales to Taiwan 
by increasing training programs for Taiwan?
    Answer. The Administration remains committed to making such sales 
of defensive arms to Taiwan as are necessary to fulfill the terms of 
the Taiwan Relations Act. Such arms sales are consistent with the 1982 
U.S.-PRC Joint Communique. This policy is firm and will not change. 
Training programs supplement and do not substitute for sales of 
defensive arms. These training programs are intended to enable the 
Taiwan military to make effective use of the defensive arms we have 
provided.

The Taiwan Relations Act
    Question. Do you also understand the importance of the Taiwan 
Relations Act as a foundation of our relationship with thePRC as well 
as with Taiwan?
    Answer. We understand the importance of the Taiwan Relations Act as 
a foundation for our unofficial relationship with the people on Taiwan, 
and, by extension, its relevance for our relationship with the PRC.
    What do you think the U.S.'s interests and obligations are with 
respect to Taiwan? Do you understand that the Taiwan Relations Act, as 
the law of the land, takes legal precedence over the three U.S.-PRC 
joint Communiques, which are merely statements of policy?
    Answer. We scrupulously follow the provisions of the Taiwan 
Relations Act (TRA) as the legal basis of our relations with the people 
on Taiwan. The U.S.'s interests and obligations are clearly stated in 
the TRA, for example in the declarations of policy listed in Section 2. 
These include ``to promote extensive, close, and friendly commercial, 
cultural, and other relations between the people of the United States 
and the people on Taiwan, as well as the people on the China mainland--
,'' as well as ``to provide Taiwan with arms of a defensive 
character.'' We have worked hard--and, we believe, successfully since 
1979 to achieve a strong and robust unofficial relationship with 
Taiwan.
    We do understand that our three communiques with the People's 
Republic of China are statements of policy. These policy statements are 
of great importance in our relationship with the PRC and are consistent 
with the Taiwan Relations Act. The TRA, as law, clearly takes 
precedence over the communiques.
U.S. Policies Toward Taiwan
    Question. Taiwan has concluded negotiations with the U.S. regarding 
its accession to the WTO. Does the United States' policy view Taiwan's 
application as entirely separate from the PRC's application? Will the 
United States immediately help Taiwan gain accession? Would Taiwan be 
admitted to WTO earlier than the PRC, provided that Taiwan concludes 
all its bilateral negotiations with concerned parties regarding its 
accession?
    Answer. Once Taiwan completes its bilateral negotiations with 
concerned WTO trading partners, a relatively complicated multilateral 
process under the auspices of the WTO's Taiwan Working Party still 
remains to be completed. Once the Working Party issues its report and a 
protocol for Taiwan's WTO accession, the accession package would be 
ready for reviewby the WTO's general membership.
    U.S. policy is that each application for accession to the WTO must 
be judged separately on its commercial merits. The Working Party 
process requires consensus among the Working Party members, and 
Taiwan's formal accession requires support from two-thirds of the WTO 
general membership. We cannot predict when these processes will be 
completed. At present, we remain actively engaged in the multilateral 
process required to forge consensus on.
    Question. After the U.S. government's 1994 Taiwan policy review, 
has the U.S. government done anything in helping Taiwan become members 
of international organizations? How will the United States government 
continue to keep its promise of helping Taiwan join international 
organizations?
    Answer. As a result of the 1994 Taiwan Policy Review, recognizing 
Taiwan's growing economic importance and its increasingly pivotal role 
in a number of issues affecting the international community, the 
Administration announced that we would support Taiwan's participation 
in appropriate international organizations where statehood was not a 
requirement for membership and where Taiwan had contributions to make. 
At the time, Taiwan was already a member of both the Asian Development 
Bank and the Asia Pacific Economic Cooperation (APEC) forum.
    In the past several years, we have been addressing Taiwan's 
accession to the World Trade Organization. In February, AIT and TECRO 
signed a bilateral market access agreement, an important step which 
moves Taiwan closer to WTO membership. The complex negotiations on this 
agreement extended over seven years and required seventeen rounds to 
complete; we believe the result is a strong agreement that benefits our 
manufacturing, agricultural, and service sectors as well as the 
consumers on Taiwan. We remain actively engaged in the multilateral 
process required to forge consensus on Taiwan's WTO accession.
    We have also supported Taiwan's membership in the ``Global 
Governmental Forum'' on Semiconductors and in specialized agencies such 
as the International Grains Council, and its observer status in other 
groups such as the International Convention for the Conservation of 
Atlantic Tunas (ICCAT); these are appropriate international fora which 
do not require statehood for participation. We also support the 
participation of Taiwan NGO's in international meetings related to 
initiatives on Global Climate Change (the Conference of Parties for 
which was held most recently in Kyoto) and to CITES (the Convention on 
International Trade in Endangered Species).
    Consistent with our ``one China'' policy, we do not support 
Taiwan's efforts to become a member of organizations in which 
membership is limited to states, including the UN. We do support 
opportunities for Taiwan's voice to be heard in organizations where its 
membership is not possible.
    For example, during the World Health Assembly in Geneva last year, 
we made clear our view that the people of Taiwan have an important 
contribution to make to the work of the WHO and opportunities should be 
found for them to do so. We would welcome any arrangements that were 
acceptable to the members for Taiwan participation in the WHO and other 
international organizations.
    Question. Every member of the APEC is treated as an ``economy''. It 
is unjustifiable that, because of PRC's objections, President Lee Teng-
hui of Taiwan has not been able to attend the APEC Economic Leaders 
Meeting like other heads of state of its member economies. What is U.S. 
policy toward Taiwan's top official attending the annual APEC Economic 
Leaders Meeting? How could you justify our discriminating President 
Lee's presence in the meeting?
    Answer. APEC is a grouping of economies. When we hosted the APEC 
Leaders' Meeting, we believed it appropriate that Taiwan should be 
represented by the head of its preeminent economic agency. Each host 
economy makes its own decision on whom to invite to the Leaders' 
Meetings.

Six Assurances
    Question. Are you aware of the ``Six Assurances?''
    Answer. In his testimony before the House Foreign Affairs Committee 
on August 18, 1982, then-Assistant Secretary John Holdridge, when 
discussing the meaning of the August 17, 1982 U.S.-PRC Joint Communique 
for our unofficial relations with Taiwan, explained principles that 
have been described as the six assurances. I am certainly aware of Mr. 
Holdridge's statement and the principles he described.
    Question. Do you intend to abide by the ``Six Assurances?''
    Answer. I would like to reaffirm this Administration's commitment 
to the principles articulated by then-Assistant Secretary Holdridge in 
his 1982 testimony to the House Foreign Affairs Committee.
    Question. Which has the force of law? The Taiwan Relations Act or 
the August 17, 1982 Joint Communique?
    Answer. The Taiwan Relations Act is a law and the August 17, 1982 
U.S.-PRC Joint Communique, like the other two communiques between the 
U.S. and the PRC, is a statement of policy.
One China Policy
    Question. Has the United States changed its position on the ``One 
China'' policy?
    Answer. No. The United States has not changed its position on the 
``one China'' policy which has been followed by six successive 
Administrations. In our communiques with the PRC, we recognized its 
government as ``the sole legal Government of China'' and ``acknowledged 
the Chinese position that there is but one China and Taiwan is part of 
China.'' The U.S. has consistently held that resolution of issues 
between Taiwan and the PRC is to be worked out by the Chinese people on 
both sides of the Taiwan Strait themselves. Our abiding interest is 
that any resolution be reached peacefully.
    Question. The PRC apparently insists that one China means the PRC. 
It considers Taiwan to be a part of its territory. The PRC even calls 
Taiwan a ``renegade province.'' Is such a claim consistent with the 
U.S. position? How is the U.S. government responding to such and 
similar statements by thePRC?
    Answer. When the issue of Taiwan is raised, the United States 
responds by reiterating its well-known and consistent position on the 
``one China'' policy. In our communiques with the PRC, we recognized 
its government as ``the sole legal Government of China'' and 
``acknowledged the Chinese position that there is but one China and 
Taiwan is part of China.'' The U.S. has consistently held that 
resolution of issues between Taiwan and the PRC is to be worked out by 
the Chinese people on both sides of the Taiwan Strait themselves; our 
abiding interest is that any resolution be reached peacefully.
    Question. The creative idea of using words like ``the U.S. 
acknowledges that all Chinese on either side of the Taiwan Strait 
maintain there is but one China...'' in the three Communiques is aimed 
at not having the U.S. ``recognize'' one China policy directly. It 
seems to me that the U.S. has drifted away from the three Communiques 
in this regard that has maintained stability across the Taiwan Strait 
in the past decades. Would you tell me what our position is on ``one 
China'' policy in the three Communiques, and if we have changed our 
policy?
    Answer. The United States has not changed its position on the ``one 
China'' policy as expressed in the three U.S.-PRC joint communiques. In 
the 1978 communique on the establishment of diplomatic relations with 
the PRC, the United States ``recognized the Government of the People's 
Republic of China as the sole legal Government of China'' and 
``acknowledged the Chinese position that there is but one China and 
Taiwan is part of China.'' The U.S. has consistently held that 
resolution of issues between Taiwan and the PRC is to be worked out by 
the Chinese people on both sides of the Taiwan Strait themselves. Our 
abiding interest is that any resolution be reached peacefully.
Parallel Engagement--U.S. Relations with the PRC and Taiwan
    Question. While the U.S. is engaged in improving its relations with 
the PRC, the U.S. should also upgrade its level of dialogue with 
Taiwan. This would avoid the impression that the U.S. is improving its 
relations with the PRC at Taiwan's expense. Have you taken any concrete 
action to upgrade our level of dialogue with Taiwan since you became 
Assistant Secretary of State?
    Answer. We do not believe that ``upgrading'' our relations with 
Taiwan is necessary. Our unofficial relations with the people on Taiwan 
today are more robust and stronger than ever. Furthermore, the recent 
improvement in our relations with the PRC has not been to Taiwan's 
disadvantage. Quite the contrary, cross-Strait relations have improved 
since President Jiang's U.S. visit. We believe, in addition, that it is 
inappropriate, given the unofficial nature of our ties with Taiwan and 
our diplomatic recognition of the PRC, to describe our relationship as 
one of ``parallel engagement.''
    Since 1979 we have broadened and deepened our ties as Taiwan has 
evolved both economically and politically. In recognition of these 
changes and with a view to better advancing our national interests this 
Administration four years ago conducted an extensive interagency review 
of the way we manage our Taiwan policy, the first such review since 
1979. Developments over the ensuing years in themselves have validated 
the decisions resulting from that review, and our unofficial relations 
have continued to expand and improve.
    Today, our dialogue with the Taiwan authorities, through the 
American Institute in Taiwan (AIT) and the Taipei Economic and Cultural 
Representative Office (TECRO) and directly when appropriate, is regular 
and extensive in both Taipei and Washington, D.C.
    Since the 1994 Policy Review, then Secretary of Transportation Pena 
in 1994 and then-Small Business Administrator Phil Lader in 1996 were 
able to visit Taipei to attend meetings of the U.S.-Taiwan Business 
Council; demonstrating the importance of our economic relationship, we 
also had Cabinet-level attendance when this group met in the U.S. in 
1995 and 1997.
    A significant number of U.S. officials of various ranks in economic 
and technical fields regularly travel to Taiwan each year and an 
impressive number of figures from Taiwan come to the U.S. and are able 
to meet their U.S. counterparts here in Washington, D.C. This month, 
Taiwan's Minister of Finance, its Government Information Office 
Director-General, and the Chairman of its Straits Exchange Foundation 
have all visited Washington.
    Reflecting the tremendous growth of U.S.-Taiwan economic ties, our 
1994 Taiwan Policy Review also paved the way for closer interactions 
when we agreed to hold both Trade and Investment Framework Agreement 
(TIFA) talks and Subcabinet Level Economic Dialogue (SLED) meetings 
with Taiwan. Under AIT auspices, USTR has led the TIFA talks and then-
Under Secretary and now Deputy Treasury Secretary Larry Summers has 
been the lead for the SLED process. We look forward to holding both 
TIFA and SLED sessions later this summer.
    Question. Will there be any US-PRC joint document regardingTaiwan, 
as a result of President Clinton's visit to Beijing?If yes, will the 
joint statement/joint news statement/or anyother document weaken the 
U.S. commitments towards Taiwan?
    Answer. We do not anticipate any joint document regarding Taiwan as 
a result of President Clinton's visit to Beijing.
1994 Taiwan Policy Review
    Question. Is it possible to arrange for more high ranking officials 
to visit Taiwan? Is it possible to include visits by senior officials 
to Taiwan as part of the overall annual action plan towards Taiwan?
    Answer. Since the 1994 Taiwan Policy Review, then-Secretary of 
Transportation Pena in 1994 and then-Small Business Administrator Phil 
Lader in 1996--both Cabinet-level officials--have visited Taipei to 
attend meetings of the U.S.-Taiwan Business Council; we also had 
Cabinet-level attendance when this group met in the U.S. in 1995 and 
1997.
    A significant number of U.S. officials of various ranks in economic 
and technical fields regularly travel to Taiwan each year, and an 
impressive number of Taiwan visitors at all levels come to the U.S. and 
are able to meet their U.S. counterparts here in Washington, D.C. This 
month, Taiwan's Minister of Finance, its Government Information Office 
Director-General, and the Chairman of its Straits Exchange Foundation 
have all visited Washington. We look forward later this summer to our 
Subcabinet-Level Economic Dialogue which is led by Deputy Treasury 
Secretary Summers under ALT auspices.
    Question. When U.S. cabinet members visit the Asian Pacific region 
during APEC meetings, is it possible for them to visit Taiwan too? Will 
the State Department support such an idea?
    Answer. Other than their own crowded schedules, there is no reason 
U.S. Cabinet Officials heading economic and technical Departments could 
not stop in Taiwan during visits to the region, if there is a 
substantive objective for such a visit.
    Question. After the U.S. government's Taiwan policy review, has the 
U.S. government done anything to help Taiwan to gain membership in 
international organizations? How will the United States government 
continue to keep its promise of helping Taiwan join international 
organizations?
    Answer. As a result of the 1994 Taiwan Policy Review, recognizing 
Taiwan's growing economic importance and its increasingly pivotal role 
in a number of issues affecting the international community, the 
Administration announced that we would support Taiwan's participation 
in appropriate international organizations where statehood was not a 
requirement for membership and where Taiwan had contributions to make. 
At the time, Taiwan was already a member of both the Asian Development 
Bank and the Asia Pacific Economic Cooperation (APEC) forum.
    In the past several years, we have been addressing Taiwan's 
accession to the World Trade Organization. In February, ALT and TECRO 
signed a bilateral market access agreement, an important step which 
moves Taiwan closer to WTO membership. The complex negotiations on this 
agreement extended over seven years and required seventeen rounds to 
complete; we believe the result is a strong agreement that benefits our 
manufacturing, agricultural, and service sectors as well as the 
consumers on Taiwan. We remain actively engaged in the multilateral 
process required to forge consensus on Taiwan's WTO accession.
    We have also supported Taiwan's membership in the ``Global 
Governmental Forum'' on Semiconductors and in specialized agencies such 
as the International Grains Council, and its observer status in other 
groups such as the International Convention for the Conservation of 
Atlantic Tunas (ICCAT); these are appropriate international fora which 
do not require statehood for participation. We also support the 
participation of Taiwan NGQ's in international meetings related to 
initiatives on Global Climate Change (the Conference of Parties for 
which was held most recently in Kyoto) and to CITES (the Convention on 
International Trade in Endangered Species).
    Consistent with our ``one China'' policy, we do not support 
Taiwan's efforts to become a member of organizations in which 
membership is limited to states, including the UN. We do support 
opportunities for Taiwan's voice to be heard in organizations where its 
membership is not possible.
    For example, during the World Health Assembly in Geneva last year, 
we made clear our view that the people of Taiwan have an important 
contribution to make to the work of the WHO and opportunities should be 
found for them to do so. We would welcome any arrangements that were 
acceptable to the members for Taiwan participation in the WHO and other 
international organizations.
    Question. Whenever and wherever we did anything which might be 
viewed as advantageous to Taiwan, the PRC will always give us a hard 
time. In terms of a long term U.S. policy toward the two sides of the 
Taiwan Straits, what, in your view, is a balanced and sustainable 
policy toward these two parties which may minimize U.S. trouble in that 
area?
    Answer. We maintain unofficial relations with the people on Taiwan 
as legally defined by the Taiwan Relations Act and in accordance with 
our 1994 Taiwan Policy Review. We believe that our unofficial relations 
with Taiwan are also consistent with our three joint communique's with 
the PRC. Thus we believe that our current policy is balanced and 
sustainable and that we are managing each relationship in the manner 
most beneficial to our national interests.

                               <greek-d>

      
</pre></body></html>
